i
APPENDIX
TABLE OF CONTENTS
Appendix A:
Appendix B:

In re Picard,

917 F.ௗ3d 85 (CA2 2019) .............. 1a
Memorandum Decision in

Securities Investor Prot. Corp. v.
Bernard L. Madoff Inv. Securities
LLC, No. 08-01789-SMB

(Bkrtcy.ௗCt. SDNY Nov. 22, 2016),
Dkt. No. 14495 ........................... 40a

Appendix C:

Securities Investor Prot. Corp. v.
Bernard L. Madoff Inv. Securities
LLC, 513 B.ௗR. 222 (SDNY

2014) ........................................ 161a
Appendix D:

Order Denying Petition for Panel
Rehearing, or, in the Alternative,
for Rehearing En Banc in In re
Picard, No. 17-2992 (CA2 Apr. 3,
2019), Dkt. No. 1408 ............... 181a

Appendix E:

Order Granting Motion to Stay
the Mandate in In re Picard,
No. 17-2992 (CA2 Apr. 23, 2019),
Dkt. No. 1503 ........................... 183a

Appendix F:

Appendix of Petitioners ........... 185a

Appendix G:

Corporate Disclosure
Statement ................................ 268a

Appendix H:

Appendix of Related Cases ..... 308a

1a
APPENDIX A
17-2992(L)

In re Picard
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term 2018
(Argued: November 16, 2018 |
Decided: February 25, 2019)
Docket Nos. 172992(L),
172995,
173005,
173010,
173016,
173023,
173032,
173039,
173044,
173058,
173065,
173070,
173075,
173083,
173091,
173109,
173122,
173136,
173144,

172996,
173006,
173011,
173018,
173024,
173033,
173040,
173047,
173059,
173066,
173071,
173076,
173084,
173100,
173112,
173126,
173139,
173862.

172999,
173007,
173012,
173019,
173025,
173034,
173041,
173050,
173060,
173067,
173072,
173077,
173086,
173101,
173113,
173129,
173140,

173003,
173008,
173013,
173020,
173026,
173035,
173042,
173054,
173062,
173068,
173073,
173078,
173087,
173102,
173115,
173132,
173141,

173004,
173009,
173014,
173021,
173029,
173038,
173043,
173057,
173064,
173069,
173074,
173080,
173088,
173106,
173117,
173134,
173143,

2a
IN RE: IRVING H. PICARD, TRUSTEE FOR THE
LIQUIDATION OF BERNARD L. MADOFF
INVESTMENT SECURITIES LLC

Before:
JACOBS, POOLER, AND WESLEY,
Circuit Judges.
These eightyeight consolidated appeals come
from dozens of related orders of the United States
Bankruptcy Court for the Southern District of New
York (Bernstein, J.). PlaintiffAppellant Irving H.
Picard, Trustee for the Liquidation of Bernard L.
Madoff Investment Securities LLC (“Madoff
Securities”), alleges that Madoff Securities
transferred property to foreign entities that
subsequently transferred it to other foreign entities,
including the hundreds of Appellees. The Trustee
contends that Madoff Securities’ transfers are
avoidable (meaning “voidable”) as fraudulent under
§ 548(a)(1)(A) of the Bankruptcy Code. He thereby
seeks to recover the property from the Appellees
using § 550(a)(2) of the Bankruptcy Code. These
actions were dismissed on the grounds that the
presumption
against
extraterritoriality
and
international comity principles limit the scope of
§ 550(a)(2) such that the trustee of a domestic debtor
cannot use it to recover property that the debtor
transferred to a foreign entity that subsequently
transferred it to another foreign entity. We disagree
and hold that neither doctrine bars recovery in these

3a
actions. Accordingly, we VACATE the judgments of
the bankruptcy court and REMAND for further
proceedings.
ROY T. ENGLERT, JR., Robbins, Russell, Englert,
Orseck, Untereiner & Sauber LLP,
Washington, D.C. (David J. Sheehan, Seanna
R. Brown, Torello H. Calvani, Catherine E.
Woltering, Baker & Hostetler LLP, New York,
NY, for Plaintiff-Appellant Irving H. Picard;
Howard L. Simon, Windels Marx Lane &
Mittendorf, LLP, New York, NY; Matthew B.
Lunn, Young Conaway Stargatt & Taylor,
LLP, New York, NY, Special Counsel for the
Trustee, on the brief), for Plaintiff-Appellant.
JOSEPHINE WANG, General Counsel (Kevin H.
Bell, Senior Associate General Counsel for
Dispute Resolution, Nathanael S. Kelley,
Associate General Counsel, on the brief),
Securities Investor Protection Corporation,
Washington, D.C., for Intervenor Securities
Investor Protection Corporation.
FRANKLIN B. VELIE, Sullivan & Worcester LLP,
New York, NY; THOMAS J. MOLONEY,
Cleary Gottlieb Steen & Hamilton LLP, New
York, NY (Diarra M. Guthrie, Samuel P.
Hershey, Cleary Gottlieb Steen & Hamilton
LLP, New York, NY; Timothy P. Harkness,
David Y. Livshiz, Jill K. Serpa, Freshfields
Bruckhaus Deringer US LLP, New York, NY;
Marshall R. King, Gibson, Dunn & Crutcher

4a
LLP, New York, NY; Jonathan G.
Kortmansky, Mitchell C. Stein, Sullivan &
Worcester LLP, New York, NY, on the brief),
for Defendants-Appellees HSBC Holdings plc,

et al., UBS AG, et al., First Peninsula
Trustees Limited, et al., and BA Worldwide
Fund Management Limited.

Eugene R. Licker, Ballard Spahr LLP, New York,
NY, for Defendants- Appellees Lighthouse

Investment Partners, LLC, Lighthouse
Supercash Fund Limited, and Lighthouse
Diversified Fund Limited.

Dean A. Ziehl (Harry D. Hochman, Alan J. Kornfeld,
on the brief), Pachulski Stang Ziehl & Jones
LLP, New York, NY, for Amicus Curiae

National Association of Bankruptcy Trustees,
in support of Plaintiff-Appellant.

Roger P. Sugarman, Kegler, Brown Hill + Ritter,
Columbus, OH, for Amici Curiae Professors of

Conflict
of
Laws,
Plaintiff- Appellant.

in

support

of

Andrea Dobin (Henry M. Karwowski, on the brief),
Trenk, DiPasquale, Della Fera & Sodono,
P.C., West Orange, NJ, for Amici Curiae

Bankruptcy Law Professors, in support of
Appeal and Reversal.

David Molton, Brown Rudnick LLP, New York, NY,

for Amicus Curiae Kenneth Krys, as
Liquidator and Foreign Representative of
Fairfield Sentry Limited, Fairfield Sigma
Limited, and Fairfield Lambda Limited, in

5a

support of Plaintiff-Appellant and partial
reversal.
Daniel M. Sullivan (Matthew Gurgel, Benjamin F.
Heidlage, on the brief), Holwell Shuster &
Goldberg LLP, New York, NY, for Amici

Curiae Brian Child, Christopher Hill, Nilani
Perera, Martin Trott, and Andrew Willins, in
support of Defendants-Appellees.

George T. Conway III (Emil A. Kleinhaus, Joseph C.
Celentino, on the brief), Wachtell, Lipton,
Rosen & Katz, New York, NY, for Amicus

Curiae Securities Industry and Financial
Markets Association, in support of
Defendants-Appellees.

Richard A. Kirby, FisherBroyles, LLP, Washington,
D.C. (Carole Neville, Dentons, New York, NY;
Richard Levy, Pryor Cashman LLP, New
York, NY, on the brief), for Amici Curiae Lanx
BM Investments, LLC, et al., in support of
Defendants-Appellees.
Wesley, Circuit Judge:
These eightyeight consolidated appeals arise
from the ongoing fallout of Bernard Madoff’s Ponzi
scheme. As alleged, Bernard L. Madoff Investment
Securities LLC (“Madoff Securities”) fraudulently
transferred billions of dollars to foreign investors,
including the feeder funds at issue here. These
feeder funds, the initial transferees of that property,
subsequently transferred it to other foreign
investors, a group that includes the hundreds of

6a
Appellees. Irving H. Picard, the Appellant and
Trustee for the Liquidation of Madoff Securities,
alleges these transfers are fraudulent, and thus
avoidable (meaning “voidable”), under § 548(a)(1)(A)
of the Bankruptcy Code. Invoking § 550(a)(2) of the
Bankruptcy Code, the Trustee sued the Appellees to
recover the property. The question before us is
whether, where a trustee seeks to avoid an initial
property transfer under § 548(a)(1)(A), either the
presumption
against
extraterritoriality
or
international comity principles limit the reach of
§ 550(a)(2) such that the trustee cannot use it to
recover property from a foreign subsequent
transferee that received the property from a foreign
initial transferee.
Following an order of the United States District
Court for the Southern District of New York (Rakoff,
J.),1 the United States Bankruptcy Court for the
Southern District of New York (Bernstein, J.)2
dismissed the Trustee’s actions, holding in each that
either the presumption against extraterritoriality or
international comity principles prevent the Trustee
from using § 550(a)(2) to recover this property. We
disagree and hold that neither doctrine bars
recovery in these actions. Accordingly, we vacate the

1

Sec. Inv’r Prot. Corp. v. Bernard L. Madoff Inv. Sec. LLC

(SIPC I), 513 B.R. 222 (S.D.N.Y.), supplemented by 12MC115,
2014 WL 3778155 (S.D.N.Y. July 28, 2014).
2

Sec. Inv’r Prot. Corp. v. Bernard L. Madoff Inv. Sec. LLC

(SIPC II), AP 0801789 (SMB), 2016 WL 6900689 (Bankr.
S.D.N.Y. Nov. 22, 2016).

7a
judgments below and remand to the bankruptcy
court for further proceedings.
BACKGROUND
Bernard Madoff orchestrated the largest Ponzi
scheme in history through Madoff Securities, his
New York investment firm. He enticed investors to
buy into alleged investment funds by promising
returns that seemed, and were, too good to be true.
Rather than invest the money, Madoff commingled
it in a checking account he held with JPMorgan
Chase in New York. See, e.g., In re Bernard L.
Madoff Inv. Sec. LLC., 721 F.3d 54, 59–60 (2d Cir.
2013). When investors wanted to withdraw their
funds, Madoff sent them checks from this account.
Id. at 73. In effect, Madoff paid his investors using
money he received from other investors. In 2008, his
fraudulent enterprise collapsed.
On December 15, 2008, the Securities
Investment Protection Corporation, acting pursuant
to the Securities Investor Protection Act of 1978
(“SIPA”), 15 U.S.C. §§ 78aaa et seq., petitioned the
United States District Court for the Southern
District of New York for a protective order placing
Madoff Securities into liquidation. See, e.g., In re
Bernard L. Madoff Inv. Sec. LLC, 740 F.3d 81, 84
(2d Cir. 2014). As we previously explained:
SIPA establishes procedures for the
expeditious and orderly liquidation of failed
brokerdealers,
and
provides
special
protections to their customers. A trustee’s
primary duty under SIPA is to liquidate the
brokerdealer and, in so doing, satisfy claims

8a
made by or on behalf of the brokerdealer’s
customers for cash balances. In a SIPA
liquidation, a fund of “customer property” is
established— consisting of cash and
securities held by the brokerdealer for the
account of a customer, or proceeds
therefrom, 15 U.S.C. § 78lll(4)—for priority
distribution exclusively among customers,
id. § 78fff–2(c)(1). The Trustee allocates the
customer property so that customers “share
ratably in such customer property . . . to the
extent of their respective net equities.” Id.
§ 78fff–2(c)(1)(B).

Id. at 85 (alteration in original) (citation omitted).

The Southern District court issued the protective
order, appointed Picard as Trustee, and referred the
case to the United States Bankruptcy Court for the
Southern District of New York. Id. at 84–85 (citing
Order, SEC v. Bernard L. Madoff and Bernard L.
Madoff Inv. Sec. LLC, 0810791 (LLS) (S.D.N.Y. Dec.
15, 2008), ECF No. 4).
Some debtors, such as Madoff Securities,
complicate a SIPA trustee’s task by unlawfully
transferring customer property prior to the
formation of a liquidation estate. To ensure that
these transfers do not prevent a trustee from ratably
distributing customer property, SIPA authorizes
trustees to “recover any property transferred by the
debtor which, except for such transfer, would have
been customer property if and to the extent that
such transfer is voidable or void under the provisions
of [the Bankruptcy Code].” 15 U.S.C. § 78fff–2(c)(3).

9a
The Bankruptcy Code, in turn, provides various
means for trustees to avoid a debtor’s transfers and,
to the extent that a transfer is avoided, to recover
the transferred property. See 11 U.S.C. §§ 541 et
seq. Section 550(a)(1) allows trustees to recover
property from the debtor’s initial transferee. And
§ 550(a)(2) permits a trustee to recover property
from any subsequent transferee.
Many of Madoff Securities’ direct investors were
“feeder funds.” A feeder fund is an entity that pools
money from numerous investors and then places it
into a “master fund” on their behalf. A master
fund—what Madoff Securities advertised its funds
to be—pools investments from multiple feeder funds
and then invests the money.
Three foreign feeder fund networks that invested
with Madoff Securities are relevant to many of these
appeals:
x Fairfield Greenwich Group is a network of
funds operating in New York whose funds are
organized in the British Virgin Islands
(“BVI”), where Fairfield is in liquidation. In
those proceedings, the bankruptcy court
found, liquidators other than Picard have
“brought substantially the same claims [that
Picard brings here] against substantially the
same group of defendants to recover
substantially the same transfers [that Picard
seeks to recover].”
SIPC II, 2016 WL
6900689, at *13.
x The Kingate Funds is a network of funds
organized in the BVI. Kingate is currently in

10a
liquidation proceedings in the BVI and
Bermuda. Liquidators in those nations have
brought substantially the same claims Picard
brings here “against substantially the same
defendants to recover substantially the same
transfers” with “limited success.” Id. at *14.
x The Harley International (Cayman) Limited
Funds network is located in the Cayman
Islands, where it is currently in liquidation.
Picard pursued some relief in those
proceedings in 2010.
Many of these feeder funds placed all or
substantially all of their assets into Madoff
Securities’ investment vehicles.
Fairfield, for
example, invested 95% of its funds with Madoff
Securities.
When a feeder fund investor wants to withdraw
her money, she effectively needs to recover it from
the master fund.
The investor initiates a
withdrawal by informing the feeder fund, which
itself makes a withdrawal request from the master
fund. The master fund then transfers the money to
the feeder fund (the initial transfer), which
subsequently transfers the money to its investor (the
subsequent transfer).
Because Madoff Securities did not invest the
money it received from the feeder funds, the invested
funds
accrued
no
actual
gains,
despite
representations to the contrary by Madoff Securities
personnel. When a feeder fund’s investor initiated a
withdrawal,
Madoff
Securities
transferred
commingled investor money from its JPMorgan

11a
Chase account in New York to the feeder fund, which
subsequently transferred the money to its investor.

The hundreds of Appellees are foreign
subsequent transferees that invested in foreign
feeder funds. In the bankruptcy court below, the
Trustee sued the Appellees under § 550(a)(2) of the
Bankruptcy Code to recover property the Appellees
allegedly received from Madoff Securities via foreign
feeder funds.3 The Trustee contended that Madoff
Securities’ initial transfers to the feeder funds were
avoidable as fraudulent under § 548(a)(1)(A) of the
Bankruptcy Code.
The United States District Court for the
Southern District of New York, Judge Rakoff,
withdrew the reference to the bankruptcy court to
determine whether § 550(a)(2) allows the Trustee to
recover this property. In a July 2014 decision, the
court held on two grounds that the Trustee could not
proceed with these actions. First, it held that the
presumption against extraterritoriality limits the
scope of § 550(a)(2), such that a trustee may not use
3

The Appellees contest whether the money the feeder funds
sent them came entirely from Madoff Securities. For the
purpose of these appeals, however, the Appellees assume that
the Trustee could trace the money back to Madoff Securities.
We make the same assumption.

12a
it to recover property that one foreign entity received
from another foreign entity.
Second, and
alternatively, the court held that international
comity principles limit the scope of § 550(a)(2) on
these facts. The district court did not dismiss any of
the Trustee’s complaints but instead remanded to
the bankruptcy court for further proceedings
consistent with its opinion.
On remand, and following further factual
development, the United States Bankruptcy Court
for the Southern District of New York, Judge
Bernstein, applied the district court’s reasoning and
dismissed the Trustee’s claims against the
Appellees.
First, the court dismissed the claims against the
Appellees that invested with Fairfield, Kingate, and
Harley on international comity grounds. The court
found that the United States “has no interest in
regulating the relationship between [these funds]
and their investors or the liquidation of [these funds]
and the payment of their investors’ claims.” SIPC II,
2016 WL 6900689, at *14. It also found that the
foreign nations where those entities are in
liquidation “[have] a greater interest [than the
United States] in regulating the activities that gave
rise to the Trustee’s subsequent transfer claims,
particularly the validity or invalidity of payments by
[the funds] to [their] investors and service
providers.” Id. at *16; see also id. at *14.
Second, the bankruptcy court dismissed the
recovery claims against the remaining Appellees
under the presumption against extraterritoriality.

13a
Interpreting our precedent and the district court’s
opinion, the bankruptcy court concluded that the
factors relevant to determining whether the
transactions were extraterritorial were the locations
from which the transfers were made and sent and
the location or residence of the initial and
subsequent transferee. The court dismissed the
Trustee’s claims because he had not alleged facts
sufficient to support a domestic nexus under these
criteria.4
The Trustee appealed the orders dismissing the
recovery actions. We consolidated those appeals and
now resolve them under the following principles.
DISCUSSION
We begin by unpacking the statutory scheme
relevant to these appeals.
“SIPA serves dual purposes: to protect investors,
and to protect the securities market as a whole.” In
re Bernard L. Madoff Inv. Sec. LLC, 654 F.3d 229,
235 (2d Cir. 2011). To achieve these purposes, SIPA
allows courts to appoint trustees, such as Picard,
and endow them with certain authority over
liquidation estates. This authority includes the
power to “allocate customer property of the debtor,”
4

The court also found that some feeder funds had no
connection to their country of organization, were managed and
operated in the United States, and made their subsequent
transfers from New York. It denied the motions to dismiss the
actions involving their subsequent transfers and granted the
Trustee leave to amend so he could show whether those
transactions were domestic.

14a
15 U.S.C. § 78fff–2(c)(1), which SIPA defines as
“cash and securities . . . at any time received,
acquired, or held by or for the account of a debtor
from or for the securities accounts of a customer, and
the proceeds of any such property transferred by the
debtor, including property unlawfully converted,” id.
§ 78lll(4).
“Whenever customer property is not sufficient to
pay in full the claims [against the debtor], the
trustee may recover any property transferred by the
debtor which, except for such transfer, would have
been customer property if and to the extent that
such transfer is voidable or void under the
[Bankruptcy Code].” Id. § 78fff–2(c)(3).
The Trustee alleges Madoff Securities’ initial
transfers to the feeder funds are avoidable as
fraudulent under § 548(a)(1)(A) of the Bankruptcy
Code. That section provides:
The trustee may avoid any transfer . . . of an
interest of the debtor in property, or any
obligation . . . incurred by the debtor, that
was made or incurred on or within 2 years
before the date of the filing of the petition, if
the debtor voluntarily or involuntarily . . .
made such transfer or incurred such
obligation with actual intent to hinder,
delay, or defraud any entity to which the
debtor was or became, on or after the date
that such transfer was made or such
obligation was incurred, indebted. . . .
11 U.S.C. § 548(a)(1)(A).

15a
Only once a transfer is avoided may a trustee
recover the underlying property. Section 550(a), the
recovery provision, states:
Except as otherwise provided in this section,
to the extent that a transfer is avoided under
section 544, 545, 547, 548, 549, 553(b), or
724(a) of this title, the trustee may recover,
for the benefit of the estate, the property
transferred, or, if the court so orders, the
value of such property, from . . . (1) the initial
transferee of such transfer or the entity for
whose benefit such transfer was made; or . .
. (2) any immediate or mediate transferee of
such initial transferee.

Id. § 550(a).5 Relevant here is § 550(a)(2), as the
Trustee seeks to recover property from subsequent
transferees.

I. The Presumption Against Extraterritoriality
The presumption against extraterritoriality is a
canon of statutory construction. RJR Nabisco, Inc.
v. European Cmty., 136 S. Ct. 2090, 2100 (2016). It
provides
that,
“[a]bsent
clearly
expressed
congressional intent to the contrary, federal laws
will be construed to have only domestic application.”
Id. This canon helps “avoid the international discord
that can result when U.S. law is applied to conduct
in foreign countries.”
Id. It also reflects the
“commonsense notion that Congress generally
5

Section 550(b) limits a trustee’s ability to recover under
§ 550(a)(2) from certain subsequent transferees who received
property in good faith.

16a
legislates with domestic concerns in mind.” Id.
(quoting Smith v. United States, 507 U.S. 197, 204
n.5 (1993)).
An action may proceed if either the statute
indicates its extraterritorial reach or the case
involves a domestic application of the statute. The
courts below found that neither criterion was
satisfied and accordingly dismissed these actions.6
Because the reach and applicability of a statute
are questions of statutory interpretation, we review
a lower court’s application of the presumption
against extraterritoriality de novo. See, e.g., Roach
v. Morse, 440 F.3d 53, 56 (2d Cir. 2006).
A. The Focus of § 550(a) in These Actions Is on
the Debtor’s Fraudulent Transfer of Property
to the Initial Transferee.
The Supreme Court teaches that we must look to
a statute’s “focus” to determine whether a case
involves a domestic application of that statute.
If the conduct relevant to the statute’s focus
occurred in the United States, then the case
6

Although the Supreme Court has referred to this
extraterritoriality analysis as a “two step framework,” these
“steps” need not be sequential. See id. at 2101 & n.5. Courts
generally begin by asking whether the statute indicates its
extraterritorial reach, but they are free “in appropriate cases”
to begin by asking whether the case involves an extraterritorial
application of the statute. Id. at 2101 n.5. This is an
appropriate case for beginning with the latter question because
we hold that the transactions here were domestic, and the
extraterritorial reach of a statute is of no moment when a case
is truly a domestic matter.

17a
involves a permissible domestic application
even if other conduct occurred abroad; but if
the conduct relevant to the focus occurred in
a foreign country, then the case involves an
impermissible extraterritorial application
regardless of any other conduct that
occurred in U.S. territory.

RJR Nabisco, 136 S. Ct. at 2101. The Supreme

Court recently explained how to identify a statute’s
focus in WesternGeco LLC v. ION Geophysical
Corp., 138 S. Ct. 2129 (2018).

WesternGeco involved § 271(f) of the Patent Act,
which prohibits the export of component parts of a
patented product for assembly abroad. Id. at 2135
(citing 35 U.S.C. § 271(f)(2)). Plaintiffs alleging
infringement under § 271(f)(2) can recover damages
under 35 U.S.C. § 284. Id. The Federal Circuit held
that § 271(f) does not allow plaintiffs to recover for
lost foreign sales and vacated a jury award premised
on such damages. Id. (citing WesternGeco LLC v.
ION Geophysical Corp., 791 F.3d 1340, 1343 (Fed.
Cir. 2015)).
Reversing, the Supreme Court
explained that “[t]he focus of a statute is ‘the object
of its solicitude,’ which can include the conduct it
‘seeks to regulate,’ as well as the parties and
interests it ‘seeks to protect’ or vindicate.” Id. at
2137 (brackets omitted) (quoting Morrison v. Nat’l
Austl. Bank Ltd., 561 U.S. 247, 267 (2010)). “When
determining the focus of a statute, we do not analyze
the provision at issue in a vacuum.” Id. (citing
Morrison, 561 U.S. at 267–69). Instead:

18a
If the statutory provision at issue works in
tandem with other provisions, it must be
assessed in concert with those other
provisions.
Otherwise, it would be
impossible to accurately determine whether
the application of the statute in the case is a
“domestic application.” And determining
how the statute has actually been applied is
the whole point of the focus test.

Id. (citation omitted) (citing RJR Nabisco, 136 S. Ct.
at 2101).

Applying this principle, the Court identified the
“overriding purpose” of the damages provision,
§ 284, as a remedy for infringement, because it asks
how much a plaintiff is due because of infringement.
See id. (quoting General Motors Corp. v. Detox
Corp., 461 U.S. 648, 655 (1983)). But because there
is more than one way to infringe, the focus of § 284
depends on “the type of infringement that occurred.”
See id. In WesternGeco, that meant turning to
§ 271(f)(2), which the Court found focuses on
domestic conduct because it regulates “the domestic
act of ‘suppl[ying] in or from the United States.’” Id.
at 2137–38 (brackets in original) (quoting 35 U.S.C.
§ 271(f)(2)).
Thus, the Court held that “the focus of § 284, in
a case involving infringement under § 271(f)(2), is on
the act of exporting components from the United
States,” which is “domestic infringement.” Id. at
2138. It rejected an argument that the statute
focuses on damages, even though it authorizes them,
because “what a statute authorizes is not necessarily

19a
its focus.” Id. Instead, the Court found that damages
are “merely the means by which the statute achieves
its end of remedying infringements.” Id.

WesternGeco helps resolve two issues relevant to

these cases: (1) whether we should look to the
pertinent avoidance provision (here, § 548(a)(1)(A))
in determining the focus of § 550(a), and (2) the focus
of § 550(a) in these actions.
1. We Must Look to § 548(a)(1)(A) to
Determine the Focus of § 550(a) in These
Cases Because the Provisions Work “In
Tandem.”

No one disputes that, in an action where a
trustee seeks to recover property under § 550(a), we
must at a minimum look to that section. The dispute
is whether we must additionally look to the
avoidance provision that enables a trustee’s
recovery. Section 550(a) applies only “to the extent
that a transfer is avoided under section 544, 545,
547, 548, 549, 553(b), or 724(a) of this title.” 11
U.S.C. § 550(a). In other words, a trustee cannot use
§ 550(a) to recover property unless the trustee has
first avoided a transfer under one of these
provisions.
Like the infringement and damages provisions of
the Patent Act, the Bankruptcy Code’s avoidance
and recovery provisions work “in tandem.” See
WesternGeco, 138 S. Ct. at 2137. In any given case,
“it would be impossible to accurately determine” the
focus of § 550(a) without asking why a trustee can
use it—i.e., the purpose of the avoidance provision
that enables the recovery action.
See id.

20a
(“[D]etermining how the statute has actually been
applied is the whole point of the focus test.”). Just
as the focus of § 284 of the Patent Act depends on the
infringement provision that enables a plaintiff to
seek damages, the focus of § 550(a) of the
Bankruptcy Code depends on the avoidance
provision that enables a trustee to recover property.
Thus, to determine § 550(a)’s focus in a given
action, a court must also look to the relevant
avoidance provision.
2. When Working In Tandem with
§ 548(a)(1)(A), § 550(a) Regulates a
Debtor’s Fraudulent Transfer of Property,
and It Therefore Focuses on the Debtor’s
Initial Transfer.
The focus of a statute is the conduct it seeks to
regulate, as well as the parties whose interests it
seeks to protect. See id. The district court found that
§ 550(a) focuses on “the property transferred” and
“the fact of its transfer.” SIPC I, 513 B.R. at 227. On
this theory, it concluded that a recovery action under
§ 550(a)(2) regulates the subsequent transfer of
property: that from the initial transferee to the
subsequent transferee.
But the harm to the estate as a result of its
unlawful depletion began with the initial transfer.
Section 548(a)(1)(A) allows a trustee to “avoid any
transfer . . . of an interest of the debtor in property”
that the debtor “made . . . with actual intent to
hinder, delay, or defraud any entity to which the
debtor was or became, on or after the date that such
transfer was made or such obligation was incurred,

21a
indebted.” 11 U.S.C. § 548(a)(1)(A). A general
purpose of “the Bankruptcy Code’s avoidance
provisions, including 11 U.S.C. § 548, [is]
protect[ing] a debtor’s estate from depletion to the
prejudice of the unsecured creditor.” In re Harris,
464 F.3d 263, 273 (2d Cir. 2006) (Sotomayor, J.)
(agreeing with In re French, 440 F.3d 145, 150 (4th
Cir. 2006)). Thus, § 548(a)(1)(A)’s purpose is plain:
it allows a trustee, for the protection of an estate and
its creditors, to avoid a debtor’s fraudulent,
hindersome, or delaycausing property transfer that
depletes the estate. See In re French, 440 F.3d at
150 (“[Section] 548 focuses not on the property itself,
but on the fraud of transferring it.”).
Section 550(a) works in tandem with §
548(a)(1)(A) by enabling a trustee to recover
fraudulently transferred property. Recovery is the
business end of avoidance. In that sense, § 550(a) “is
a utility provision, helping execute the policy of
§ 548[(a)(1)(A)]” by “tracing the fraudulent transfer
to its ultimate resting place (the initial or
subsequent transferee).”
Edward R. Morrison,

Extraterritorial Avoidance Actions: Lessons from
Madoff, 9 Brook. J. Corp. Fin. & Com. L. 268, 273
(2014); see also In re Ampal-Am. Israel Corp., 562
B.R. 601, 613 (Bankr. S.D.N.Y. 2017) (Bernstein, J.)
(finding that when using § 550(a), “the trustee is
essentially tracing property into the hands of the
recipient—no different than a trustee under
nonbankruptcy law”).
We hold that, in recovery actions where a trustee
alleges a debtor’s transfers are avoidable as

22a
fraudulent under § 548(a)(1)(A), § 550(a) regulates
the fraudulent transfer of property depleting the
estate.7 While § 550(a) authorizes recovery, “what a
statute authorizes is not necessarily its focus.”
WesternGeco, 138 S. Ct. at 2138. When § 550(a)
operates in tandem with § 548(a)(1)(A), recovery of
property is “merely the means by which the statute
achieves its end of” regulating and remedying the
fraudulent transfer of property. See id.
Thus, in actions involving both provisions, §
550(a) regulates the debtor’s initial transfer. While
the subsequent transfer may indirectly harm
creditors by making property more difficult to
recover, it is the initial transfer that fraudulently
depletes the estate.
Only the initial transfer
involves fraudulent conduct, or any conduct, by the
debtor.

7

Section 548(a)(1)(A) allows a trustee to avoid a transfer on
three grounds: that the debtor had “actual intent to [1] hinder,
[2] delay, or [3] defraud any entity to which the debtor was or
became . . . indebted.” While this opinion concerns the third
ground, we would apply the same logic in a case where a
trustee sought to avoid transfers on the theory that the debtor
sought to “hinder” or “delay” an entity. For example, if a
trustee alleged that a debtor made a transfer intended to delay
an entity, the focus of § 550(a) in that action would be on the
delaycausing transfer of property that depletes the estate.
Section 550(a) may serve different purposes depending on
which of the Bankruptcy Code’s avoidance provisions enables
recovery. We express no opinion on the focus of § 550(a) in
actions involving any avoidance provision other than
§ 548(a)(1)(A).

23a
The language of § 548(a)(1)(A) reflects this focus.
It allows a trustee to avoid certain transfers “the
debtor voluntarily or involuntarily . . . made.” 11
U.S.C. § 548(a)(1)(A) (emphasis added). This can
mean only the initial transfer, because the debtor
has
not
made the subsequent transfer.
Consequently, when a trustee seeks to recover
subsequently transferred property under § 550(a),
the only transfer that must be avoided is the debtor’s
initial transfer. See Sec. Inv’r Prot. Corp. v. Bernard
L. Madoff Inv. Sec. LLC, 480 B.R. 501, 524 (Bankr.
S.D.N.Y. 2012) (“[A]s a court’s recovery power is
generally coextensive with its avoidance power, it is
logical that the relevant transfer for purposes of the
presumption against extraterritoriality is only the
transfer that is to be avoided, namely the initial
transfer.” (quotation marks omitted)); see also Sec.
Inv’r Prot. Corp. v. Bernard L. Madoff Inv. Sec. LLC,
501 B.R. 26, 30 (S.D.N.Y. 2013).
Two Supreme Court decisions reinforce this
conclusion. In WesternGeco, the Court found that
“the focus of § 284, in a case involving infringement
under § 271(f)(2), is on the act of exporting
components from the United States.” 138 S. Ct. at
2138. Here, the focus of § 550(a), in a case involving
fraudulent transfers avoidable under § 548(a)(1)(A),
is on the debtor’s act of transferring property from
the United States. In Morrison, the Court held that
§ 10(b) of the Securities Exchange Act of 1934
regulates “deceptive conduct in connection with the
purchase or sale of [certain] securit[ies],” meaning
the statute focuses on “purchaseandsale
transactions.” 561 U.S. at 266–67 (quotation marks

24a
omitted). By analogy, § 550(a) regulates a debtor’s
unlawful conduct—its fraudulent transfer of
property. The statute thus focuses on that initial
transfer, rather than the subsequent transfer made
by the feeder fund.
The lower courts held, and the Appellees now
argue, that the relevant Bankruptcy Code provisions
regulate the subsequent transfer of property. Their
readings erroneously overlook how § 548(a)(1)(A)
shapes the focus of § 550(a) here.
The district court, for example, correctly
recognized that the extraterritoriality analysis must
consider “the regulatory focus of the Bankruptcy
Code’s avoidance and recovery provisions.” SIPC I,
513 B.R. at 227 (emphasis added). And while we
agree with the court’s finding that § 548(a)(1)(A)
“focuses on the nature of the transaction in which
we
reject its
property is
transferred,” id.,
conclusion that the appropriate “transaction” to
determine the extraterritoriality question is the
subsequent transfer.
The only transfer §
548(a)(1)(A) is concerned with is the initial transfer,
as this is the only transfer “the debtor . . . made.”
See 11U.S.C. § 548(a)(1)(A).
The Appellees would have us ignore §
548(a)(1)(A) entirely and look only to § 550(a)(2). For
the reasons stated above, we refuse to “analyze the
provision at issue in a vacuum.” See WesternGeco,
138 S. Ct. at 2137.8
8

The Trustee contends that certain provisions of SIPA provide
additional reasons for us to find that § 550(a) focuses on

25a
B. These Actions Involve Domestic Applications
of the Bankruptcy Code Because § 550(a)
Focuses on Regulating Domestic Conduct.
Recognizing that, in these actions, § 550(a)
focuses on the debtor’s initial transfer of property,
we must decide whether Madoff Securities’ transfers
took place in the United States such that regulating
them involves a domestic application of that statute.
The lower courts, assuming the relevant transaction
was the subsequent transfer, weighed the location of
the account from which and to which the subsequent
transfer was made, and the location or residence of
the subsequent transferor and transferee. See SIPC
II, 2016 WL 6900689, at *25. We decline to adopt
this balancing test.
We hold that a domestic debtor’s allegedly
fraudulent, hindersome, or delaycausing transfer of
property from the United States is domestic activity
for the purposes of §§ 548(a)(1)(A) and 550(a).9 The
presumption against extraterritoriality therefore
does not prohibit that debtor’s trustee from
recovering such property using § 550(a), regardless
domestic conduct in these actions. Because we reach that
holding without looking to SIPA, we express no opinion on
whether SIPA is relevant to the focus of the Bankruptcy Code’s
avoidance and recovery provisions in cases where SIPA
trustees seek to use them.
9

We recognize that our holding cites two nexuses to the United
States: (1) the debtor is a domestic entity, and (2) the alleged
fraud occurred when the debtor transferred property from U.S.
bank accounts. We express no opinion on whether either factor
standing alone would support a finding that a transfer was
domestic.

26a
of where any initial or subsequent transferee is
located.
Our rule follows the Supreme Court’s instruction
that we look to “the conduct relevant to the statute’s
focus.” See, e.g., RJR Nabisco, 136 S. Ct. at 2101.
The relevant conduct in these actions is the debtor’s
fraudulent transfer of property, not the transferee’s
receipt of property. When a domestic debtor
commits fraud by transferring property from a
U.S. bank account, the conduct that § 550(a)
regulates takes place in the United States.
That resolves these cases. Madoff Securities is a
domestic entity, and the Trustee alleges it
fraudulently transferred property to the feeder
funds from a U.S. bank account. These transfers are
domestic activity.
Because § 550(a) therefore
regulates domestic conduct, these cases involve
domestic applications of the statute.
Factoring the transferee’s receipt of property into
our analysis would not only misread the Bankruptcy
Code’s avoidance and recovery provisions, but also
open a loophole. One can imagine a fraudster who,
anticipating his downfall, gives his entity’s property
to friends and family members before a court freezes
its assets. The Bankruptcy Code’s avoidance and
recovery provisions ordinarily allow a trustee to claw
back this property. But what would happen if the
fraudster transferred the property to a foreign entity
that then transferred it to another foreign entity?
Under the Appellees’ theory of § 550(a), that transfer
would make the property recoveryproof, even if the
subsequent foreign transferee then sent the

27a
property to someone located in the United States.
The presumption against extraterritoriality is not “a
limit upon Congress’s power to legislate,” but a
canon of construction meant to guide our
understanding of a statute’s meaning.
See
Morrison, 561 U.S. at 255. We cannot imagine how
it should guide us to read the Bankruptcy Code’s
creditorprotection provisions in this selfdefeating
way.
***
The lower courts erred by dismissing these
actions
under
the
presumption
against
extraterritoriality. Because we find that these cases
involve a domestic application of § 550(a), we
express no opinion on whether § 550(a) clearly
indicates its extraterritorial application.
II. International Comity
The second issue is whether the district court
erroneously dismissed these actions on international
comity grounds. We apply international comity
principles in two ways: “[first,] as a canon of
construction, [comity] might shorten the reach of a
statute; [and] second, [comity] may be viewed as a
discretionary act of deference by a national court to
decline to exercise jurisdiction in a case properly
adjudicated in a foreign state, the socalled comity
among courts.” In re Maxwell Commc’n Corp. plc by
Homan, 93 F.3d 1036, 1047 (2d Cir. 1996). The first
application is “prescriptive comity” and asks a
question of statutory interpretation: should a court
presume that Congress, out of respect for foreign
sovereigns, limited the application of domestic law

28a
on a given set of facts? See Hartford Fire Ins. Co. v.
California, 509 U.S. 764, 817 (1993) (Scalia, J.,
dissenting). The second application is “adjudicative
comity.” It asks whether, where a statute might
otherwise apply, a court should nonetheless abstain
from exercising jurisdiction in deference to a foreign
nation’s courts that might be a more appropriate
forum for adjudicating the matter. See id.; see also

Royal & Sun All. Ins. Co. of Canada v. Century Int’l
Arms, Inc., 466 F.3d 88, 93 (2d Cir. 2006).

We have previously declined to decide whether
prescriptive and adjudicative comity are “distinct
doctrines.” See In re Maxwell, 93 F.3d at 1047.
Although prescriptive and adjudicative comity
sometimes demand similar analysis,10 each asks a
different question and is rooted in a different legal
theory.
We therefore treat them as distinct
doctrines, albeit related ones.11
10

In particular, the existence of parallel proceedings can factor
into both doctrines. Compare In re Maxwell, 93 F.3d at 1048,
1052 (holding, in the context of applying a prescriptive comity
choiceoflaw test, that the existence of parallel foreign
proceedings can factor into a foreign state’s interest in applying
its law to a dispute), with Royal & Sun, 466 F.3d at 92
(explaining, as a principle of adjudicative comity, that the
existence of parallel foreign proceedings is sometimes a factor
weighing in favor of abstention). Thus, while this opinion
focuses on prescriptive comity, we occasionally look to our
adjudicative comity precedent in assessing the weight of any
foreign state’s interest in applying its law.
11

Numerous courts and scholars have done the same. See, e.g.,
Hartford Fire Ins. Co., 509 U.S. at 817, 820 (Scalia, J.,
dissenting)); Mujica v. AirScan Inc., 771 F.3d 580, 598 (9th Cir.

29a
This distinction reveals the appropriate standard
of review for a lower court’s order dismissing a case
on international comity grounds.
Prescriptive
comity poses a question of statutory interpretation.
We review those questions de novo.12 See, e.g.,
2014) (“There are essentially two distinct doctrines [that] are
often conflated under the heading international comity.”
(quotation marks omitted) (quoting In re S. African Apartheid
Litig., 617 F. Supp. 2d 228, 283 (S.D.N.Y. 2009)); Maggie
Gardner, Retiring Forum Non Conveniens, 92 N.Y.U. L. Rev.
390, 392 (2017); see also Royal & Sun, 466 F.3d at 92
(describing these doctrines as different) (citing Joseph Story,
Commentaries on the Conflict of Laws § 38 (1834)); JP Morgan
Chase Bank v. Altos Hornos de Mexico, S.A. de C.V. , 412 F.3d
418, 424 (2d Cir. 2005) (“International comity, as it relates to
this case, involves not the choice of law but rather the
discretion of a national court to decline to exercise jurisdiction
over a case before it when that case is pending in a foreign court
with proper jurisdiction.”).
12

The question of whether we review prescriptive comity
dismissals de novo or for abuse of discretion arose in In re
Maxwell, 93 F.3d at 1051. Although this Court hinted that de
novo review should apply, we declined to decide the issue
because the parties did not dispute the appropriate standard of
review. See id. (noting that “[b]ecause the doctrine in theory is
relevant to construing a statute’s reach, one might expect that
[we should apply] de novo review”). The Appellees dispute the
appropriate standard here, but their advocacy for
abuseofdiscretion review relies on inapposite adjudicative
comity cases. See Appellee Br. 27 (citing, e.g., In re Vitamin C
Antitrust Litig., 837 F.3d 175, 182 (2d Cir. 2016) (“We hold that
the district court abused its discretion by not abstaining, on
international comity grounds . . . .”), vacated on other grounds
by Animal Sci. Prods., Inc. v. Hebei Welcome Pharm. Co. Ltd.,
138 S. Ct. 1865 (2018); Altos Hornos, 412 F.3d at 422
(“Declining to decide a question of law on the basis of
international comity is a form of abstention, and we review a

30a

Roach, 440 F.3d at 56.

Adjudicative comity
abstention, on the other hand, concerns a matter of
judicial discretion. We thus review adjudicative
comity dismissals for abuse of discretion. See, e.g.,
Royal & Sun, 466 F.3d at 92. “However, because we
are reviewing a court’s decision to abstain from
exercising jurisdiction, our review is ‘more rigorous’
than that which is generally employed under the
abuseofdiscretion standard.”
Id. (quoting
Hachamovitch v. DeBuono, 159 F.3d 687, 693
(2d Cir. 1998)). Thus, “[i]n review of decisions to
abstain, there is little practical distinction between
review for abuse of discretion and review de novo.”
Id. (quoting Altos Hornos, 412 F.3d at 422–23).13
The lower courts held that comity principles
require “choiceoflaw analysis to determine
whether the application of U.S. law would be
district court’s decision to abstain on international comity
grounds for abuse of discretion.”)).
13

The Appellees argue that the higher standard of review
announced in Royal & Sun does not bind us, either because
that case relied on a decision applying its rule to Burford
abstention or because Royal & Sun “has been superseded” by
later cases. Appellee Br. 28– 29; see also Burford v. Sun Oil Co.,
319 U.S. 315 (1943). Both points are wrong. Royal & Sun itself
was not a Burford case; it involved adjudicative comity
abstention. See 466 F.3d at 92. And the argument that our
subsequent cases not using Royal & Sun’s “more rigorous”
language silently “superseded” that case is a nonstarter. See,
e.g., Veltri v. Bldg. Serv. 32B- J Pension Fund)G
G&LU  ³2QHSDQHORIWKLV&RXUWFDQQRWRYHUUXOHDSULRUGHFLVLRQ
RIDQRWKHUSDQHO XQOHVVWKHUHKDVEHHQDQLQWHUYHQLQJ6XSUHPH&RXUW
GHFLVLRQ WKDW FDVWV GRXEW RQ RXU FRQWUROOLQJ SUHFHGHQW´ FLWDWLRQ
EUDFNHWVDQGTXRWDWLRQPDUNVRPLWWHG 

31a
reasonable under the circumstances, comparing the
interests of the United States and the relevant
foreign state.” SIPC I, 513 B.R. at 231 (citing In re
Maxwell, 93 F.3d at 1047–48). This is a question of
prescriptive comity because it asks whether
domestic law applies, rather than whether our
courts should abstain from exercising jurisdiction.
The bankruptcy court and both parties agree with
this framing. We therefore analyze the lower courts’
decisions through the lens of prescriptive comity.14
***
At the threshold, “[i]nternational comity comes
into play only when there is a true conflict between
American law and that of a foreign jurisdiction.” In
re Maxwell, 93 F.3d at 1049. A true conflict exists if
“compliance with the regulatory laws of both
countries would be impossible.” Id. at 1050 (citing
Hartford Fire, 509 U.S. at 799). In re Maxwell held
that “a conflict between two avoidance rules exists if
it is impossible to distribute the debtor’s assets in a
manner consistent with both rules.” Id.15
14

In a footnote, the Appellees separately argue that we should
decline to exercise jurisdiction on adjudicative comity grounds.
See Appellee Br. 68 n.33. “We do not consider an argument
mentioned only in a footnote to be adequately raised or
preserved for appellate review.” United States v. Restrepo, 986
F.2d 1462, 1463 (2d Cir. 1993) (per curiam).
15

In that decision, the panel found a true conflict between
English and domestic law because “the parties . . . assumed
that . . . English law would dictate a different distributional
outcome than would United States law.” Id.

32a
The record is unclear about whether issues
litigated in the feeder funds’ liquidation proceedings
abroad would yield outcomes irreconcilable with the
relief the Trustee demands in these cases.16 While
the Appellees allege that there are conflicts, we
merely assume without deciding that these conflicts
exist.17
Prescriptive comity “guides our interpretation of
statutes that might otherwise be read to apply to
[extraterritorial] conduct.” Id. at 1047. The doctrine
does not require clear evidence that a statute does
not reach extraterritorial conduct. Id. Rather, the
doctrine is “simply a rule of construction” and “has
no application where Congress has indicated
otherwise.” Id.
Comity in bankruptcy proceedings is “especially
important” for two reasons. Id. at 1048. “First,
deference to foreign insolvency proceedings will, in
many cases, facilitate ‘equitable, orderly, and
16

The district court found that BVI courts had “already
determined that Fairfield Sentry could not reclaim transfers
made to its customers under certain common law theories” and
found this conclusion in conflict with the relief the Trustee now
demands. SIPC I, 513 B.R. at 232. The Trustee disputes this
finding. We decline to decide whether this allegation
establishes a true conflict between domestic and foreign law.
17

These consolidated appeals involve hundreds of Appellees
that invested with numerous feeder funds, each involved in its
own dispute below. Whether domestic adjudication would
conflict with foreign adjudication may turn on different facts in
different cases. The parties did not adequately brief us on how
we should analyze these distinctions under our comity
precedent. We therefore decline to address the issue.

33a
systematic’ distribution of the debtor’s assets.” Id.
(quoting Cunard S.S. Co. v. Salen Reefer Servs. AB,
773 F.2d 452, 458 (2d Cir. 1985)). “Second, Congress
explicitly recognized the importance of the
principles of international comity in transnational
insolvency situations when it revised the
bankruptcy laws.” Id. (citing 11 U.S.C. § 304
(repealed 2005)). In light of these considerations,
“U.S. courts should ordinarily decline to adjudicate
creditor claims that are the subject of a foreign
bankruptcy proceeding,” Altos Hornos, 412 F.3d at
424, because “[t]he equitable and orderly
distribution of a debtor’s property requires
assembling all claims against the limited assets in a
single proceeding,” id. (brackets in original) (quoting
Finanz AG Zurich v. Banco Economico S.A., 192 F.3d
240, 246 (2d Cir. 1999)).
To enforce these principles, In re Maxwell
announced a choiceoflaw test. This test “takes into
account the interests of the United States, the
interests of the foreign state, and those mutual
interests the family of nations have in just and
efficiently functioning rules of international law.” In
re Maxwell, 93 F.3d at 1048.
The United States has a compelling interest in
allowing domestic estates to recover fraudulently
transferred property. The prospect of recovery
assures creditors and investors that they will receive
their fair share of property in the event an American
entity enters into bankruptcy or liquidation.
Providing this safeguard is an important goal of the
Bankruptcy Code’s avoidance and recovery

34a
provisions. See, e.g., Universal Church v. Geltzer,
463 F.3d 218, 224 (2d Cir. 2006) (noting that a result
that would undermine § 548(a)(2)’s avoidance
provision “would be absurd because it would defeat
the entire purpose of allowing trustees to protect and
enhance the estate by avoiding [unlawful]
transfers”). These features consequently benefit the
American economy by making domestic entities
more attractive to creditors and investors.
Protecting these individuals, and therefore
protecting our securities market, are the key
purposes of SIPA. See In re Madoff Securities,
654 F.3d at 235.
When a debtor in American courts is also in
liquidation proceedings in a foreign court, the
foreign state has at least some interest in
adjudicating property disputes. In appropriate
cases, that interest will trump our own. See In re
Maxwell, 93 F.3d at 1052. But no such parallel
proceedings exist here—the feeder funds, not Madoff
Securities, are the debtors in the foreign courts.18
18

We agree with Judge Batts, who employed similar reasoning
in declining to dismiss class actions brought by Kingate
investors against managers, consultants, administrators, and
auditors associated with Kingate on adjudicative comity
grounds:
Although Defendants are correct that under Second
Circuit law, foreign bankruptcy proceedings are
generally given extra deference, . . . it is the [Kingate]
Funds, rather than the Defendants, who are in
liquidation in BVI and Bermuda. Thus, it is not clear
that the normal justification for deferring to foreign
bankruptcy proceedings, to allow “equitable and

35a
And the absence of such proceedings seriously
diminishes the interest of any foreign state in our
resolution of the Trustee’s claims.19
The only foreign jurisdictions potentially
interested in these disputes are those where a feeder
fund that served as an initial transferee is in
liquidation. But these interests are not compelling.
Although “U.S. courts should ordinarily decline to
adjudicate creditor claims that are the subject of a
foreign bankruptcy proceeding,” Altos Hornos, 412
F.3d at 424, the Trustee is not a creditor and his
claims are not the subject of a foreign bankruptcy or
liquidation proceeding, see SIPC II, 2016 WL
6900689, at *12 (“[T]here are no parallel foreign
avoidance actions in which the Trustee seeks to
recover from the Subsequent Transferees.”).

orderly distribution of a debtor’s property,” would
apply under these circumstances.

In re Kingate Mgmt. Ltd. Litig., 095386 (DAB), 2016 WL
5339538, at *35 (S.D.N.Y. Sept. 21, 2016) (citations and
footnote omitted), affirmed, No. 163450, 2018 WL 3954217
(2d Cir. Aug. 17, 2018).
19

In re Maxwell itself emphasized the importance of parallel
foreign proceedings to its holding. See 93 F.3d at 1052 (“In the
present case, in which there is a parallel insolvency proceeding
taking place in another country, failure to apply § 547 and
§ 502(d) does not free creditors from the constraints of
avoidance law, nor does it severely undercut the policy of equal
distribution. . . . [But] a different result might be warranted
were there no parallel proceeding [abroad]—and, hence, no
alternative mechanism for voiding preferences . . . .” (emphasis
added)).

36a
Nor is the Trustee duplicating the liquidations of
the feeder funds. The proceedings have different
means and goals. The Trustee’s task is tracing
property of the estate to net winners among the
feeder funds’ investors. But the feeder funds’
liquidations proceed under those funds’ organizing
documents, which are unlikely to discriminate
between net winners and net losers.
Further, we defer to foreign liquidation
proceedings because “[t]he equitable and orderly
distribution of a debtor’s property requires
assembling all claims against the limited assets in a
single proceeding.” Altos Hornos, 412 F.3d at 424
(quoting Finanz AG, 192 F.3d at 246). This rationale
makes sense where a creditor, unable to recover
against a debtor in foreign court, attempts to do so
in our courts. But in these cases, domestic law is
also concerned with “equitable and orderly
distribution”—of the Madoff Securities estate.
Consolidating the Trustee’s claims in federal court
is more “equitable and orderly” than forcing him to
litigate different claims in different countries. SIPA
and the Bankruptcy Code envision a unified
proceeding, and we would frustrate this goal if we
limited the reach of § 550(a) in these actions.
This is not to say the nations adjudicating the
feeder funds’ liquidations have no interest in these
disputes. Those nations may wish to ensure that the
feeder funds’ creditors can recover as much property
as possible. If the Trustee succeeds in these recovery
actions, his success might frustrate the efforts of

37a
those entities’ trustees to recover the same property
in foreign court.
But those are not the comity concerns our
precedent discusses in explaining when and why the
Bankruptcy Code should give way to foreign law.
Nor do we find them compelling enough to limit the
reach of a federal statute that would otherwise apply
here. The Bankruptcy Code gives us no reason to
think Congress would have decided that trustees
looking to recover property in domestic proceedings
are out of luck when trustees in foreign proceedings
may be interested in recovering the same property.
In fact, § 550(a)(2) suggests the opposite: that by
allowing trustees to recover property from even
remote subsequent transferees, Congress wanted
these claims resolved in the United States, rather
than through piecemeal proceedings around the
world.
We therefore hold that the United States’
interest in applying its law to these disputes
outweighs the interest of any foreign state.
Prescriptive comity poses no bar to recovery when
the trustee of a domestic debtor uses § 550(a) to
recover property from a foreign subsequent
transferee on the theory that the debtor’s initial
transfer of that property from within the United
States is avoidable under § 548(a)(1)(A), even if the
initial transferee is in liquidation in a foreign nation.
The lower courts, erroneously focusing on the
subsequent transfer, found that the jurisdictions
adjudicating the feeder funds’ liquidations had a
greater interest in resolving these disputes than the

38a
United States. The bankruptcy court, for example,
concluded that “[t]he United States has no interest
in regulating the relationship between the [feeder
funds] and their investors or the liquidation of the
[feeder funds] and the payment of their investors’
claims.” SIPC II, 2016 WL 6900689, at *14. It did
so by assuming “[t]he United States’ interest is
purely remedial; the Bankruptcy Code allows the
Trustee to follow the initial fraudulent transfer into
the hands of a subsequent transferee.” Id.
This conclusion rests on incorrect premises: that
we should look only to § 550(a), assume the United
States has purely remedial interests, and focus on
the subsequent transfer of property. As we have
explained, § 548(a)(1)(A) informs § 550(a)’s focus in
these actions. That focus is on regulating and
remedying a debtor’s fraudulent transfer of
property, and this means the relevant transfer is the
debtor’s initial transfer. The domestic nature of
those transfers, and our nation’s compelling interest
in regulating them, tips the scales of In re Maxwell’s
choiceof law test in favor of domestic adjudication.
The district court found that “investors in these
foreign funds had no reason to expect that U.S. law
would apply to their relationships with the feeder
funds.” SIPC I, 513 B.R. at 232. But the court’s
premise is inaccurate. U.S. law is not regulating the
investors’ relationships with the feeder funds. It is
regulating the debtor’s property transfers to the
feeder funds. Although regulating these transfers
with recovery actions will affect the subsequent
transferees, that consequence should not unfairly

39a
surprise them. When these investors chose to buy
into feeder funds that placed all or substantially all
of their assets with Madoff Securities, they knew
where their money was going.
Finally, the district court observed that “the
defendants here have no direct relationship” with
Madoff Securities. Id. But the reason § 550(a)(2)’s
tracing provision applies to subsequent transferees
is ensuring that a trustee can recover from entities
with no direct relationship to the debtor. If the
directness of a transfer were relevant to a trustee’s
ability to recover property under § 550(a)(2), we
cannot see how a trustee could ever recover property
from any subsequent transferee, foreign or domestic.
In sum, we find that prescriptive comity
considerations do not limit the reach of the
Bankruptcy Code provisions in these actions.
CONCLUSION
We VACATE the bankruptcy court’s judgments
dismissing these actions and REMAND for further
proceedings consistent with this opinion.

40a
APPENDIX B
UNITED STATES BANKRUPTCY COURT
SOUTHERN DISTRICT OF NEW YORK
SECURITIES INVESTOR
PROTECTION
CORPORATION,
Plaintiff,
- against BERNARD L. MADOFF
INVESTMENT
SECURITIES LLC,

Adv. P. No.
08-01789 (SMB)
SIPA
LIQUIDATION
(Substantively
Consolidated)

Defendant.
IN RE:
BERNARD L. MADOFF,
Debtor.
IRVING H. PICARD,
Trustee for the Liquidation
of Bernard L. Madoff
Investment Securities LLC,
and Bernard L. Madoff,
Plaintiff,
- against BUREAU OF LABOR
INSURANCE,
Defendant.

Adv. P. No.
11-02732 (SMB)

41a
MEMORANDUM DECISION REGARDING
CLAIMS TO RECOVER FOREIGN
SUBSEQUENT TRANSFERS
APPEARANCES:
BAKER & HOSTETLER LLP, 45 Rockefeller Plaza,
New York, NY 10111, David J. Sheehan, Esq.,
Regina Griffin, Esq., Thomas L. Long, Esq.,
Seanna R. Brown, Esq., Amanda E. Fein,
Esq., Catherine E. Woltering, Esq., Of
Counsel, Attorneys for Plaintiff, Irving H.

Picard, Trustee for the Liquidation of
Bernard L. Madoff Investment Securities
LLC

SULLIVAN & CROMWELL LLP, 125 Broad Street,
New York, NY 10004, Robinson B. Lacy, Esq.,
Of
Counsel
and
SULLIVAN
&
WORCHESTER LLP, 1633 Broadway, New
York, NY 10019, Franklin B. Velie, Esq.,
Jonathan G. Kortmansky, Esq., Mitchell C.
Stein, Esq., Of Counsel, Liaison Counsel for

All Subsequent Transferee Defendants1
LOWENSTEIN SANDLER LLP, 1251 Avenue of the
Americas, New York, NY 10022, Michael B.
Himmel, Esq., Amiad M. Kushner, Esq.,
Lauren M. Garcia, Esq., Of Counsel,

Attorneys for Bureau of Labor Insurance

1

Other Defense Counsel listed on attached Appendix.

42a
STUART M. BERNSTEIN,
United States Bankruptcy Judge
Bankruptcy Code § 550(a)(2) permits a trustee to
recover an avoided fraudulent transfer or its value
from “any immediate or mediate transferee,” e.g., a
subsequent transferee of the initial transferee or
prior subsequent transferee.
Relying on this
provision, Irving H. Picard (the “Trustee”), the
trustee for the liquidation of Bernard L. Madoff
Investment Securities LLC (“BLMIS”) under the
Securities Investor Protection Act of 1970, 15 U.S.C.
§§ 78aaa, et seq. (“SIPA”), sued numerous
subsequent transferees to recover the value of
fraudulent transfers made by BLMIS in connection
with the Ponzi scheme conducted by Bernard L.
Madoff. In many cases, the initial transferee was a
foreign feeder fund and the subsequent transferee
was also a foreign entity. The proceedings before the
Court primarily concern the application of section
550(a)(2) to subsequent transfers between foreign
parties.
I do not write on a clean slate. Judge Rakoff of
the United States District Court previously
withdrew the reference and laid down some basic
ground rules for determining whether the
subsequent transfer claims should be dismissed.
The parties to the proceedings before Judge Rakoff
are referred to as the “Participating Subsequent
Transferees.” Judge Rakoff held that the Trustee
could not pursue recovery of “purely foreign
subsequent transfers” due to the application of the
presumption against extraterritoriality. SIPC v.

43a

BLMIS (In re BLMIS ), 513 B.R. 222, 231 (S.D.N.Y.
2014) (“ET Decision ”), supplemented by, No. 12–
mc–1151 (JSR), 2014 WL 3778155 (S.D.N.Y. July 28,
2014). Alternatively, considerations of international
comity supported dismissal. Id. at 231–32. The
District Court did not dismiss any of the claims, and
instead, returned the adversary proceedings to this
Court for further proceedings consistent with its
decision. Id. at 232.

The Participating Subsequent Transferees now
seek dismissal of Trustee’s claims. In addition,
many similarly-situated subsequent transferees
that did not participate in the proceedings before
Judge Rakoff (the “Non–Participating Subsequent
Transferees”) also seek dismissal under the
ET Decision. In total, motions to dismiss are
pending in eighty-eight adversary proceedings. The
Trustee, in turn, seeks leave to amend many of his
complaints to add allegations of domestic
connections relating to the subsequent transfers.
Finally, the Bureau of Labor Insurance (the “BLI”),
a defendant in a separate adversary proceeding
styled Picard v. Bureau of Labor Insurance, Adv. P.
No. 11–02732, moves for judgment on the pleadings
pursuant to Federal Civil Rule 12(c) relying on the
ET Decision.
The Participating Subsequent
Transferees, the Non–Participating Subsequent
Transferees and BLI are sometimes collectively
referred to as the “Subsequent Transferees.”
A majority of the Trustee’s claims against
Subsequent Transferees were made by and/or
originated from the Fairfield Funds or the Kingate

44a
Funds (both defined below), the initial transferees of
BLMIS.
These funds are debtors in foreign
insolvency proceedings and their liquidators have
sought or could have sought to recover substantially
the same transfers from the same transferees under
the powers granted by the foreign insolvency courts.
These subsequent transfer claims are dismissed on
grounds of international comity without reaching
the issue of extraterritoriality. As to the balance,
where the Trustee is seeking to recover subsequent
transfers between two foreign entities using foreign
bank accounts (without consideration of a
U.S. correspondent bank account), those claims are
dismissed. Furthermore, because the Court has
reviewed the Trustee’s proffers regarding these
transfers and found them wanting, the Trustee’s
motions for leave to amend his pleadings to
incorporate the facts alleged in the proffers are
denied as futile. The remaining motions to dismiss
and for leave to amend are resolved in accordance
with the discussion that follows.
BACKGROUND
A. Introduction
The facts underlying the infamous Ponzi scheme
perpetrated by Bernard L. Madoff are well-known
and have been recounted in many reported
decisions.
See, e.g., Picard v. Ida Fishman
Revocable Trust (In re BLMIS ), 773 F.3d 411, 414–
15 (2d Cir. 2014), cert. denied, 135 S. Ct. 2859
(2015); Picard v. JPMorgan Chase & Co. (In re
BLMIS ), 721 F.3d 54, 58–59 (2d Cir. 2013), cert.
denied, 134 S. Ct. 2895 (2014); SIPC v. BLMIS (In re

45a

BLMIS ), 424 B.R. 122, 125–32 (Bankr. S.D.N.Y.
2010), aff’d, 654 F.3d 229 (2d Cir. 2011), cert. denied,
133 S. Ct. 25 (2012). Prior to his arrest in December
2008, Madoff perpetrated the largest Ponzi scheme
ever discovered through the investment advisory
side of BLMIS. He did not engage in any securities
transactions on behalf of his customers, and sent
them bogus customer statements and trade
confirmations showing fictitious trading activity and
profits. When customers requested redemptions
from their accounts, BLMIS distributed cash from a
commingled bank account that included other
customers’ investments.

While many individuals and entities invested
with BLMIS directly, others did so through “feeder
funds,” which, in turn, invested with BLMIS. The
feeder funds were often organized as foreign entities.
The largest network of foreign feeder funds was
operated by two entities: Fairfield Greenwich Group
(“FGG”) and Tremont Group Holdings, Inc.
(“Tremont”). Even though they operated out of New
York, FGG and Tremont created multiple feeder
funds organized in the British Virgin Islands (“BVI”)
and the Cayman Islands, respectively.
Following the commencement of BLMIS’
liquidation, the Trustee sued the feeder funds to
avoid and recover as fraudulent transfers
distributions they received from BLMIS as initial
transferees.
He also sued the subsequent
transferees, including feeder fund investors,
management and service providers. Like the feeder

46a
funds, the subsequent transferees were often foreign
individuals or entities.
B. The Presumption Against Extraterritoriality
Although the majority of claims are being
dismissed on the ground of comity, the parties have
focused most of their attention on the issue of
extraterritoriality. In addition, the District Court
focused on extraterritoriality, and a discussion of
that issue first will assist the reader.
The
“presumption against extraterritoriality” is a
“longstanding principle of American law that
legislation of Congress, unless a contrary intent
appears, is meant to apply only within the territorial
jurisdiction of the United States.” EEOC v. Arabian
Am. Oil Co., 499 U.S. 244, 248 (1991) (“Aramco”)
(internal quotation marks and citations omitted);
accord RJR Nabisco, Inc. v. European Cmty., 136 S.
Ct. 2090, 2100 (2016) (“Nabisco”); Morrison v. Nat’l
Australia Bank Ltd., 561 U.S. 247, 248 (2010)
(“Morrison”). The presumption “serves to protect
against unintended clashes between our laws and
those of other nations which could result in
international discord.” Aramco, 499 U.S. at 248.
In Morrison, the Supreme Court clarified the
presumption in a dispute involving the
extraterritorial reach of 10(b) of the Securities and
Exchange Act of 1934 (“Exchange Act”). There,
Australian investors sued National Australia Bank
Limited (“National”) for violations of the Exchange
Act in connection with their investment in National
stock traded on the Australian Stock Exchange.
Although National was an Australian bank, it

47a
owned HomeSide Lending, Inc. (“HomeSide”), a
mortgage service provider based in Florida.
Morrison, 561 U.S. at 251. The complaint alleged
that HomeSide and its executives manipulated
HomeSide’s financials to cause it to appear more
valuable than it really was, and that National was
aware of the deception but failed to act. Id. at 252.
In other words, the wrongful conduct occurred in the
United States. The United States District Court for
the Southern District of New York dismissed the
complaint for lack of subject matter jurisdiction
because the acts that occurred in the United States
were only a link in a securities fraud scheme that
culminated abroad, and the Second Circuit affirmed
on similar grounds. Id. at 253.
The Supreme Court affirmed, but on different
grounds. It criticized the Second Circuit’s use of the
“conduct” and “effects” tests (sometimes referred to
as a single test, the “conduct and effects test”) to
determine the applicability of § 10(b) claims.2 The
“effects” test asked “whether the wrongful conduct
had a substantial effect in the United States or upon
United States citizens,” and the “conduct” test asked
“whether the wrongful conduct occurred in the
United States.” Id. at 257 (quoting SEC v. Berger,
322 F.3d 187, 192–93 (2d Cir. 2003)). Justice Scalia
described these standards as “complex in
2

The Court also explained that the presumption against
extra-territoriality implicated dismissal based upon the failure
to state a claim, FED. R. CIV. P. 12(b)(6), rather than dismissal
for lack of subject matter jurisdiction under FED. R. CIV. P.
12(b)(1). Morrison, 561 U.S. at 253–54.

48a
formulation and unpredictable in application.” Id.
at 248.
Instead,
the
presumption
against
extraterritoriality involves an exercise in statutory
interpretation and a two-step analysis which can be
examined in either order. “At the first step, we ask
whether the presumption against extraterritoriality
has been rebutted—that is, whether the statute
gives a clear, affirmative indication that it applies
extraterritorially.” Nabisco, 136 S. Ct. at 2101;
accord Morrison, 561 U.S. at 255 (“When a statute
gives no clear indication of an extraterritorial
application, it has none.”). The first step does not
impose a “clear statement rule,” because even absent
a “clear statement,” the context of the statute can be
consulted to give the most faithful reading.
Morrison, 561 U.S. at 265. If the first step yields the
conclusion
that
the
statute
applies
extraterritorially, the inquiry ends.
If it does not, the court must turn to the second
step to determine if the litigation involves an
extraterritorial application of the statute:
If the statute is not extraterritorial, then at
the second step we determine whether the
case involves a domestic application of the
statute, and we do this by looking to the
statute’s “focus.” If the conduct relevant to
the statute’s focus occurred in the United
States, then the case involves a permissible
domestic application even if other conduct
occurred abroad; but if the conduct relevant
to the focus occurred in a foreign country,

49a
then the case involves an impermissible
extraterritorial application regardless of any
other conduct that occurred in U.S. territory.

Nabisco, 136 S. Ct. at 2101; accord Morrison, 561

U.S. at 266–67 (court must look to the “ ‘focus’ of
congressional concern,” i.e., the “objects of the
statute’s solicitude”). Courts however, must be wary
in concluding too quickly that some minimal
domestic conduct means the statute is being applied
domestically:
[I]t is a rare case of prohibited
extraterritorial application that lacks
all contact with the territory of the United
States.
But the presumption against
extraterritorial application would be a
craven watchdog indeed if it retreated to its
kennel whenever some domestic activity is
involved in the case.

Morrison, 561 U.S. at 266 (emphasis in original).
The Morrison Court first concluded that the
plaintiffs had failed to rebut the presumption
against the extraterritorial application of section
10(b) of the Exchange Act. See id. at 265. Having
then held that the focus of Section 10(b) was upon
the purchase and sales of securities in the United
States, id. at 266, the Court concluded that the
plaintiffs had failed to state a claim on which relief
could be granted and affirmed the dismissal of the
complaint on this ground. Id. at 273.

50a
C. Extraterritoriality and the Trustee’s Recovery
Efforts
After Morrison, the issue of whether the
Bankruptcy Code’s avoidance and recovery
provisions reached foreign transfers was first
addressed in these cases in Picard v. Bureau of
Labor Ins. (In re BLMIS), 480 B.R. 501 (Bankr.
S.D.N.Y. 2012) (“BLI”). BLI, a Taiwanese entity,
invested in Fairfield Sentry, a large BLMIS feeder
fund organized in the BVI. BLI submitted a
redemption request to Fairfield Sentry and provided
wire instructions. Pursuant to those instructions,
Fairfield Sentry sent $42,123,406 from a Dublin
bank account to a New York JP Morgan Account
specified by BLI, and the redemption payment was
then sent on to BLI’s JP Morgan account in London.
Id. at 509. Following his appointment, the Trustee
sought to recover the subsequent transfers made by
Fairfield Sentry to BLI pursuant to section 550 of
the Bankruptcy Code.
BLI moved to dismiss
arguing, inter alia, that the Trustee’s claims were
barred
by
the
presumption
against
3
extraterritoriality.
Denying the motion, the Bankruptcy Court
began with Morrison’s second step. Judge Lifland
held that the “focus” of “the avoidance and recovery
sections [of the Bankruptcy Code] is on the initial
transfers that deplete the bankruptcy estate and not
on the recipient of the transfers or the subsequent
3

BLI did not argue that comity barred the claim and the Court
did not address it. BLI, 480 B.R. at 526 n. 24.

51a

Id. at 524; accord Begier v. Internal
Revenue Serv., 496 U.S. 53, 58 (1990) (stating that

transfers.”

“the purpose of the [preference] avoidance provision
is to preserve the property includable within the
bankruptcy estate—the property available for
distribution to creditors”); French v. Liebmann (In
re French), 440 F.3d 145, 154 (4th Cir.) (“[T]he
Code’s avoidance provisions protect creditors by
preserving
the
bankruptcy
estate
against
illegitimate depletions.”), cert. denied, 549 U.S. 815
(2006). The depletion of the BLMIS estate occurred
domestically because the transfers at issue
originated from BLMIS’ JPMorgan account in New
York and went to Fairfield Sentry’s New York
account at HSBC. BLI, 480 B.R. at 525. “As the
focus of Section 550 occurred domestically, the fact
that BLI received BLMIS’s fraudulently transferred
property in a foreign country does not make the
Trustee’s application of this section extraterritorial.”

Id.4
While this conclusion was dispositive, Judge
Lifland also addressed the first step in the inquiry
and concluded that Congress expressed a clear
4

The Court added that pragmatic considerations supported its
conclusion. “In particular if the avoidance and recovery
provisions ceased to be effective at the borders of the United
States, a debtor could end run the Code by ‘simply arrang[ing]
to have the transfer made overseas,’ thereby shielding them
from United States law and recovery by creditors.” BLI, 480
B.R. at 525 (quoting Maxwell Commc’n Corp. plc v. Societe
General plc (In re Maxwell Commc’n Corp. plc), 186 B.R. 807,
816 (S.D.N.Y.1995) (“Maxwell I”), aff’d on other grounds, 93
F.3d 1036 (2d Cir.1996) (“Maxwell II”)).

52a
intention that § 550 should apply extraterritorially.
Id. at 526. A statute does not require a “clear
statement” that it applies abroad, and the court may
consider the statutory context “in searching for a
clear indication of statutory meaning.” Id. at 526
(quoting United States v. Weingarten, 632 F.3d 60,
65 (2d Cir.2011)). “Congress demonstrated its clear
intent for the extraterritorial application of Section
550 through interweaving terminology and
cross-references to relevant Code provisions.” Id. at
527. Specifically, the term “property of the estate”
includes property “wherever located, and by
whomever held” that was property of the debtor at
the commencement of the case.” 11 U.S.C. §
541(a)(1). Thus, “property of the estate” extends to
property located worldwide. Id.; accord 28 U.S.C. §
1334(e)(1) (granting the District Court exclusive
jurisdiction “of all the property, wherever located, of
the debtor as of the commencement of [the
bankruptcy] case, and of property of the estate”).
The avoidance provisions of the Bankruptcy Code
grant a trustee the power to avoid certain
prepetition transfers “of an interest of the debtor in
property,” e.g., 11 U.S.C. § 548(a)(1), the same term
used in Bankruptcy Code § 541 to define the scope of
“property of the estate.” BLI, 480 B.R. at 527. For
this reason, the concepts of “property of the estate”
and “property of the debtor” are the same, separated
only by time. As the Supreme Court explained in
Begier, § 541 “delineates the scope of ‘property of the
estate’ and serves as the postpetition analog to
§ 547(b)’s ‘property of the debtor.’ ” Id. (quoting
Begier, 496 U.S. at 58–59) (internal quotation marks

53a
omitted). Accordingly, “(i) ‘property of the debtor’
subject to the preferential transfer provision is best
understood as that property that would have been
part of the estate had it not been transferred before
the commencement of the bankruptcy proceedings”
and (ii) “the purpose of the avoidance provision is to
preserve the property includable within the
bankruptcy estate.” Id. (quoting Begier, 496 U.S. at
58); accord French, 440 F.3d at 151 (“Section 541
defines ‘property of the estate’ as, inter alia, all
‘interests of the debtor in property.’ 11 U.S.C.
§ 541(a)(1). In turn, § 548 allows the avoidance of
certain transfers of such ‘interest[s] of the debtor in
property.’ 11 U.S.C. § 548(a)(1). By incorporating
the language of § 541 to define what property a
trustee may recover under his avoidance powers,
§ 548 plainly allows a trustee to avoid any transfer
of property that would have been ‘property of the
estate’ prior to the transfer in question—as defined
by § 541—even if that property is not ‘property of the
estate’ now.”) (emphasis in original); contra Maxwell
I, 186 B.R. at 820–21 (concluding that Congress did
not clearly express its desire that Bankruptcy Code
§ 547 applies to foreign transfers of the debtor’s
property); Barclay v. Swiss Fin. Corp. Ltd. (In re
Midland Euro Exch. Inc. ), 347 B.R. 708, 718 (Bankr.
C.D. Cal. 2006) (concluding that Congress did not
intend for § 548 to apply extraterritorially).
Section 550, in turn, allows the trustee to recover
the avoided transfer from the initial transferee, the
person for whose benefit the transfer was made or
the subsequent transferee:

54a
[B]y incorporating the avoidance provisions
by reference, Section 550 expresses the same
congressional
intent
regarding
extraterritorial application. Thus, Congress
expressed intent for the application of
Section 550 to fraudulently transferred
assets located outside the United States and
the presumption against extraterritoriality
does not apply.

BLI, 480 B.R. at 528.
D. The ET Decision
1. Extraterritoriality
Less than two years after the issuance of the BLI
decision, District Judge Rakoff reached the opposite
conclusion in the ET Decision.5 As mentioned above,
the ET Decision was issued in connection with
consolidated motions to dismiss filed by the
Participating Subsequent Transferees. Since the
District Court was looking at multiple cases, it
described the complaint in Picard v. CACEIS Bank
Luxembourg, Adv. P. No. 11–02758 (“CACEIS
Complaint ”) as an example. There, the two CACEIS
defendants (collectively, “CACEIS”) were organized
and operating in Luxembourg or France. ET
Decision, 513 B.R. at 225. They invested in two
foreign feeder funds, Fairfield Sentry Limited
(“Fairfield Sentry”), a BVI company in liquidation in
the BVI, and Harley International (Cayman)
5

The motions to dismiss before Judge Rakoff were briefed
before Judge Lifland issued the BLI decision, and the ET
Decision did not mention it.

55a
Limited (“Harley”), a Cayman Islands company in
liquidation in the Cayman Islands.
(CACEIS
Complaint at ¶¶ 2, 24–25.) Fairfield Sentry and
Harley invested substantially all of their assets with
BLMIS, received initial transfers from BLMIS and
subsequently transferred some or all of those funds
directly or indirectly to CACEIS. (Id. at ¶¶ 2, 37, 44,
46, 49, 58.) The Trustee sued the feeder funds to
avoid and recover the initial transfers they had
received from BLMIS. He settled with one of the
feeder funds, obtained a default judgment against
the other, and pursued CACEIS to recover
subsequent transfers in the amount of $50 million
received from the feeder funds. ET Decision,
513 B.R. at 225–26.
Judge Rakoff first considered whether the
Trustee was attempting to apply § 550
extraterritorially. He initially cautioned that “a
mere connection to a U.S. debtor, be it tangential or
remote, is insufficient on its own to make every
application of the Bankruptcy Code domestic.” Id. at
227. He then looked to the “regulatory focus” of the
Bankruptcy Code’s avoidance and recovery
provisions, and concluded that both § 548 and §
550(a) focused on the property transferred and the
fact of the transfer, not the debtor. Id.; but see
French, 440 F.3d at 150 (“§ 548 focuses not on the
property itself, but on the fraud of transferring it.”).
“Accordingly, under Morrison, the transaction being
regulated by section 550(a)(2) is the transfer of
property to a subsequent transferee, not the
relationship of that property to a perhaps-distant
debtor.” ET Decision, 513 B.R. at 227.

56a
To determine whether the subsequent transfers
occurred extraterritorially, “the court considers the
location of the transfers as well as the component
events of those transactions.” Id. (quoting Maxwell
I, 186 B.R. at 817). Returning to the CACEIS
Complaint, Judge Rakoff observed that “the relevant
transfers and transferees are predominately foreign:
foreign feeder funds transferring assets abroad to
their foreign customers and other foreign
transferees.”
Id. Under similar factual
circumstances, the Maxwell and Midland courts had
found transfers between foreign entities “to
implicate extraterritorial applications of the
Bankruptcy Code’s avoidance provisions.” Id. at
227–28. Finally, the fact that the chain of transfers
originated with BLMIS in New York or that the
subsequent
transferees
allegedly
used
correspondent banks in the United States to process
the dollar-denominated transfers was insufficient
“to make the recovery of these otherwise thoroughly
foreign subsequent transfers into a domestic
application of section 550(a).” Id. at 228 & n. 1.
Accordingly, the Trustee was seeking to recover
foreign transfers that required the extraterritorial
application of § 550(a). Id. at 228.
The District Court then turned to the question of
whether Congress intended the extraterritorial
application of section 550(a). Here too, the ET
Decision disagreed with BLI. First, “[n]othing in [the
language of section 550(a) ] suggests that Congress
intended for this section to apply to foreign
transfers. ...” Id. at 228. Judge Rakoff next looked
to context and surrounding Bankruptcy Code

57a
provisions. Id. The Trustee had argued that § 541’s
definition of “property of the estate,” which included
property held worldwide, indicated Congress’ intent
to allow the Trustee to recover “property of the
debtor” that, but for the fraudulent transfer, would
have been “property of the estate” as of the
commencement of the bankruptcy case. Id. at 228–
29. Judge Rakoff rejected the Trustee’s argument
for the same reason the District Court rejected a
similar argument in Maxwell I; fraudulently
transferred “property of the debtor” only becomes
“property of the estate” after recovery, ET Decision,
513 B.R. at 229 (citing Fed. Deposit Ins. Corp. v.
Hirsch (In re Colonial Realty Co. ), 980 F.2d 125, 131
(2d Cir.1992)), “so section 541 cannot supply any
extraterritorial authority that the avoidance and
recovery provisions lack on their own.” Id.; accord
Maxwell I, 186 B.R. at 820; Midland, 347 B.R. at
718.6 Furthermore, the use of the phrase “wherever
located” in § 541 indicating Congress’ intent to apply
that section extraterritorially, undercut the
conclusion that § 548 or SIPA § 78fff–2(c)(3),7 which
6

The District Court also rejected Trustee’s argument that
provisions of SIPA and policy concerns support extraterritorial
application of section 550(a). ET Decision, 513 B.R. at 230–31.
7

SIPA § 78fff–2(c)(3) authorizes the SIPA trustee to recover
pre-filing transfers of customer property even though customer
property was not property of the SIPA debtor at the time of the
transfer under applicable non-bankruptcy law. It provides:
Whenever customer property is not sufficient to pay in
full the claims set forth in subparagraphs (A) through
(D) of paragraph (1), the trustee may recover any
property transferred by the debtor which, except for

58a
did not include similar language, also applied
extraterritorially. ET Decision, 513 B.R. at 230.
Based on those observations, the District Court
“conclude[d] that the presumption against
extraterritorial application of federal statutes ha[d]
not been rebutted [and] the Trustee therefore may
not use section 550(a) to pursue recovery of purely
foreign subsequent transfers.” Id. at 231.
2. Comity
In the alternative, the District Court ruled that
“the Trustee’s use of section 550(a) to reach these
foreign transfers would be precluded by concerns of
international comity.” Id. at 231. Comity “is the
recognition which one nation allows within its
territory to the legislative, executive or judicial acts
of another nation, having due regard both to
international duty and convenience, and to the
rights of its own citizens or of other persons who are
under the protection of its laws.” Id. (quoting
Maxwell II, 93 F.3d at 1046 (in turn quoting Hilton
v. Guyot, 159 U.S. 113, 163–64 (1895))). A comity
inquiry requires a “choice-of-law analysis to
determine whether the application of U.S. law would
such transfer, would have been customer property if
and to the extent that such transfer is voidable or void
under the provisions of Title 11. Such recovered
property shall be treated as customer property. For
purposes of such recovery, the property so transferred
shall be deemed to have been the property of the debtor
and, if such transfer was made to a customer or for his
benefit, such customer shall be deemed to have been a
creditor, the laws of any State to the contrary
notwithstanding.

59a
be reasonable under the circumstances, comparing
the interests of the United States and the relevant
foreign state.” ET Decision, 513 B.R. at 231 (citing
Maxwell II, 91 F.3d at 1047–48).
Judge Rakoff observed that many feeder funds,
such as Fairfield Sentry Limited and Harley
International (Cayman) Limited, the two initial
transferees in CACEIS, were also in liquidation
proceedings abroad, and had their own rules
governing the recovery of transfers. Id. at 232. The
BVI courts in Fairfield Sentry had already rejected
the liquidators’ common law claims to reclaim the
transfers made to its own investors, and the
“Trustee [wa]s seeking to use SIPA to reach around
such foreign liquidations in order to make claims to
assets on behalf of the SIPA customer-property
estate—a specialized estate created solely by a U.S.
statute, with which the defendants here have no
direct relationship.” Id. These investors had no
reason to expect that U.S. law would govern their
relationships with their feeder funds, and “[g]iven
the indirect relationship between [BLMIS] and the
transfers at issue here, these foreign jurisdictions
have a greater interest in applying their own laws
than does the United States.” Id. Accordingly, as the
Second Circuit found in Maxwell II, “the interests of
the affected forums and the mutual interest of all
nations in smoothly functioning international law
counsel against the application of United States law
in the present case.” Id. (quoting Maxwell II, 93 F.3d
at 1053).

60a
Although the District Court ultimately ruled that
the “Trustee’s recovery claims are dismissed to the
extent that they seek to recover purely foreign
transfers,” id., the District Court did not actually
dismiss any of the complaints. Instead, the District
Court concluded:
Here, to the extent that the Trustee’s
complaints allege that both the transferor
and the transferee reside outside of the
United States, there is no plausible
inference that the transfer occurred
domestically. Therefore, unless the Trustee
can put forth specific facts suggesting a
domestic transfer, his recovery actions
seeking foreign transfers should be
dismissed.

ET Decision, 513 B.R. at 232 n. 4.
The District Court returned the cases to this
Court “for further proceedings consistent with this
Opinion and Order.” Id. at 232. Accordingly, I view
my task as entailing the review of the subsequent
transfer allegations to determine whether they
survive dismissal under the extraterritoriality or
comity principles enunciated in the ET Decision.
E. Post–ET Decision Proceedings
After the adversary proceedings were returned to
this Court, the parties stipulated to the Scheduling
Order.8 Exhibit A to the Scheduling Order listed
8

Order Concerning Further Proceedings on Extraterritoriality
Motion and Trustee’s Omnibus Motion for Leave to Replead

61a
those defendants that were parties to the
proceedings before Judge Rakoff and to the ET
Decision, i.e., the Participating Subsequent
Transferees. Exhibit B listed defendants who were
not parties to the ET Decision but contended that
they were similarly situated, i.e., the Non–
Participating Subsequent Transferees.
The
Scheduling Order set forth a briefing schedule to
address whether the Trustee’s existing claims
against the Subsequent Transferees should be
dismissed and whether the Trustee should be
permitted to amend the complaints. The Trustee
and the Participating and Non–Participating
Subsequent Transferees were also permitted to file
pleadings relevant to each individual adversary
proceeding, including short supplemental briefs and,
in the case of the Trustee, either a proposed
amended complaint or proffered allegations
supporting an amended complaint. (See Scheduling
Order at ¶¶ 3–5, 8.) To facilitate the Court’s and the
Defendant’s review and analysis, the Trustee was
required to include a chart (the “Chart”)
summarizing the Trustee’s position as to why the
motions should be denied. (Id. at ¶ 6.)9
and for Limited Discovery which the Court so ordered on
December 10, 2014 (as amended, the “Scheduling Order”) (ECF
Doc. # 8800).
9

The first adversary proceeding listed on the Chart was
dismissed after briefing. ( Stipulation and Order for Voluntary
Dismissal of Adversary Proceeding with Prejudice , dated Feb.
12, 2016 (Adv. Pro. No. 09–01154 ECF # 132).) The motion to
dismiss the subsequent transfer claim asserted in that
proceeding against Vizcaya Partners Limited and the Trustee’s

62a
Importantly, the Scheduling Order included
certain stipulations relating to the place of
formation or citizenship of the subsequent
transferors
and
Subsequent
Transferees.
(Scheduling Order at ¶ M (“Exhibits A and B list as
the party’s ‘Location’ the jurisdiction under whose
laws the transferors and transferees that are not
natural persons are organized, and the citizenship of
the transferors and transferees that are natural
persons, in each case as of the time of the transfers,
as alleged in the complaints or as agreed by the
Trustee and the respective transferees.”).)10
According to Exhibits A and B, none of the
subsequent transferors were “located” in the United
States, but some of the Subsequent Transferees
were.
The Subsequent Transferees filed their
supplemental motion to dismiss on December 31,
2014.
(See
Consolidated
Supplemental
Memorandum of Law In Support of the Transferee
Defendants’ Motion to Dismiss Based on
Extraterritoriality
on
December
31,
2014
(“Subsequent Transferees Brief”) (ECF Doc.
# 8903).) The parties seeking dismissal were listed
in Appendix A. (See Subsequent Transferees Brief
at 1.) The Trustee filed his response on June 26,
2015. (Trustee’s Memorandum of Law In Opposition
motion to amend the complaint are denied as moot.
10

No party was precluded from arguing that the stipulated
“Location” was or was not preclusive in determining whether
the transferor or transferee was “foreign” for purpose of the
motions or otherwise. (Scheduling Order at ¶ M.)

63a
to the Transferee Defendants’ Motion to Dismiss
Based on Extraterritoriality and in Further Support
of Trustee’s Motion for Leave to Amend Complaints
(“Trustee Brief”) (ECF Doc. # 10287).) The response
was limited to the defendants listed in Exhibit 1 to
the Trustee Brief.
Meanwhile, BLI, whose dismissal motion had
been denied by the Bankruptcy Court in BLI, asked
to be included as a Non–Participating Subsequent
Transferee in the returned proceedings.
The
Trustee opposed the request, and the Court denied
it explaining that unlike the Subsequent
Transferees,
BLI
had
“litigated
the
extraterritoriality [issue] and ... lost it.” (Transcript
of 11/19/2014 Hr’g at 31:10–15 (ECF Doc # 9542).)
BLI subsequently moved for judgment on the
pleadings pursuant to Federal Civil Rule 12(c) based
on the holdings of the ET Decision.11 After extended
colloquy with the Trustee’s counsel who argued,
among other things, that the complaint in BLI
should not be dismissed under the ET Decision,
counsel expressed the willingness that I decide the
BLI motion on the merits as part of the omnibus
motion raising the same issues. (Transcript of
7/29/2015 Hr’g at 20:7–18 (ECF Doc # 11158).)
D. Parties’ Legal Arguments
The Subsequent Transferees and the Trustee
disagree about the scope of the ET Decision.
11

See Memorandum of Law In Support of Defendant Bureau
of Labor Insurance’s Motion for Judgment on the Pleadings ,
dated Apr. 9, 2015 (ECF Adv. P. No. 11–02732 Doc. # 86).

64a
Initially, the Trustee argues that the ET Decision
was limited to resolving the “purely legal” issue of
whether SIPA and the Bankruptcy Code apply
extraterritorially to allow the Trustee to recover
purely foreign transfers. (Trustee Brief at 14–16.)
The Subsequent Transferees responds that the ET
Decision was not limited to an abstract legal issue
and was issued upon consideration of both factual
and legal arguments. Thus, the ET Decision was
binding
on
the
Participating
Subsequent
Transferees and persuasive as to the Non–
Participating Subsequent Transferees.
(Reply

Consolidated Supplemental Memorandum of Law In
Support of Transferee Defendants’ Motion to
Dismiss Based on Extraterritoriality, dated Sept. 30,
2015, at 6–7 (“Subsequent Transferees Reply”) (ECF
Doc. # 11542).)

Next, the Subsequent Transferees assert that
their motions to dismiss the existing claims should
be granted because the Trustee failed to respond to
those arguments and relied solely on new allegations
in his proposed amended complaints. Accordingly,
the Court should grant the branch seeking
dismissal. (Subsequent Transferees Reply at 4.) The
Trustee, however, sought leave to amend many of
the complaints to avoid dismissal under the ET
Decision by adding allegations that implied domestic
“components” to the subsequent transfers. He broke
these allegations down into nineteen categories (the
“Chart Factors”), summarized them in the Chart
annexed to the Trustee Brief as Ex. 2, and the Chart
showed which factors applied to specific Subsequent
Transferees. The Trustee argues that all of these

65a
factors were relevant to determining whether the
subsequent transfers were extraterritorial because
the ET Decision instructed the Court to consider the
location of the transfers as well as the “component
events of those transactions.” (Trustee Brief at 18.)
The Subsequent Transferees respond that none of
the Trustee’s nineteen factors say anything about
the location of the transfers which comprised the
crux of the ET Decision. (Subsequent Transferee
Reply at 8, 18–33.) They also add that the holistic
approach endorsed by the Trustee was rejected by
the Supreme Court in Morrison. (Id. at 17–18.)
Lastly, the Trustee argues that the branch of the

ET Decision that addressed comity applied only to

the extent the subsequent transfers were foreign
transfers, and Judge Rakoff’s decision was limited to
comity’s “potential application” to the cases.
(Trustee Brief at 33–34.) The Trustee also attacks
the comity ruling on the merits arguing that the
cases fail the applicable two-prong test requiring a
parallel proceeding and a true conflict of law and
facts sufficient to justify abstention. (Id. at 34–37.)
The Subsequent Transferees respond that the
comity ruling provides an alternative basis for
dismissal
to
the
presumption
against
extraterritoriality. Moreover, the Trustee’s merits
attack on Judge Rakoff’s comity holding confuse two
separate doctrines—“comity of courts” and “comity
of nations.” (Subsequent Transferee Reply at 36–
40.)

66a
DISCUSSION
A. Effect of the ET Decision
The parties offer dramatically different
interpretations of the scope and effect of the ET
Decision. The Subsequent Transferees view the ET
Decision as a “mandate” that requires the dismissal
of the Trustee’s claims to the extent subsequent
transfers were made between two parties residing
outside of the United States.
(Subsequent
Transferees Reply at 1.) The Trustee, on the other
hand, argues that the ET Decision decided a “purely
legal” issue and “recognized that the inquiry is
whether the conduct alleged in the complaints is
extraterritorial.” (Trustee Brief at 2 (emphasis in
original).)
The truth lies somewhere between. The ET
Decision did not simply decide that § 550(a)(2) did

not apply extraterritorially, one prong of the two
prong test. Judge Rakoff also considered the second
prong, concluding that the “focus” of the statute was
the subsequent transfer.
Using the CACEIS
Complaint as an example, he held that a complaint
required extraterritorial application of § 550(a)(2) if
“the relevant transfers and transferees are
predominantly foreign: foreign feeder funds
transferring assets abroad to their foreign
customers and other foreign transferees.”
ET
Decision, 513 B.R. at 227.
He did not, however, dismiss any complaints,
including the CACEIS Complaint. Instead, he
returned the cases involving the Participating
Subsequent Transferees to this Court “for further

67a
proceedings consistent with this Opinion and
Order.” Id. at 232. Consequently, the Court must
examine the allegations in the complaints or the
proposed amendments involving the Participating
Subsequent Transferees to determine if the alleged
transfers require the extraterritorial application of §
550(a)(2), or, as the Nabisco Court explained,
whether “the conduct relevant to the statute’s focus
occurred in the United States,” Nabisco, 136 S. Ct.
at 2101, bearing in mind that “it is a rare case of
prohibited extraterritorial application that lacks all
contact with the territory of the United States.”
Morrison, 561 U.S. at 266 (emphasis in original).
Moreover, the Court must decide whether any
particular subsequent transfer claim should be
dismissed on the ground of international comity.
The District Court’s re-referral did not involve
the Non–Participating Subsequent Transferees, and
the Court is not similarly bound.
The Non–
Participating Subsequent Transferees nevertheless
argue that the ET Decision should govern the
outcome of their motions to dismiss under the law of
the case doctrine. The ET Decision was decided in
the context of the BLMIS SIPA liquidation, and
“different adversary proceedings in a bankruptcy
case do not constitute different ‘cases.’ ” (Subsequent
Transferees Brief at 7–8 (quoting Bourdeau Bros. v.
Montagne (In re Montagne ), No. 08–1024 (CAB),
2010 WL 271347, at *6 (Bankr. D. Vt. Jan. 22,
2010)).)
The Court considers the ET Decision highly
persuasive in the Non–Participating Subsequent

68a
Transfer cases, and notes that the parties have
approached the disposition of the motions by
applying the dictates of the ET Decision to the
Participating and Non–Participating Subsequent
Transferees in the same manner. Furthermore,
even if I would reach a conclusion different from
Judge Rakoff, applying different rules would lead to
conflicting decisions on the same facts. Finally,
although the Trustee successfully opposed BLI’s
efforts to be included with the other Non–
Participating Subsequent Transferees, he effectively
conceded its inclusion when his counsel stated that
the Court should decide BLI’s motion for judgment
on the pleadings in accordance with the ET Decision.
Accordingly, all of the motions to dismiss the
complaints, and BLI’s motion for judgment on the
pleadings, will be governed by the ET Decision.
B. International Comity
Although the District Court relied on
international comity as an alternative basis to
dismiss the subsequent transfer claims, I begin
there because it presents a more straightforward
analysis. The District Court held that “even if the
presumption against extraterritoriality were
rebutted, the Trustee’s use of section 550(a) to reach
these foreign transfers would be precluded by
concerns of international comity.” ET Decision, 513
B.R. at 231. Dismissing an action based on comity
is a form of abstention, JP Morgan Chase Bank v.
Altos Hornos de Mexico, S.A. de C.V., 412 F.3d 418,
422 (2d Cir. 2005), by which “states normally refrain
from prescribing laws that govern activities

69a
connected with another state ‘when the exercise of
such jurisdiction is unreasonable.’ ” Maxwell II, 93
F.3d at 1047–48 (quoting RESTATEMENT (THIRD) OF
FOREIGN RELATIONS § 403(1)).
Whether
so
legislating
would
be
“unreasonable” is determined “by evaluating
all relevant factors, including, where
appropriate,” such factors as the link
between the regulating state and the
relevant activity, the connection between
that state and the person responsible for the
activity (or protected by the regulation), the
nature of the regulated activity and its
importance to the regulating state, the effect
of the regulation on justified expectations,
the significance of the regulation to the
international system, the extent of other
states’ interests, and the likelihood of
conflict with other states’ regulations.

Id. at 1048 (citing

RESTATEMENT (THIRD) OF
FOREIGN RELATIONS § 403(2)). When considering a
motion to abstain, a “court is not restricted to the
face of the pleadings, but may review affidavits and
other evidence to resolve factual disputes concerning
its jurisdiction to hear the action.” Kingsway Fin.
Servs., Inc. v. Pricewaterhousecoopers, LLP, 420 F.
Supp. 2d 228, 233 n.5 (S.D.N.Y. 2005) (quoting
DeLoreto v. Ment, 944 F. Supp. 1023, 1028 (D. Conn.
1996)).
International comity is especially important in
the context of the Bankruptcy Code. Maxwell II, 93
F.3d at 1048. First, deference to foreign insolvency

70a
proceedings promotes the goals of fair, equitable and
orderly distribution of the debtor’s assets. Id.;
accord Victrix S.S. Co., S.A. v. Salen Dry Cargo A.B.,
825 F.2d 709, 713 (2d Cir.1987) (“American courts
have long recognized the particular need to extend
comity to foreign bankruptcy proceedings.”); Cunard
S.S. Co. Ltd. v. Salen Reefer Servs. AB, 773 F.2d 452,
458 (2d Cir.1985) (“American courts have
consistently recognized the interest of foreign courts
in liquidating or winding up the affairs of their own
domestic business entities.”). Second, Congress has
explicitly recognized the central concept of comity
under chapter 15 of the Bankruptcy Code when
providing
additional
assistance
to foreign
representatives under 11 U.S.C. § 1507(b).12 Cf.
12

Section 1507(b) provides:
(b) In determining whether to provide additional
assistance under this title or under other laws of the
United States, the court shall consider whether such
additional assistance, consistent with the principles of
comity, will reasonably assure(1) just treatment of all holders of claims against or
interests in the debtor’s property;
(2) protection of claim holders in the United States
against prejudice and inconvenience in the processing
of claims in such foreign proceeding;
(3) prevention of preferential or fraudulent dispositions
of property of the debtor;
(4) distribution of proceeds of the debtor’s property
substantially in accordance with the order prescribed
by this title; and
(5) if appropriate, the provision of an opportunity for a

71a

Maxwell II, 93 F.3d at 1048 (“Congress explicitly
recognized the importance of the principles of
international comity in transnational insolvency
situations when it revised the bankruptcy laws. See
11 U.S.C. § 304.”).

In reaching the conclusion that claims based on
foreign transfers should be dismissed out of concern
for international comity, the District Court
emphasized that many of the foreign BLMIS feeder
funds were in liquidation proceedings in their home
countries subject to their own rules relating to the
disgorgement of transfers, the BVI court had already
decided in the case of the “Fairfield Funds”—
Fairfield Sentry Limited (“Fairfield Sentry”),
Fairfield Sigma Limited (“Fairfield Sigma”) and
Fairfield Lambda Limited (“Fairfield Lambda”)—
that the liquidators could not reclaim transfers to
the feeder fund investors under certain common law
theories. The Trustee was attempting to reach
around the foreign liquidations to make claims on
behalf of a SIPA estate with whom the feeder fund
investors—here, the Subsequent Transferees—had
no reason to expect that U.S. law would apply to
their relationships with the debtor feeder funds. ET
Decision, 513 B.R. at 232.

fresh start for the individual that such foreign
proceeding concerns.
Comity was one of six factors under former Bankruptcy Code
§ 304, but under § 1507(b), “comity [has been] raised to the
introductory language to make it clear that it is the central
concept to be addressed.” H.R. REP. No. 109–31, at 1507
(2005).

72a
The Trustee argues that the District Court did
not decide this issue “beyond its potential
application to purely foreign subsequent transfers,”
and its decision is not implicated at all if this Court
finds that the transfers were “sufficiently domestic
to apply United States law.” (Trustee Brief at 33
(“[I]f this Court determines after analyzing the
component events and transactions that the
transfers are not foreign but sufficiently domestic to
apply United States law, then the District Court’s
alternative rationale of comity is not implicated.”).)
However, the ET Decision plainly stated the
opposite, holding that comity considerations
required dismissal “even if the presumption against
extraterritoriality were rebutted.” ET Decision,
513 B.R. at 231; accord Maxwell II, 93 F.3d at 1047
(international comity is separate from the
presumption against extraterritoriality, and may be
applied to preclude the application of a U.S. statute
to conduct clearly subject to that statute).
The Trustee next implies that Judge Rakoff got
it wrong. He argues that for comity to apply, the
defendants must demonstrate that “(i) parallel
proceedings in the United States and overseas
constitute a true conflict between American law and
that of a foreign jurisdiction and (ii) the specific facts
... are sufficiently exceptional to justify abstention’
to outweigh the district court’s general obligation to
exercise its jurisdiction.” (Trustee Brief at 34
(citations and quotation marks omitted) (emphasis
in original).) According to the Trustee, BLMIS is not
the subject of a parallel liquidation proceeding

73a
overseas and no exceptional circumstances support
the application of comity. (Id. at 34–37.)
Judge Rakoff plainly ruled that comity applies at
least where the feeder fund that was the initial
transferee was the subject of a foreign liquidation
proceeding with its own rules of disgorgement.
Moreover, the Trustee misapprehends the branch of
the comity doctrine invoked by Judge Rakoff. The
Second Circuit has recognized that “international
comity” describes two distinct doctrines: first, “as a
canon of construction, it might shorten the reach of
a statute; second, it may be viewed as a discretionary
act of deference by a national court to decline to
exercise jurisdiction in a case properly adjudicated
in a foreign state, the so-called comity among
courts.” Maxwell II, 93 F.3d at 1047; accord Bigio v.
Coca–Cola Co., 448 F.3d 176, 178 (2d Cir. 2006)
(Rakoff, J., sitting by designation), cert. denied, 549
U.S. 1282 (2007).
The Trustee’s dual factors (parallel proceedings
and exceptional facts) apply to the latter branch of
comity—comity among courts. See, e.g., Royal &

Sun Alliance Ins. Co. of Canada v. Century Int’l
Arms, Inc., 466 F.3d 88, 92–97 (2d Cir. 2006).

Comity among courts is inapplicable here because
there are no parallel foreign avoidance actions in
which the Trustee seeks to recover from the
Subsequent Transferees. Instead, Judge Rakoff was
referring to comity among nations, a canon of
construction that limits the reach of the Bankruptcy
Code’s avoidance and recovery provisions. ET
Decision, 513 B.R. at 231 (“Courts conducting a

74a
comity analysis must engage in a choice-of-law
analysis to determine whether the application of
U.S. law would be reasonable under the
circumstances ....”).
Comity among nations does not require parallel
proceedings, and Judge Rakoff was not referring to
the existence or nonexistence of parallel proceedings
involving BLMIS. Instead, the reference to foreign
proceedings in which the liquidators asserted claims
for similar relief against the feeder fund investors
informed his conclusion that those foreign
jurisdictions had a greater interest in the
application of their own laws than the United States
had in the application of U.S. law. See ET Decision,
513 B.R. at 232 (“Given the indirect relationship
between [BLMIS] and the transfers at issue here,
these foreign jurisdictions have a greater interest in
applying their own laws than does the United
States.”).
The District Court illustrated this conclusion
with references to the Fairfield Sentry liquidation in
the BVI. Fairfield Sentry had invested 95% of its
funds with BLMIS, and went into liquidation in the
BVI shortly after the disclosure of Madoff’s Ponzi
scheme. Prior to the disclosure of Madoff’s fraud and
the Fairfield Sentry liquidation, Fairfield Sentry
shareholders who redeemed their shares were paid
redemption prices based upon the Net Asset Value
(“NAV”) of their shares, which, in turn, was based on
the assumed total value of Fairfield Sentry’s assets.
In computing NAVs, Fairfield Sentry assigned
substantial value to its investment in BLMIS, but

75a
the subsequent revelation of Madoff’s Ponzi scheme,
and the worthlessness of the BLMIS investments,
meant that the earlier computations of NAV and the
redemption prices were wrong and grossly inflated.
Fairfield Sentry, acting at the behest of the BVI
liquidators, sued the redeeming shareholders in the
BVI (the “BVI Redeemer Actions”) to recover the
redemption payments.
It argued that the
shareholders had redeemed their investments at an
inflated price based upon an erroneous computation
of the NAV that governed the redemption price of
their shares. The defendants in the BVI Redeemer
Actions are the immediate Subsequent Transferees
of Fairfield Sentry, the initial transferee of BLMIS
in many of the cases before this Court.
In Fairfield Sentry Ltd. v. Migani, [2014] UKPC
9, the Privy Council affirmed the lower courts and
dismissed Fairfield Sentry’s claims against the
redeemers. The Privy Council concluded that the
redemption price was determined at the time of the
redemption based on the facts then known and not
upon information that subsequently became
available. See id. at ¶¶ 2, 24, 30–31. The court
further concluded that although the subscription
agreements signed by the redeemers contained a
New York choice of law provision, New York law was
irrelevant. Fair-field Sentry’s right to recover the
redemptions depended on the articles of association
and was governed by BVI law. Id. at ¶ 20.
The Fairfield Sentry liquidators also brought
redeemer actions in New York (the “US Redeemer
Actions,” and with the BVI Redeemer Actions, the

76a
“Redeemer Actions”). The background to the US
Redeemer Actions is discussed in In re Fairfield
Sentry Ltd., 458 B.R. 665 (S.D.N.Y. 2011). In April
2010, the liquidators began filing lawsuits in New
York state court against banks that had purchased
shares in Fairfield Sentry and against their
customers to whom they had resold the shares—the
unknown beneficial owners. Id. at 671–72. The
liquidators initially asserted only state law claims
for money had and received, unjust enrichment,
mistaken payment and constructive trust,
advancing the same theory of recovery as the BVI
Redeemer Actions. Id. at 672.
In June 2010, the liquidators filed a chapter 15
proceeding which was recognized by this Court. The
liquidators subsequently commenced substantially
similar US Redeemer Actions in this Court, and
removed the state court actions to this Court. Id. As
of today, there are 305 US Redeemer Actions
pending before the Court, (see Notice of Status
Conference, dated July 8, 2016 (ECF Adv. Proc. No.
10–03496 Doc. # 898)), involving 747 defendants.
(Transcript of July 28, 2016 Hr’g. at 8 (ECF Adv.
Proc. No. 10–03496 Doc. # 906).)13 In addition to
their original state law claims, the liquidators have
amended or propose to amend many of the
complaints in the US Redeemer Actions to assert

13

The defendants in forty-one removed actions moved to
remand those actions to state court. The proceedings ordered
by the District Court in connection with those motions has been
held in abeyance while litigation proceeded in the BVI.

77a
statutory claims under the BVI Insolvency Act (the
“BVI Act”).
The Amended Complaint in Fairfield Sentry Ltd.
(in Liquidation) v. UBS Fund Servs. (Ireland) Ltd.
(In re Fairfield Sentry Ltd. ), Adv. Proc. No. 11–
01258 (Bankr. S.D.N.Y.) is typical. It asserts claims
to recover unfair preferences under section 245 of
the BVI Act14 paid to UBS Ireland and the beneficial
shareholders. It also asserts claims against the
same
defendants
to
recover
“undervalue”
transactions, which correspond to U.S. constructive
fraudulent transfer claims, under section 246 of the
BVI Act.15 If the liquidators prevail on their BVI
14

Section 245 of the BVI Insolvency Act provides in pertinent
part:
(1) Subject to subsection (2), a transaction entered into
by a company is an unfair preference given by the
company to a creditor if the transaction (a) is an
insolvency transaction; (b) is entered into within the
vulnerability period; and (c) has the effect of putting
the creditor into a position which, in the event of the
company going into insolvent liquidation, will be better
than the position he would have been in if the
transaction had not been entered into.
(2) A transaction is not an unfair preference if the
transaction took place in the ordinary course of
business....
15

Section 246 of the BVI Insolvency Act provides in pertinent
part:
(1) Subject to subsection (2), a company enters into an
undervalue transaction with a person if (a) the
company makes a gift to that person or otherwise
enters into a transaction with that person on terms

78a
statutory claims, the court may avoid the
transaction in whole or in part, restore the parties to
the position they would have been in if they had not
entered into the transaction, BVI Act § 249(1)(a), (b),
and under certain circumstances, follow the
property into the hands of third parties. See BVI Act
§§ 249, 250.
In short, the Fairfield Sentry
liquidators have brought substantially the same
claims against substantially the same group of
defendants to recover substantially the same
transfers brought by the Trustee against the
Fairfield Sentry Subsequent Transferees.
Although the District Court did not specifically
mention the “Kingate Funds”—Kingate Global
Fund, Ltd. and Kingate Euro Fund, Ltd.—its
liquidators have also brought actions that mirror the
Trustee’s claims in this Court. The Kingate Funds
were BLMIS feeder funds that suffered the same
that provide for the company to receive no
consideration; or (b) the company enters into a
transaction with that person for a consideration the
value of which, in money or money’s worth, is
significantly less than the value, in money or money’s
worth, of the consideration provided by the company;
and (c) in either case, the transaction concerned (i) is
an insolvency transaction; and (ii) is entered into
within the vulnerability period.
(2) A company does not enter into an undervalue
transaction with a person if (a) the company enters into
the transaction in good faith and for the purposes of its
business; and (b) at the time when it enters into the
transaction, there were reasonable grounds for
believing that the transaction would benefit the
company....

79a
fate as the Fairfield Funds, and wound up in
liquidation in Bermuda and the BVI.
Acting
through their liquidators, the Kingate Funds
brought suit in Bermuda against several service
providers (Kingate Management Limited (“KML”)16
and FIM Limited and FIM Advisors (collectively,
“FIM”)) and their direct and indirect shareholders
and affiliates, as the ultimate recipients, to recover
overpaid fees based on erroneous NAVs under both
legal and equitable theories.
(See Amended
Statement of Claim, dated Feb. 12, 2012, annexed as
Exhibit A to the Reply Declaration of Anthony M.
Gruppuso, Esq., dated May 31, 2016 (ECF Adv. Proc.
No. 09–01161 Doc. # 273).) The Kingate Funds also
asserted tort and breach of contract claims against
the service providers and their ultimate owners,
Messrs. Carlo Grosso and Federico Ceretti.
In a decision dated September 25, 2015, the
Supreme Court of Bermuda rendered its Judgment
on Preliminary Issues. See Kingate Global Fund
Ltd. (In Liquidation ) v. Kingate Management Ltd.,
[2015] SC (Bda) 65 Com (Bermuda). Adhering to the
Privy Council’s decision in Fairfield Sentry, the
Bermuda court concluded that monthly NAV
determinations were binding on the Kingate Funds
and their members in the absence of bad faith or
manifest error for the purpose of calculating
subscription and redemption prices, id. at ¶ 81, and
were similarly binding with respect the fees paid to
KML. Id. at ¶ 116. Furthermore, BLMIS’ bad faith
or manifest error which led to the erroneous
16

KML is in liquidation in Bermuda.

80a
calculation of the NAVs did not affect KML’s right to
fees, id. at ¶ 142, but if KML induced the Funds’
mistake, KML’s contractual entitlement to fees was
no defense to the unjust enrichment claim to the
extent the payment exceeded the true NAV. Id. at ¶
163.
The Trustee has sued the same defendants as
well as the Kingate Funds and two additional
service providers, Citi Hedge Fund Services Limited
and HSBC Bank Bermuda Limited. (See Picard v.
Ceretti (In re BLMIS ), Adv. Proc. No. 09–01161.) He
seeks to avoid the initial transfers to the Kingate
Funds, and recover the initial transfers and
subsequent transfers from the immediate and
mediate transferees of the Kingate Funds. In
connection with his efforts, the Trustee sought, inter
alia, to compel the Bermuda liquidators to produce
the discovery that the Bermuda defendants had
produced to them. Referring to the Bermuda action
during his motion to compel discovery, the Trustee
argued that “[i]n this proceeding, the Trustee seeks
to recover the same moneys from the same parties.”
(Reply Memorandum of Law in Support of the

Trustee’s Motion to Compel Defendants to Produce
Documents and Participate in Discovery, dated May

31, 2016, at 7 (ECF Adv. Proc. # 09–01161 Doc.
# 272).)
The Trustee’s subsequent transfer claims arising
from initial transfers to the Fairfield Funds and the
Kingate Funds (together, sometimes referred to as
the “Funds”) duplicate the actions brought by the
respective liquidators, with limited success, against

81a
substantially the same defendants to recover
substantially the same transfers. In this respect,
the Trustee’s claims against the Subsequent
Transferees of those funds attempt to reach around
the proceedings in those foreign insolvency courts,
and subject the common defendants to duplicative
claims by different plaintiffs.
As between the United States on the one hand
and the BVI and Bermuda on the other, the latter
jurisdictions have a greater interest in regulating
the activity that gave rise to the common claims
asserted by the Trustee and the liquidators. The
Funds were formed under foreign law, and their
liquidation, including the marshaling of assets and
the payment of claims, is governed by local
insolvency law, to which particular deference is due
under our own jurisprudence. The United States
has no interest in regulating the relationship
between the Funds and their investors or the
liquidation of the Funds and the payment of their
investors’ claims. The United States’ interest is
purely remedial; the Bankruptcy Code allows the
Trustee to follow the initial fraudulent transfer into
the hands of a subsequent transferee, although the
presumption against extraterritoriality, discussed
in the next section, may dictate otherwise. In fact,
the Trustee has successfully argued that the
investors in feeder funds have no recourse under
SIPA against the BLMIS customer property estate
because they were not customers of BLMIS. See

Kruse v. Bricklayers & Allied Craftsman Local 2
Annuity Fund (In re BLMIS ), 708 F.3d 422, 426–28
(2d Cir. 2013); SIPC v. Jacqueline Green Rollover

82a

Account, 12 Civ. 1039 (DLC), 2012 WL 3042986, at
*13 (S.D.N.Y. July 25, 2012), SIPC v. BLMIS (In re
BLMIS ), 515 B.R. 161, 169 (Bankr. S.D.N.Y. 2014).
Finally, although the subscription agreements,
at least in the case of Fairfield Sentry, were
governed by New York law, the Privy Council in
Fairfield Sentry ruled that the redemptions were
governed by the Articles of Association and BVI law.
Migani, UKPC 9, at ¶ 10. Thus, if the shareholders
had any expectations relating to which law governed
redemptions, they should have expected BVI law to
govern. Furthermore, forum selection and choice of
law clauses in agreements do “not preclude a court
from deferring on grounds of international comity to
a foreign tribunal where deference is otherwise
warranted.” Altos Hornos de Mexico, 412 F.3d at
429. And since the Trustee has not argued that New
York law governed any aspect of the relationships
between the Kingate Funds and their service
providers or their shareholders, there is no basis to
conclude that these transferees should have
expected United States or New York law to govern
the payments made to them or the recovery of the
payments in the event of the Kingate Funds’
liquidation.
Accordingly, the recovery of Subsequent
Transfers under 11 U.S.C. § 550(a)(2) arising from
the avoidance of initial transfers made by BLMIS to
the Fairfield Funds or the Kingate Funds is barred
under the doctrine of comity as interpreted in the ET
Decision, and if the initial transfers cannot be
avoided, there can be no recovery from subsequent

83a
transferees. 11 U.S.C. § 550(a) ( “to the extent a
transfer is avoided ... the trustee may recover ... “).
This category includes all of the claims identified in
the Chart pertaining to the following adversary
proceedings: 09–01161, 09–01239, 10–05346, 10–
05348, 10–05351, 10–05355, 11–02149, 11–02493,
11–02537, 11–02538, 11–02539, 11–02540, 11–
02541, 11–02542, 11–02553, 11–02554, 11–2568,
11–02569, 11–02570, 11–02571, 11–02572, 11–
02573, 11–02730, 11–02731, 11–02762, 11–02763,
11–02910, 11–02922, 11–02923, 11–02925, 11–
02929, 12–01002, 12–01004, 12–01005, 12–01019,
12–01021, 12–01022, 12–01023, 12–001025, 12–
01046, 12–01047, 12–01194, 12–01195, 12–01202,
12–01205, 12–01207, 12–01209, 12–01210, 12–
01211, 12–01216, 12–01512, 12–01513, 12–01565,
12–01566, 12–01577, 12–01669, 12–01676, 12–
01677, 12–01680, 12–01690, 12–01693, 12–01694
and 12–01695. In addition, the claims against BLI
are based on subsequent transfers from Fairfield
Sentry, the initial transferee. See BLI, 480 B.R. at
506–07.
Furthermore, all of the subsequent
transfers alleged in Adv. Proc. Nos. 12–01697 and
12–01700 and identified in the Chart originated
with Fairfield Sentry or Fairfield Sigma. These
claims are dismissed on comity grounds and leave to
amend is denied.
In several multi-defendant, multi-transferor
adversary proceedings, the following defendants
received subsequent transfers only from the
Fairfield Funds or the Kingate Funds:

84a
Table 1
Adv. Proc. No.

Subsequent Transferee

09–01364

HSBC Private Bank
(Suisse) S.A.

10–05120

BGL BNP Paribas S.A.

10–05353

Natixis; Tensyr Ltd.

11–02758

Caseis Bank

11–02784

Somers Nominees (Far
East) Ltd.

12–01576

BGL BNP Paribas
Luxembourg S.A.; BNP
Paribas (Suisse); BNP
Paribas S.A.

12–01698

Banque Internationale a
Luxembourg (Suisse) S.A.
(f/k/a Dexia Private Bank
(Switzerland) Ltd.); Banque
Internationale a
Luxembourg S.A. (f/k/a
Dexia Banque
Internationale a
Luxembourg S.A.),
individually and as
successor in interest to
Dexia Nordic Private Bank
S.A.; RBC Dexia Investor
Services Bank S.A.; RBC

85a
Dexia Investors Services
España, S.A.
12–01699

Royal Bank of Canada;
Royal Bank of Canada Trust
Company (Jersey) Ltd.;
Royal Bank of Canada
(Asia) Ltd.; Royal Bank of
Canada (Suisse) S.A.; RBC
Dominion Securities Inc.

These subsequent transfer claims are dismissed,
and leave to amend is denied.
Finally, the Chart indicates that the following
Subsequent Transferees received subsequent
transfers from the Kingate Funds and/or the
Fairfield Funds as well as another transferor:
Table 2
Adv. Proc. No.

Subsequent Transferee

10–05120

BNP Paribas Securities
Services S.A.

11–02758

Caceis Bank Luxembourg

11–02784

Somers Dublin Ltd.

12–01273

Mistral (SPC)

12–01278

Zephyros Ltd.

12–01576

BNP Paribas Arbitrage
SNC; BNP Paribas Bank &

86a
Trust Cayman Ltd.; BNP
Paribas Securities Services,
S.A.; BNP Paribas
Securities Services
Succursale de Luxembourg
12–01699

Guernroy Ltd.; Royal Bank
of Canada (Channel
Islands) Ltd.

12–01702

Dove Hill Trust

These claims are dismissed (and the Trustee’s
motions for leave to amend are denied), to the extent
the Fairfield Funds or the Kingate Funds received
the initial transfers, again for the same reasons.
Judge Rakoff also observed that Harley
International (“Harley”) was in liquidation in the
Cayman Islands, ET Decision, 513 B.R. at 225
(citing CACEIS Complaint ). According to the Chart,
Harley made transfers to the following defendant
Subsequent Transferees:
Table 3
Adv. Proc. No.

Subsequent Transferee

09–01364

HSBC Bank PLC

10–05353

Bloom Asset Holdings Fund

11–02758

CACEIS Bank Luxembourg

11–02759

Nomura International PLC

87a
11–02760

ABN AMRO Bank N.V.

11–02761

KBC Investments Ltd.

11–02784

Somers Dublin Ltd.

11–02796

BNP Paribas Arbitrage
SNC

By order dated Feb. 5, 2010, the Cayman Islands
Grand Court, Financial Services Division (“Grand
Court”), recognized the Trustee as the sole
representative of the BLMIS estate in the Cayman
Islands. In re BLMIS, 2010 (1) CILR 231, at ¶ 6
(Grand Ct. Cayman Is.). He subsequently issued a
summons seeking disclosure, information and
documents from the official liquidators relevant to
potential causes of action that Harley might have
had against any Fortis entity, and in particular, its
former administrator, Fortis Prime Fund Solutions
(IOM) Ltd. (“Fortis”), now known as ABN AMRO
Fund Services (IOM) Ltd. In re Harley Int’l
(Cayman) Ltd., 2012(1) CILR 178, at ¶ 5 (Grand Ct.
Cayman Is.). The Grand Court dismissed the
Trustee’s application, because it was “the function of
Harley’s official liquidators, not the trustee, to
investigate whether or not Harley has any cause of
action against its former professional service
providers.” Id. After the official liquidators rendered
their report and served a copy on the Trustee, the
Trustee filed an application to seal it, but the Grand
Court denied the sealing application. Id. at ¶ 20.

88a
It is not clear whether the Trustee pursued any
further relief in the Harley liquidation, but he
actively litigated avoidance claims in connection
with the Cayman Islands liquidation of two funds
operated by the Primeo Fund. One of the Primeo
Funds was a feeder fund with its own BLMIS
account, but following a restructuring in April 2007,
both Primeo Funds operated strictly as sub feeder
funds of two BLMIS feeder funds, Alpha Prime Fund
Ltd. and Herald Fund SPC. Picard v. Primeo Fund
(In Liquidation), 2014(1) CILR 379 (“Primeo”), at ¶
3 (Ct. App. Cayman Is.). The Trustee commenced
proceedings against the Primeo Fund as an initial
and subsequent transferee to recover preferential
and fraudulent transfers under U.S. bankruptcy law
and to recover preferences under § 145 of the
Cayman Islands Companies Law (or equivalent
common law rules). Id. at ¶ 5. The Cayman Islands
Court of Appeal ultimately ruled that the Trustee
was entitled to pursue claims against the Primeo
Funds under the avoidance provisions of Cayman
Islands law, but not under U.S. law. Id. at ¶¶ 55, 57,
59.
As in the case of the Fairfield Funds and the
Kingate Funds, the Cayman Islands has a greater
interest in regulating the activities that gave rise to
the Trustee’s subsequent transfer claims,
particularly the validity or invalidity of payments by
Harley to its investors and service providers. The
United States, on the other hand, has no interest in
regulating the transfers from a foreign fund to its
investors or service providers.
The only
U.S. connection to those transfers is the Trustee’s

89a
right under the Bankruptcy Code to follow BLMIS’
fraudulent transfers into the hands of third parties
who did not deal with BLMIS directly. Moreover,
the Trustee has asserted claims against other
transferees in Cayman Islands liquidation
proceedings, and the Cayman Islands Court of
Appeal has acknowledged his right to sue in the
Cayman Islands and invoke Cayman Islands
avoidance law. Finally, those who invested in
Harley and lost their investments have no rights
against BLMIS, and must seek to recoup their
investments through the Cayman Islands
liquidation proceedings.
The Subsequent Transferees have also identified
three subsequent transferors that are in liquidation
in Luxembourg: Luxalpha SICAV, Oreades SICAV
and Luxembourg Investment Fund U.S. Equity
Plus. Although the principles discussed above might
suggest that any Subsequent Transfer claims
emanating from transfers by these debtors should
also be barred, the Court is not prepared to reach
this conclusion on the current state of the record.
The Court has not been directed to any information
regarding those liquidations, whether Luxembourg
law allows the liquidator to avoid and recover
preferences or fraudulent transfers (regardless of
what they are called) and whether the Trustee is
attempting to make an end-run around those
proceedings. Accordingly, the Court declines to
dismiss those claims or deny leave to amend on the
basis of comity, without prejudice to any party’s
right to supplement the record through an
appropriate motion.

90a
C. Extraterritoriality
1. Introduction
The Court next considers the balance of the
claims under the doctrine of extraterritoriality and
whether the allegations supplied in the complaints
and/or proffers rebut the presumption against
extraterritoriality by alleging, in each case, a
domestic transfer. The rules that govern motions to
dismiss under Federal Civil Rule 12(b)(6) apply to
this branch of the motions to dismiss. To state a
legally sufficient claim, “a complaint must contain
sufficient factual matter, accepted as true, to state a
claim to relief that is plausible on its face.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) (citation omitted);
accord Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Iqbal, 556 U.S.
at 678; accord Twombly, 550 U.S. at 556. Courts do
not decide plausibility in a vacuum. Determining
whether a claim is plausible is “a context-specific
task that requires the reviewing court to draw on its
judicial experience and common sense.” Iqbal, 556
U.S. at 679. “The plausibility standard is not akin
to a ‘probability requirement,’ but it asks for more
than a sheer possibility that a defendant has acted
unlawfully.” Iqbal, 556 U.S. at 678; Twombly, 550
U.S. at 556. “Where a complaint pleads facts that
are ‘merely consistent with’ a defendant’s liability, it
‘stops short of the line between possibility and

91a
plausibility of ‘entitlement to relief.’” Iqbal, 556
U.S. at 678 (quoting Twombly, 550 U.S. at 557).
The ET Decision was concerned with foreign
transfers. It did not, however, define or provide a
test to determine when a transfer was “foreign”
except that “purely foreign transfers”—transfers
between two foreign entities that do not reside in the
United States using non-U.S. bank accounts (or
correspondent U.S. bank accounts)—are obviously
“foreign.” The Subsequent Transferees argue that a
party is “foreign” if it was formed under foreign law,
as all of the non-individual Subsequent Transferees
were, or is the citizen of another nation as are the
two individual Subsequent Transferees discussed
below.
(Subsequent Transferees Brief at 12.)
However, the ET Decision never mentioned
“citizenship” or “domicile,” although it did highlight
the place of organization as the sine qua non of
foreignness. See ET Decision, 513 B.R. at 227–28
(discussing the facts in Midland Euro Exchange ). In
addition, the District Court stated that “to the
extent that the Trustee’s complaints allege that both
the transferor and the transferee reside outside of
the United States, there is no plausible inference
that the transfer occurred domestically.”
ET
Decision, 513 B.R. at 232 n. 4. While meant as an
admonition directed to the Trustee, the statement
suggests that a transfer between two entities
organized under foreign law might nonetheless be
domestic if the parties “resided” in the United
States.

92a
The District Court did not explain what it meant
by “reside,” but it meant something more than mere
presence. “[E]ven where the claims touch and
concern the territory of the United States, they must
do so with sufficient force to displace the
presumption against extraterritorial application.
See Morrison, 561 U.S. 247, 130 S. Ct. at 2883–2888.
Corporations are often present in many countries,
and it would reach too far to say that mere corporate
presence suffices.” Kiobel v. Royal Dutch Petroleum
Co., 133 S. Ct. 1659, 1669 (2013).
In addition, it does not appear that that the
District Court equated residence for purposes of
extraterritoriality with the test for personal
jurisdiction as the Trustee seems to do. First, the
tests for personal jurisdiction and extraterritoriality
are not the same. Absolute Activist Value Master
Fund Ltd. v. Ficeto, 677 F.3d 60, 69 (2d Cir. 2012)
(“Ewing’s lack of contact with the United States may
provide a basis for dismissing the case against him
for lack of personal jurisdiction ... but the
transactional test announced in Morrison does not
require that each defendant alleged to be involved in
a fraudulent scheme engage in conduct in the United
States.”).
Second, the CACEIS Complaint included numerous
allegations relating to personal jurisdiction:
6. The CACEIS Defendants are subject to
personal jurisdiction in this judicial district
because they purposely availed themselves
of the laws and protections of the United
States and the state of New York by, among

93a
other things, knowingly directing funds to be
invested with New York-based BLMIS
through the Feeder Funds. The CACEIS
Defendants knowingly received subsequent
transfers from BLMIS by withdrawing
money from the Feeder Funds.
7.
By directing investments through
Fairfield Sentry, a Fairfield Greenwich
Group (“FGG”) managed Madoff feeder fund,
the CACEIS Defendants knowingly accepted
the rights, benefits, and privileges of
conducting business and/or transactions in
the United States and New York. Upon
information and belief, the CACEIS
Defendants entered, or caused their agent to
enter, into subscription agreements with
Fairfield Sentry under which they submitted
to New York jurisdiction, sent copies of the
agreements to FGG’s New York City office,
and wired funds to Fairfield Sentry through
a bank in New York. In addition, the
CACEIS Defendants are part of the CACEIS
Group, which maintains an office in New
York City. The CACEIS Defendants thus
derived significant revenue from New York
and maintained minimum contacts and/or
general business contacts with the United
States and New York in connection with the
claims alleged herein.
(CACEIS Complaint at ¶¶ 6–7.) Despite these
allegations, the District Court held that the
“subsequent transfers that the Trustee seeks to

94a
recover are foreign transfers.” ET Decision, 513 B.R.
at 228.17 The District Court also discounted the
17

The Trustee points out that the ET Decision did not mention
the personal jurisdiction allegations, (Trustee’s Brief at 21–22),
and adds that the District Court erroneously concluded that
the CACEIS Complaint did not allege a New York choice of law
provision. (Id.at 22 n. 93.) The text in the CACEIS Complaint
spanned just nineteen pages. Judge Rakoff undoubtedly read
it, and his failure to mention the allegations relating to
personal jurisdiction implies that he deemed them to be
irrelevant to the issue of extraterritoriality.
In addition, the Trustee is wrong when he says that the

CACEIS Complaint alleged that the CACEIS subscription

agreements contained New York choice of law clauses and that
Judge Rakoff wrongly concluded that they did not. Rather, the
CACEIS Complaint alleged that subscription agreements that
the CACEIS defendants signed included a submission to New
York jurisdiction. (CACEIS Complaint ¶ 7 (“Upon information
and belief, the CACEIS Defendants entered, or caused their
agent to enter, into subscription agreements with Fairfield
Sentry under which they submitted to New York jurisdiction.
...”).) In fact, the Fairfield Sentry liquidators have sued the
CACEIS defendants in this Court to recover the same
subsequent transfers/redemptions under both New York and
BVI law, asserting personal jurisdiction, inter alia, under
subscription agreements that include a provision containing a
submission to jurisdiction in New York without mentioning
that New York law governs. See Fairfield Sentry Ltd. (In
Liquidation) v. CACEIS Bank Luxembourg, Adv. Pro. No. 10–
03624 (SMB) (Bankr. S.D.N.Y.) (ECF Adv. Pro. No. 10–03624
Doc. # 31, at ¶ 21); Fairfield Sentry Ltd. (In Liquidation) v.
CACEIS Bank EX IXIS IS, Adv. Pro. No. 10–03871 (SMB)
(Bankr. S.D.N.Y.) (ECF Adv. Pro. No. 10–03871 Doc. # 22, at
¶ 21). Finally, the reference to the absence of a New York
choice of law provision and creditor expectations appeared in
the portion of the ET Decision addressing comity, not
extraterritoriality. ET Decision, 513 B.R. at 232.

95a
allegation that “the CACEIS Defendants are part of
the CACEIS Group, which maintains an office in
New York City.”
Rather, it appears that the District Court was
concerned with where the parties conducted their
operations.
Its conclusion that the CACEIS
defendants were foreign was based on the fact that
they were organized and “operating” in foreign
countries. ET Decision, 513 B.R. at 225. On the
other hand, several of the feeder funds involved in
these cases were organized in one country but
maintained no operations or office other than a post
office box in their home country, did not employ
anyone in the home country, and were organized as
exempt companies that could not solicit investors in
their own countries. Instead, they were run from
another location, often New York, by the employees
of affiliated entities, and identified the affiliate’s
address as their own when conducting business. In
addition, one subsequent transferor, Fairfield
Greenwich Limited (Cayman), was registered to do
business in New York. Where the Trustee alleges
non-conclusory facts to the effect that the
subsequent transferor and Subsequent Transferee
conducted their principal and only operations in the
United States and maintained their bank accounts
in the United States, it is plausible to infer that the
subsequent transfer occurred domestically.
This brings me to the critical factor—where the
transfer occurred. Judge Rakoff’s reference to where
the parties resided was secondary. While the
U.S. citizenship or residency of the parties may

96a
support the inference that the transaction is
domestic, the focus is the location of the transfer and
not the location of the parties to the transfer; and a
transfer from one foreign account to another foreign
account is still a foreign transfer. See Absolute, 677
F.3d at 69 (“While it may be more likely for domestic
transactions to involve parties residing in the
United States, ‘[a] purchaser’s citizenship or
residency does not affect where a transaction occurs;
a foreign resident can make a purchase within the
United States, and a United States resident can
make a purchase outside the United States.’”)
(quoting Plumbers’ Union Local No. 12 Pension
Fund v. Swiss Reins. Co., 753 F. Supp. 2d 166, 178
(S.D.N.Y.2010)). Furthermore, a mere allegation
that the transaction “took place in the United
States” is insufficient to allege a domestic
transaction, “[a]bsent factual allegations suggesting
that the Funds became irrevocably bound within the
United States or that title was transferred within
the United States, including, but not limited to, facts
concerning the formation of the contracts, the
placement of purchase orders, the passing of title, or
the exchange of money.” Id. at 70 (emphasis added).
In addition, it is necessary to distinguish
between the transfer and the steps necessary to
carry it out. In Loginovskaya v. Batrachenko, 764
F.3d 266 (2d Cir. 2014), decided after the ET
Decision, the Court dealt with the extraterritorial
application of § 22 of the Commodity Exchange Act
(“CEA”). There, the plaintiff was a Russian citizen
and resident; the defendant was a U.S. citizen
residing in Moscow, and the CEO of the Thor Group,

97a
an international financial services group based in
New York that managed investment programs
chiefly in commodities futures and real estate.
Investors would invest in Thor United which, in
turn, was supposed to invest in one of the Thor
programs. The defendant induced the plaintiff to
invest in the Thor program, she transferred
$720,000 to Thor United’s bank accounts in New
York, but eventually lost her investment. Id. at 268–
69.
The plaintiff sued the defendant alleging that he
had engaged in fraudulent conduct in violation of
CEA § 40.18 Applying its holding in Absolute, the
Court explained that in order for the plaintiff to
rebut the presumption against extraterritoriality
and demonstrate that her investment was a
domestic transaction, she would have to show that
18

Section 40 states in pertinent part as follows:
(1) It shall be unlawful for a commodity trading
advisor, associated person of a commodity trading
advisor, commodity pool operator, or associated person
of a commodity pool operator, by use of the mails or any
means or instrumentality of interstate commerce,
directly or indirectly—
(A) to employ any device, scheme, or artifice to defraud
any client or participant or prospective client or
participant; or
(B) to engage in any transaction, practice, or course of
business which operates as a fraud or deceit upon any
client or participant or prospective client or
participant.

7 U.S.C. § 6o(1) (2008).

98a
“the transfer of title or the point of irrevocable
liability for such an interest occurred in the United
States.” Id. at 274. The plaintiff purchased an
interest in Thor United, and the investment
contracts with Thor United were negotiated and
signed in Russia. Id. Although Thor United was
incorporated in New York, “a party’s residency or
citizenship is irrelevant to the location of a given
transaction.” Id. (quoting Absolute, 677 F.3d at 70)
(internal quotation marks omitted). Furthermore,
although the plaintiff transferred her funds to Thor
United’s bank account in New York,
[t]hese transfers ... were actions needed to
carry out the transactions, and not the
transactions
themselves—which
were
previously entered into when the contracts
were executed in Russia. The direction to
wire transfer money to the United States is
insufficient to demonstrate a domestic
transaction.

Id. at 275.
The ET Decision imposed additional limitations
on the Trustee’s ability to allege a domestic transfer.
First, a transfer to a correspondent bank located in
the United States is not a domestic transfer for
purposes of extraterritoriality.
ET Decision,
513 B.R. at 228 n. 1. “Correspondent accounts are
accounts in domestic banks held in the name of
foreign financial institutions. Typically, foreign
banks are unable to maintain branch offices in the
United States and therefore maintain an account at
a United States bank to effect dollar transactions.”

99a

Licci v. Lebanese Canadian Bank, SAL, 673 F.3d 50,

56 n. 3 (2d Cir.2012) (citations and internal
quotation marks omitted), certifying questions to
984 N.E.2d 893 (N.Y. 2012). In this way, the use of
a correspondent bank facilitates the transfer of
dollar-denominated payments to a foreign country.
The District Court’s pronouncement reflects the
view that although the purposeful use of a
correspondent bank account may support personal
jurisdiction, Official Comm. of Unsecured Creditors
v. Bahrain Islamic Bank, 549 B.R. 56, 68 (S.D.N.Y.
2016), the routing of transfer to a U.S. bank account
to facilitate the transfer to a foreign bank account is
not a domestic transaction for extraterritoriality
purposes. See Cendeño v. Intech Grp., Inc., 733 F.
Supp. 2d 471, 472 (S.D.N.Y. 2010) (concluding that
RICO did not apply extraterritorially where the
scheme’s contacts with the United States were
limited to the movement of funds into and out of
U.S. based bank accounts), aff’d, 457 Fed.Appx. 35
(2d Cir. 2012); Maxwell I, 186 B.R. at 817 n. 5
(debtor’s payment of overdraft debt owed to U.K.
bank, routed through the creditor’s U.S. account and
immediately credited to the U.K. overdraft, was not
a domestic transfer).19
19

The Court is bound to apply the District Court’s ruling on
the use of a correspondent bank account. Nevertheless, if title
to the cash passed to the Subsequent Transferee when it
reached a U.S. correspondent bank account, and the
Subsequent Transferee was then free to use the money as it
saw fit, the transfer occurred domestically under the Second
Circuit case law discussed earlier. Moreover, the transferee
may have made
subsequent
transfers from the

100a
Second, the ET Decision implies that an
otherwise extraterritorial subsequent transfer
beyond the reach of § 550(a)(2) cannot be drawn back
as the result of a later, subsequent transfer of the
funds to the United States. The Trustee had argued
before the District Court that the policy of § 550(a)
would be undermined if a U.S. debtor could
intentionally transfer its money offshore and
retransfer it to the United States to avoid the reach
of the Bankruptcy Code. ET Decision, 513 B.R. at
231. Judge Rakoff rejected the policy argument,
stating that in such a circumstance, “the Trustee
here may be able to utilize the laws of the countries
where such transfers occurred to avoid such an
evasion while at the same time avoiding
international discord.” Id. The statement suggests
that once funds have been transferred beyond the
territorial reach of the recovery provisions under
Bankruptcy Code § 550(a)(2), the re-transfer of
those funds back to the United States cannot be
recovered as a subsequent transfer under the
Bankruptcy Code.
Third, the District Court did not adopt Maxwell
I’s “component events” test, at least as the Trustee
reads it. Trustee advocates for an expanded test to
determine that a transfer is domestic, including the
following “component events” he derives from
Maxwell I:

U.S. correspondent bank account to other domestic
transferees, and consequently, the funds may never have left
the United States.

101a
(i) the debtor’s location; (ii) the defendants’
location; (iii) where the defendants engaged
in business regarding the transaction;
(iv) what transaction and agreements the
parties entered into that led to the debt that
the transfers were used to pay; (v) where the
parties’ relationship was centered when
conducting the transaction underlying the
debt that triggered the transfers; (vi) the law
governing the parties’ transactions; and
(vii) how the transaction was concluded.
(Trustee Brief at 18.)20 Initially, the continuing
relevance of certain “component events” that the
Trustee culls from Maxwell I is open to question.
Maxwell I was decided when the “conduct” and
“effect” tests were controlling law in this Circuit, and
several of the “component events” identified by the
Trustee refer to where conduct “relating to” the
20

I do not adopt the Trustee’s characterization of the
“component events” identified by the Maxwell I Court. Ruling
that the transfers were extraterritorial, the Maxwell I Court
observed that the debtor’s and the transferee banks’
relationship was centered in England, the transfers satisfied
antecedent debts that arose in England, and the debtor repaid
the debts by transferring the funds to the U.K. Maxwell I, 186
B.R. at 817. The U.S. sale that was the source of the funds was
also a component event, but was “more appropriately
characterized as a preparatory step to the transfers,” and was
“insufficient—in light of the absence of any other domestic
connection—to characterize the transfers as occurring within
the borders of the U.S.” Id. Notably, the District Court focused
on the location of the recipients. The debtor-transferor was an
English holding company but its United States affiliates
accounted for most of the debtor’s asset pool. See id. at 812.

102a
transfer occurred rather than where the transfer
itself occurred. These include “where the defendants
engaged in business regarding the transaction” and
“where the parties’ relationship was centered when
conducting the transaction underlying the debt that
triggered the transfers.” (Trustee’s Brief at 18.)
Morrison subsequently abrogated the “conduct” and
“effects” tests because they led to unpredictable
results, Morrison, 561 U.S. at 256, 261; accord
Loginovskaya, 764 F.3d at 274 n. 9 (stating that
Morrison dispensed with the “conduct and effects”
test), and the Trustee’s conduct-related “component
events” call for the type of analysis that Morrison
rejected.
Similarly, the Maxwell I Court distinguished
certain conduct as “preparatory” to the transfers.
Maxwell I, 186 B.R. at 817 (“Even assuming that the
transfers were initiated in the U.S. after the
U.S. assets were sold, this conduct is more
appropriately characterized as a preparatory step to
the transfers.”) (citing Gushi Bros. Co. v. Bank of
Guam, 28 F.3d 1535, 1538 (9th Cir.1994) (“[C]onduct
occurring within the United States which, standing
alone, is merely preparatory or incidental to the
proscribed conduct does not confer ... jurisdiction.”)).
The Morrison Court expressly criticized the
distinction between “merely preparatory” conduct in
the United States and conduct in the United States
that rendered the transaction domestic. Morrison,
561 F.2d at 258.
In truth, the conduct to which the Trustee points
was, at most, those “actions needed to carry out the

103a
transactions, and not the transactions themselves.”
Loginovskaya, 764 F.3d at 275.
2. The Nineteen Chart Factors
In furtherance of his argument that the
subsequent transfers in these cases were
predominately domestic, the Trustee’s submission
included the Chart that was required by the
Scheduling Order. (Trustee’s Brief, Ex. 2–A, 2–B.)
The Chart listed and explained nineteen factors he
argued were germane to the determination whether
to dismiss a complaint on extraterritoriality
grounds, and showed which factors applied to each
case. Many of the factors are patently irrelevant
under the criteria discussed in the ET Decision and
the Second Circuit cases discussed above. Some
relate to the selection of United States governing
law or venue in the agreements between the
subsequent transferor and transferee (Factors 2, 3).
These contract provisions have nothing to do with
where the parties exchanged the cash. And alleging
that a feeder fund paid a fee to a defendant
Subsequent Transferee using BLMIS customer
property, (Factor 14), is just another way of saying
the feeder fund transferred customer property, an
essential element of a subsequent transfer claim. It
says nothing about the domestic nature of the
transfer.
Other factors center on the Subsequent
Transferee’s knowledge that it was entrusting or
investing assets with a foreign feeder fund that
entrusted or invested the feeder fund’s assets with
BLMIS for the supposed purpose of investing in U.S.

104a
equity and Treasury securities in the United States.
(Factors 4–7.) Judge Rakoff considered the U.S.
origin of the initial transfer, and rejected it. ET
Decision, 513 B.R. at 228 (“Although the chain of
transfers originated with Madoff Securities in New
York, that fact is insufficient to make the recovery of
these otherwise thoroughly foreign subsequent
transfers into a domestic application of section
550(a).”). In addition, the CACEIS Complaint
alleged that the defendants had knowingly invested
with the New York-based BLMIS through the feeder
funds, but that allegation did not affect Judge
Rakoff’s conclusion that the subsequent transfers
were foreign. A Subsequent Transferee’s knowledge
that it was investing in a foreign feeder fund that it
knows will invest or entrust money with BLMIS
does not, without more, render the subsequent
redemption of that investment domestic.
Two other factors refer to fees received based on
BLMIS’ performance or fees for investing with a
feeder fund or soliciting others to invest in the fund.
(Factors 14, 15.) None of these factors or their
underlying allegations pertain to the factors on
which Judge Rakoff focused: the “foreignness” of the
parties and the location of the sending and receiving
bank accounts.
The Trustee also places significance on the fact
that some Subsequent Transferees filed customer
claims in the BLMIS liquidation. (Factor 17.) The
Subsequent Transfers have no relevance to the
customer claim. The customer’s net equity claim is
determined under the Net Investment Method

105a
approved by the Second Circuit in In re BLMIS, 654
F.3d 229 (2d Cir. 2011), cert. denied, 133 S. Ct. 24
(2012), and computes the difference between the
amount the customer deposited and the amount he
withdrew. The relevant withdrawals are the initial
transfers the customer received from BLMIS, not
the subsequent transfers a third-party received from
a BLMIS customer such as a feeder fund. If the
Subsequent Transferee was also a BLMIS investor,
the third party subsequent transfers are unrelated
to his net equity claim. If, on the other hand, the
Subsequent Transferee was not a BLMIS investor
and is asserting a BLMIS claim to recover his
investment in the feeder fund, the Trustee has
successfully argued that feeder fund investors were
not BLMIS customers under SIPA, and as discussed
above in the comity section of this opinion, do not
have allowable net equity claims for that reason.
Finally, many of the factors relied on by the
Trustee touch on the actions by the Subsequent
Transferee in its own right or through a U.S. affiliate
or U.S. service provider relating to its investment in
the feeder fund and BLMIS.
These include
allegations that the Subsequent Transferee
conducted due diligence in the United States, or
used U.S. affiliates or U.S. agents for this and other
purposes, in connection with the transfers or
transactions at issue. (Factors 8–11.) Other factors
relate more generally to a relationship between the
feeder fund and the Subsequent Transferee. These
include allegations that the parties “had significant
U.S. connections by virtue of the Defendant’s
communications with specific Feeder Fund offices,

106a
sales representatives, agents, employees, and/or
other representatives located in the U.S,” (Factor
13), or the Subsequent Transferee “participated in
Feeder Fund management, and/or is an entity
created by, or for the benefit of, Feeder Fund
management.” (Factor 16.)
The proffers discussed below rely heavily on
these U.S. connections and include allegations that
the U.S. agents or U.S. affiliates dominated and
controlled the Subsequent Transferee, and actually
conducted its operations. The Trustee cites SEC v.
Gruss, No. 11 Civ. 2420, 2012 WL 3306166 (S.D.N.Y.
Aug. 13, 2012) (“Gruss II”) for support. (See, e.g.,

Trustee’s Supplemental Memorandum of Law in
Opposition to the Motion to Dismiss Based on
Extraterritoriality Filed by Natixis S.A., Bloom
Asset Holdings Fund, and Tensyr Limited, and in
Further Support of Trustee’s Motion for Leave to
Amend, dated June 26, 2015, at 11 n. 9 (stating that
the Gruss court found that “issues of fact existed

regarding whether an offshore fund was “foreign” for
purposes of extraterritoriality where complaint
alleged that operational and investment decisions
for the offshore fund were made in New York, ‘such
that for all intents and purposes, the [offshore fund]
was based in New York.’”) ECF Adv. Pro. No. 10–
05353 Doc. # 101).) Gruss, however, undercuts
rather than supports the Trustee.
In Gruss, the defendant was the chief financial
officer of DBZCO which managed several, separate
hedge funds, including the Onshore Fund and the
Offshore Fund, the latter a Cayman Islands fund.

107a

SEC v. Gruss, 859 F. Supp.2d 653, 655 (S.D.N.Y.
2012) (“Gruss I”). The defendant transferred money

without authority from the Offshore Fund to the
Onshore Fund. The transfers typically occurred
between U.S. bank accounts and often involved a
transfer to a U.S. entity. Id. at 656. The SEC
brought an enforcement action against the
defendant alleging that the unauthorized transfers
violated the Investment Advisers Act (“IAA”).

The defendant moved to dismiss arguing, among
other things, that the complaint was barred by the
presumption against extraterritoriality.
The
District Court disagreed. It distinguished the SEC
action under the IAA from the private law suit under
the Exchange Act in Morrison, and concluded that
Morrison did not apply. In support of its conclusion,
the District Court cited section 929P(b) of the Dodd–
Frank Wall Street Reform and Consumer Protection
Act, Pub. L. No. 111–203, 124 Stat. 1376 (2010).
Section 929P(b), enacted after Morrison, which
allows the SEC and U.S. Government to bring
certain enforcement actions based on conduct in the
United States or conduct outside the United States
that has a “foreseeable substantial effect within the
United States.” Id. at 664 & n. 4.21 The District
21

Section 929P(b) amended the Securities Act of 1933, the
Exchange Act and the IAA by granting the district court
jurisdiction over actions or proceedings brought by the SEC or
the United States involving “(1) conduct within the United
States that constitutes significant steps in furtherance of the
violation, even if the securities transaction occurs outside the
United States and involves only foreign investors; or (2)
conduct occurring outside the United States that has a

108a
Court speculated that section 929P(b) restored the
“conduct and effects test” for actions brought by the
SEC or the Department of Justice. Id. at 664 n. 4.
The District Court next concluded that even if
Morrison applied, the SEC had rebutted the
presumption against extraterritoriality because the
transactions were domestic.
The majority of
Offshore Fund investors affected by the
unauthorized transfers were located in the United
States and the investors in both funds were
impacted by the fraud. Id. at 665. Moreover, the
inter-fund transfers occurred domestically between
U.S. bank accounts. Id. at 665–66.
The District Court then returned to the “conduct
and effects test:” “the Complaint alleges other
relevant facts that would have been dispositive
under the conduct and effects test, which may have
been revived with Section 929P(b) of the Dodd–
Frank Act.” Id. at 666. These allegations included
New York-based DBZCO’s activities relating to and
control of the Offshore Fund. It made all operational
and
investment
decisions,
monitored
its
performance and compliance with all regulatory
requirements, negotiated the terms of its contracts,
retained and borrowed money on its behalf,
foreseeable substantial effect within the United States.” In

Parkcentral Global Hub Ltd. v. Porsche Automobile Holdings
SE, 763 F.3d 198 (2d Cir. 2014), the Court of Appeals
questioned the import of the post-Morrison amendment.
Morrison made clear that the already district court had subject
matter jurisdiction even if the presumption against
extraterritoriality meant it could not reach the merits. Id. at
211 n 11.

109a
distributed offering and subscription documents to
potential investors and listed the Offshore Fund’s
address in care of DBZCO at DBZCO’s New York
address. In addition, accounting services for the
Offshore Fund’s investment and other activities
were performed primarily in New York, DBZCO’s
investor relations personnel distributed financial
and performance information to individual
investors, and the Offshore Fund’s cash was held at
and paid from U.S. bank and brokerage accounts.

Id.

The Complaint also included allegations quoting
or paraphrasing statements in the offering
memoranda and financial statements that showed a
relationship between U.S.-based securities and the
Offshore Fund’s investors and investments. For
example, the securities were marketed “to permitted
U.S. persons ... [and] to accredited investors and
qualified purchasers, as defined by the U.S.
securities laws,” the investment objectives included
investing in U.S. securities, and investors would be
required to pay certain U.S. taxes for dividend
income and certain other interest from domestic
investments, the auditors of the Offshore Fund were
located in New York, investors were instructed to
wire their subscription payments to a Citibank
account in New York and DBZCO would send
shareholders
quarterly
unaudited
financial
information from DBZCO.
Id. The U.S.-based
control, connections and decision-making cited by
the District Court read like the Trustee’s playbook;
the same allegations permeate the Trustee’s
proffers.

110a
Following the denial of the motion to dismiss, the
defendant sought to certify an appeal to the Court of
Appeals, arguing, inter alia, that the issue for
certification presented a controlling question of law
regarding extraterritoriality. The District Court
denied the motion in Gruss II, observing that the
controlling question was not purely legal and
involved factual questions under the “conducts and
effects” test. “For example, while the Offshore
Fund’s Offering Memoranda stated that it was a
foreign entity governed by foreign law, the
Complaint alleges that the actual ‘operational and
investment decisions for the Offshore Fund were all
made ... in DBZCO’s New York office such that for
all intents and purposes, the Offshore Fund was
based in New York.’ ” Gruss II, 2012 WL 3306166, at
*3. This holding is the portion of the Gruss II
decision cited by the Trustee to support his
contention that the location of the U.S-based
management and control are relevant to the
question of extraterritoriality.
The Trustee’s reliance ignores that the District
Court’s discussion related to the “conduct and
effects” test that, it speculated, had been restored
when the SEC or the Government brought the
action. As far as the Trustee’s subsequent transfer
claims are concerned, the “conduct and effects test”
was abrogated by Morrison, and he cannot rely on
the allegations in Gruss that the District Court
highlighted as relevant to the extraterritoriality
issues raised in that case. While the control or the
management of a foreign transferor or transferee by
a U.S. affiliate may support the inference that the

111a
entity resides in the United States in the limited
circumstances discussed earlier, that conduct
relating to the transfer occurred in the United States
or occurred outside the United States with
foreseeable U.S. effects is irrelevant to the
extraterritorial analysis.
In the end, the ET Decision identifies only four
possibly relevant facts to consider in determining
whether the Trustee has rebutted the presumption
against extraterritoriality: (i) the location of the
account from which the transfer was made, (ii) the
location of the account to which the transfer was
made, (iii) the location or residence of the
subsequent transferor and (iv) the location or
residence of the Subsequent Transferee. The single
most important factor in determining whether the
presumption against extraterritoriality has been
rebutted is obvious; where did the subsequent
transfer—the exchange of cash and passage of
title—occur.22 If the subsequent transfer occurred
domestically—from a U.S. account to a U.S. account
(excluding a correspondent account)—it is a
domestic subsequent transfer. As the Second Circuit
explained in Absolute, foreign entities can engage in
domestic transfers.
Conversely, a foreign
subsequent transfer between domestic entities is
still a foreign subsequent transfer. In addition,
22

The Trustee did not include a factor addressing where the
Subsequent Transferor became irrevocably bound to make the
transfer to the Subsequent Transferee, presumably because
the District Court focused exclusively on the location of the
transfer.

112a
where the situs of the subsequent transfer is not
alleged, but the Trustee alleges that it occurred
between U.S. residents, the ET Decision permits the
Court to infer that the subsequent transfer was
domestic.
Finally, I conclude that a transfer by a U.S.
resident from a U.S. account even to a foreign
transferee rebuts the presumption against
extraterritoriality. The ET Decision did not address
this possibility. This type of transfer is analogous to
the initial transfers by BLMIS to foreign feeder
funds. It is true that BLMIS was a U.S. citizen and
made initial rather than subsequent transfers, but
BLMIS’ U.S. citizenship and the subsequent
transferor’s U.S. residence are analytically the
same. No one has suggested that BLMIS’ recovery
of an avoided transfer from an initial transferee
foreign feeder fund is barred by the presumption
against extraterritoriality, and there is no reason to
treat subsequent transfers by a U.S. resident from a
U.S. bank account differently.
The relevant Chart factors are, therefore, few.
Only one factor in the Chart, Factor 12, purports to
identify instances in which the “Defendant utilized
U.S. bank account to receive transfers (includes
correspondent accounts maintained by Defendants
in their own name at U.S. banks).” As noted, the
District Court rejected the notion that the transfer
using a U.S. correspondent account made the
transfer domestic, and I am bound by that
conclusion.
The Chart does not include a
corresponding factor that the subsequent transferor

113a
used a U.S. bank account in connection with the
transfer, but the Trustee’s proffers include
numerous allegations to that effect. Two others
touch on the location or residence of the transferor
and the Subsequent Transferee. Factor 1 purports
to identify the transferors that maintained their
principal operations in the United States,
suggesting that the United States was their
principal place of business. Factor 19 corresponds to
those transferees that the Trustee asserts
maintained a U.S. office utilized in connection with
the transfer.
Finally, Factor 18 identifies
U.S. citizens that received subsequent transfers.
3. The Disposition of the Motions to Dismiss and
Leave to Amend
A substantial number of the Subsequent
Transfer claims that were not dismissed on the
ground of comity are subject to dismissal based on
extraterritoriality and require scant comment. They
do not include allegations that the Subsequent
Transferee used a U.S. bank in connection with the
transactions,23 that the transferor maintained its
principal operations in the United States, that the
transferee is a U.S. citizen or that the transferee
maintained a U.S. office utilized in connection with
the transfer. The following subsequent transfer

23

Although the Chart indicates in some cases that the
defendant used a U.S. bank account in connection with the
transaction, the relevant proffer or pleading does not allege
that the subsequent transfer was made to a U.S. account.

114a
claims are dismissed
extraterritoriality:

on

this

basis

Table 4
A..P.
No.

Defendant–
–
Transferee

Transferor

09–
01364

Thema Fund
Ltd.

Thema Wise
Investments

09–
01364

HSBC
Securities
Services
(Luxembourg)
S.A.

Alpha Prime Fund
Ltd. (Bermuda);
Hermes
International Fund
(BVI); Lagoon
Investment Ltd.
(BVI); Thema Fund
Ltd. (BVI); Lagoon
Investment Trust
(BVI); Thema Wise
Investments (BVI)

09–
01364

HSBC
Institutional
Trust
Services
(Ireland) Ltd.

Thema
International
(Ireland)

09–
01364

HSBC
Securities
Services
(Ireland) Ltd.

Thema
International Fund
(Ireland)

of

115a
09–
01364

HSBC
Institutional
Trust
Services
(Bermuda)
Limited

Alpha Prime Fund
Ltd. (Bermuda);
Hermes
International Fund
(BVI); Thema Fund
Ltd. (BVI); Thema
Wise Investments
(BVI); Lagoon
Investment
Limited (BVI)

09–
01364

HSBC
Securities
Services
(Bermuda)
Limited

Alpha Prime Fund
Ltd. (Bermuda);
Thema Fund Ltd.
(BVI); Thema Wise
Investments (BVI);
Lagoon Investment
Limited (BVI);
Hermes
International Fund
(BVI);

09–
01364

HSBC Fund
Services
(Luxembourg)
S.A.

Hermes
International Fund
Ltd. (BVI)

116a
09–
01364

HSBC Bank
Bermuda
Limited

Alpha Prime Fund
Ltd. (Bermuda);
Hermes
International Fund
(BVI); Thema Fund
Ltd. (BVI); Thema
Wise Investments
(BVI); Lagoon
Investment
Limited (BVI)

09–
01364

Hermes
International
Fund Limited

Lagoon Investment
Ltd. (BVI)

09–
01364

Lagoon
Investment
Trust

Lagoon Investment
Ltd. (BVI)

09–
01364

Equus Asset
Mgmt. Ltd

Thema Fund Ltd.
(BVI); Thema
International
(Ireland); Thema
Wise Investments
(BVI)

09–
01364

Hermes Asset
Management
Limited

Hermes
International Fund
(BVI); Lagoon
Investment Ltd.
(BVI); Lagoon
Investment Trust
(BVI)

117a
09–
01364

Thema Asset
Mgmt.
(Bermuda)

Thema Fund Ltd.
(BVI); Thema Wise
Investments (BVI)

09–
01364

Thema Asset
Management
Limited (BVI)

Thema
International
(Ireland)

10–
04285

UBS Third
Party
Management
Company SA

Luxalpha SICAV
(Lux.)

10–
04285

Access
International
Advisors Ltd.

Groupement
Financier Ltd.
(BVI); Luxalpha
SICAV (Lux.)

10–
04285

Access
Management
Luxembourg
SA (f/k/a
Access
International
Advisors
(Luxembourg)
SA) as
Represented
by its
Liquidator
Maitre
Fernand
Entringer

Groupement
Financier Ltd.
(BVI); Luxalpha
SICAV (Lux.)

118a
10–
04285

Access
Partners SA
as
represented
by its
Liquidator
Maitre
Fernand
Entringer

Groupement
Financier Ltd.
(BVI); Luxalpha
SICAV (Lux.)

10–
05120

Inter
Investisseme
nts S.A. (f/k/a
Inter Conseil
S.A.)

Oreades SICAV
(Lux.)

10–
05311

M&B
Capital
Advisers
Sociedad de
Valores, S.A.

Landmark
Investment Fund
Ireland (Ireland);
Luxembourg
Investment Fund
U.S. Equity Plus
(Lux)

10–
05311

Reliance
Management
(Gibraltar)Li
mited

Luxembourg
Investment Fund
U.S. Equity Plus
(Lux.)

10–
05311

UBS Third
Party
Management
Company SA

Luxembourg
Investment Fund
U.S. Equity Plus
(Lux.)

119a
a. Picard v. UBS AG, Adv. Pro. No. 10–04285
The Chart identifies the following remaining
subsequent transfer claims in this adversary
proceeding:
Table 5
A.P.
No.

Defendant–
–
Transferee

Transferor

10–
04285

UBS AG

Luxalpha SICAV
(Lux.);
Groupement
Financier Ltd.
(BVI)

10–
04285

UBS
Groupement
(Luxembourg) SA Financier Ltd.
(BVI); Luxalpha
SICAV (Lux.)

10–
04285

UBS Fund
Groupement
Services
Financier Ltd.
(Luxembourg) SA (BVI); Luxalpha
SICAV (Lux.)

10–
04285

Patrick Littaye

Groupement
Financier Ltd.
(BVI); Luxalpha
SICAV (Lux.)

10–
04285

Pierre
Delandmeter

Groupement
Financier Ltd.
(BVI); Luxalpha
SICAV (Lux.)

120a
Luxalpha and Groupement Financier were
BLMIS feeder funds. (Proffered Second Amended
Complaint, dated June 26, 2015 at ¶ 2 (“UBS
Proffered SAC”) (ECF Adv. P. No. 10–04285 Doc.
# 210).) According to the Chart, the Trustee does not
contend that they maintained their principal
operations in the United States or were citizens of
the United States. (Factors, 1, 18.) Moreover, the
UBS Proffered SAC alleges that Luxalpha was a
Luxembourg fund, (UBS Proffered SAC at ¶ 55), and
Groupement Financier was a BVI investment fund.
(Id. at ¶ 61.) In addition, and with three exceptions
discussed below, the Chart also indicates that the
Subsequent Transferees did not use a U.S. office in
connection with the transfers. Hence, the transfers
took place between non-U.S. residents. To overcome
the presumption against extraterritoriality, the
Trustee must therefore allege facts showing that the
actual transfer of funds occurred domestically.
The UBS Proffered SAC says little about the
location of the subsequent transfers. It alleges that
“[r]edemptions in U.S. dollars for Groupement
Financier, Groupement Levered and Luxalpha were
also processed through UBS S.A.’s account at UBS
AG in Stamford, Connecticut,” (id. at ¶ 97), and
BLMIS sent Luxalpha redemption payments to UBS
SA’s account in Stamford, Connecticut and then to
Luxalpha’s bank account at UBS SA. (Id. at ¶ 173.)
The proffer does not explain what “processing” a
redemption means; either the redemptions were
paid from a U.S. account to a U.S. account or they
were not. Furthermore, where Luxalpha received its
redemption payments from BLMIS relates to the

121a
initial transfer, not the subsequent transfer. The
Trustee apparently assumes that if the feeder fund
received the redemption in a U.S. account, it must
have made the subsequent transfer from that
U.S. account. The Trustee does not, however, allege
that the subsequent transfers were made from the
Connecticut account or another U.S. account or
received in a U.S. account. Since the Trustee has
failed to allege that these subsequent transfers
between foreign entities was made domestically, he
has failed to rebut the presumption against
extraterritoriality and the claims are dismissed.
As to the exceptions, the Chart indicates that
UBS AG maintains a U.S. office “utilized in
connection with the transaction.”
The UBS
Proffered SAC alleges that “UBS AG is a Swiss
public company with registered and principal offices
at Bahnhofstrasse 45, CH–8001 Zurich, and
Aeschenvorstadt 1, CH–4051 Basel, Switzerland.
UBS AG is the parent company of the global UBS
bank, and is present in New York, with offices at 299
Park Avenue, New York, NY 10171 and 101 Park
Avenue, New York, NY 10178. It also conducts daily
business activities in Stamford, Connecticut and
other locations in the United States.” (Id. at ¶ 42.)
In essence, the Trustee alleges that UBS AG is a
foreign corporation doing business in New York
although he does not allege that it is registered to do
business in New York or anywhere else in the
United States. Furthermore, he does not allege that
any subsequent transfer occurred domestically, and
as the Subsequent Transferor was plainly foreign,

122a
he has failed to overcome the presumption that these
transfers were extraterritorial.
The last two defendant Subsequent Transferees
identified on the Chart are Pierre Delandmeter and
Patrick Littaye. The UBS Proffered SAC alleges
that Delandmeter is a citizen of Belgium, (id. at ¶
53), a director of defendants Access Management
Luxembourg S.A. and Access Partners S.A., each of
which is a Luxembourg limited liability company (id.
at ¶¶ 48, 49), and a director of non-party Access
International Advisors Inc. ( “AIA Inc.”), a New York
corporation. (Id. at ¶ 50.) He was also a “Legal
Advisor” to Groupement and Groupement Levered,
both foreign funds, and a “Director and Legal
Advisor” to Luxalpha, a Luxembourg fund. (See id.
at ¶¶ 53, 55.) The Trustee alleges that Delandmeter
received legal fees from Luxalpha and Groupement,
(id. at ¶ 292), and “upon information and belief,” also
received subsequent transfers from subsequent
transferees AIA Ltd., AIA LLC, AP (Lux), and AML
(f/k/a AIA (Lux)). (Id. at ¶ 292.)
The UBS Proffered SAC alleges Littaye is “a
citizen of France,” (id. at ¶ 50), but the parties have
stipulated that he is located in Belgium.
(Scheduling Order, Ex. 2, at 4.) Littaye was a
co-founder, Partner, Chairman, and Chief Executive
Officer and co-owner of AIA LLC, a director of
Luxalpha and Groupement and Groupement
Levered and co-owner of AIA Ltd., AML and Access
Partners. (UBS Proffered SAC at ¶ 50.) According
to the Trustee, Littaye “received millions of dollars
of Subsequent Transfers, in an amount to be proven

123a
at trial,” “[a] significant amount of the Subsequent
Transfers received by AIA Ltd., AIA LLC, AP (Lux),
and AML (f/k/a AIA (Lux)) were subsequently
transferred to Littaye ... either directly or indirectly,
in the form of distributions, payments, or other
transfers of value,” and “upon information and
belief,” Littaye received at least $6.5 million in
compensation “from bank accounts controlled by
Access’s New York office.” (Id. at ¶ 291.)
As with the case of the other subsequent
transfers, the UBS Proffered SAC does not allege the
location of the transferor or transferee accounts or
that the subsequent transfers occurred domestically.
Consequently, all of the Subsequent Transfer
claims appearing on the Chart that relate to this
adversary proceeding are dismissed.
b. Tremont and the Rye Funds
Tremont operated a group of BLMIS feeder funds
all of which had some variation of a name that
included “Rye Select Broad Market” (collectively, the
“Rye Funds”). Certain Rye Funds that included
“Portfolio” in their names—Rye Select Broad Market
Portfolio Limited (“Rye Portfolio”), Rye Select Broad
Market XL Portfolio Limited (“Rye XL Portfolio”)
and Rye Select Broad Market Insurance Portfolio
LDC (“Rye Insurance Portfolio”)—were registered in
the Cayman Islands, and are sometimes collectively
referred to as the “Rye Cayman Funds.” Three other
Rye funds—Rye Select Broad Market Fund L.P.
(“Rye Broad Market”), Rye Select Broad Market XL
Fund L.P. (“Rye XL”) and Rye Select Broad Market
Prime Fund L.P. (“Rye Prime Fund”)—were formed

124a
in Delaware, and are sometimes collectively referred
to as the “Rye Delaware Funds,” and with the Rye
Cayman Funds, the “Rye Funds.” (See Proffered
Second Amended Complaint, dated June 26, 2015
(“HSBC Proffered SAC”) at ¶¶ 388–90 (ECF Adv. P.
No. 09–01364 Doc. # 399).)
The Rye Cayman Funds exemplify feeder funds
organized under foreign law that had no connection,
from an operational standpoint, with their country
of organization.
Several proffered pleadings
submitted by the Trustee discuss their principal
places of operations. The HSBC Proffered SAC is
typical. According to the Trustee, the Rye Funds
were managed from and maintained their principal
places of business and headquarters in Rye, New
York. (Id. at ¶ 392.) Tremont’s New York employees,
among other things, conducted the Rye Funds’
marketing, operations, diligence, and their
communications with investors, (id. at ¶ 393), and
served on their boards. (Id. at ¶ 395.) The Rye
Cayman Funds had “registered offices” in the
Cayman Islands, but had no operating offices or
operations there, (id. at ¶ 392), and as “exempted”
companies, could not solicit or accept investments
from Cayman Island investors. (Id. at ¶ 394.)
Finally, Rye Funds maintained their accounts at the
Bank of New York where they received subscriptions
and from which they paid redemptions. (See id. at ¶
396; see also Trustee’s Proffered Allegations

Pertaining to the Extraterritoriality Issue as to
Mistral (SPC), dated June 26, 2015 (“Mistral
Proffer”), at ¶ 46 (alleging that beginning in the fall

of 2006 if not earlier, Tremont closed the Rye

125a
Cayman Funds’ Bermuda-based bank accounts, and
thereafter made every redemption payment from the
fund’s New York-based accounts at the Bank of New
York) (ECF Adv. Pro. No. 12–01273 Doc. # 57).)
The Rye Cayman Funds had to operate from
somewhere if not the Cayman Islands. Although the
Trustee does not allege that the Rye Cayman Funds
were registered to do business in New York, the
Court concludes that the Trustee has adequately
alleged that they maintained their principal and
only operations in New York and that they therefore
resided in New York. In addition, they made the
subsequent transfers at issue at least since the fall
of 2006 if not earlier from an account located in New
York.
Furthermore, and with certain exceptions
discussed in footnotes 27 and 32, the proffers allege
that the subsequent transfers were received in a
U.S.-based bank account or support the inference
that they were received in a U.S.-based account
based
on
the
provisions
of
the
subscription/redemption agreements requiring that
redemptions be paid to a U.S.-account.
The
following table summarizes the latter group of
transfers:

126a
Table 6
A.P. No.

Transferee

ECF
Doc. No.
of
Proffer

Proffer
Reference

09–0136424

HSBC
Bank plc

399

¶ 42125

24

According to the Chart, this adversary proceeding also
involves a subsequent transfer from Thema International
Fund plc (“Thema”) to HSBC Bank plc. Although the Chart
indicates that Thema International maintained its principal
operations in the United States, Thema International is an
Irish entity, (HSBC Proffered SAC at ¶ 64), and I have been
unable to locate a factual allegation in the 141–page HSBC
Proffered SAC that Thema International maintained its
principal operations in New York. Furthermore, the Chart does
not indicate that HSBC Bank plc used a U.S. office in
connection with the transaction. Accordingly, the subsequent
transferor and Subsequent Transferee are foreign entities that
did not reside in the United States. According to the HSBC
Proffered SAC, following a redemption request, Thema
received $14,094,388.97 in a N.Y.-based HSBC Bank USA
account for the benefit of HSBC Bank plc, ( id. at ¶¶ 540–41),
and subsequently transferred the same amount to HSBC plc.
(Id. at ¶¶ 542–43.) It is not entirely clear whether the HSBC
Proffered SAC is alleging that HSBC Bank plc was BLMIS’
initial transferee with Thema acting as its agent, or Thema’s
subsequent transferee. If the latter, the Trustee has failed to
rebut the presumption against extraterritoriality and the claim
is dismissed. Although the HSBC Proffered SAC implies that
Thema made the subsequent transfer from a N.Y.-based
custodial account, it does not identify the location of the
transferee account. Thus, the only U.S. connection is the source
of the subsequent transfer, and this is insufficient based on the

127a
10–05120

BNP
Paribas
Securities
Services,
S.A.

73

¶ 9226

criteria discussed earlier.
The Chart also lists two transfers from BLMIS to Thema
International and Lagoon Investment. These appear to be
initial transfers, not Subsequent Transfers, and are beyond the
scope of the ET Decision, which interpreted 11 U.S.C.
§ 550(a)(2)
25

Paragraph 421 states in relevant part: “HSBC Bank plc
received at least $53,000,000 from Rye XL Portfolio to HSBC
Bank plc’s account at HSBC Bank USA.”
26

Paragraph 92, which applies to all of the BNP entities listed
in the table, states in relevant part: “Defendants executed
subscription agreements for investments in the Tremont
Funds that were domestic in nature..... [T]he subscription
agreements requested that Tremont direct redemptions to
BNP’s bank account in New York.”

128a
12–01576

BNP
Paribas
Securities
Services,
S.A.; BNP
Paribas
Bank &
Trust
Cayman
Ltd.; BNP
Paribas
Arbitrage
SNC

10–05354

ABN
101
AMRO
BANK
N.V., p/k/a
Royal Bank
of Scotland,
N.V.

¶¶ 65–6928

12–01273

Mistral
(SPC)

¶¶ 18–1929

6427

57

¶ 92

27

Despite its listing in the Chart, the Complaint does not
allege that any Rye Cayman Fund made a subsequent transfer
to BNP Paribas Securities Services Succursale de Luxembourg,
and it is not mentioned in the Trustee’s Proffer. This defendant
was included in the motion to dismiss, and accordingly, any
claims arising from alleged subsequent transfers by a Rye
Cayman Fund to this BNP entity are dismissed.
In addition, Complaint alleges claims arising from subsequent
transfers by a Rye Cayman Fund to BNP Paribas Bank & Trust

129a

(Canada) (“BNP Canada”), a Canadian entity, which was also
included in the motion to dismiss but omitted from the
Trustee’s opposition and the Proffer. These subsequent
transfer claims are also dismissed.
28

Paragraphs 65–69 state in relevant part:
65. ABN/RBS instructed Tremont to make all transfers
in connection with the 2006 Transactions to
ABN/RBS’s bank account in New York. In the 2006
Swap Confirmation, ABN/RBS instructed Tremont to
make all payments to ABN/RBS via a bank account
that ABN/RBS held at its New York branch; ABN/RBS
received all payments from Rye Portfolio Limited XL in
its New York account. In connection with ABN/RBS’s
investment in Rye Portfolio Limited, Subscription
Agreements provided that redemption payments would
be made to ABN/RBS’s bank account at its New York
branch; ABN/RBS received all payments from Rye
Portfolio Limited in its New York account. Accordingly,
every one of the subsequent transfers at issue was sent
from the Tremont Funds’ bank accounts in New York
to ABN/RBS’s bank account in New York.
66. ABN/RBS maintained a bank account at its ABN
AMRO Bank NV New York Branch in New York, which
was a “resident of the United States” according to its
July 2008 USA Patriot Act Certification. ABN/RBS
designated that account ... in the 2006 Transactions to
receive both collateral and redemption payments—the
subsequent transfers at issue—from the Tremont
Funds.
67. With respect to the 2006 Transactions, Rye
Portfolio Limited XL utilized its bank account at the
Bank of New York to transfer each of the collateral
payments at issue to ABN/RBS’s bank account at its
New York Branch.
68. Likewise, Rye Portfolio Limited utilized its account
at the Bank of New York to transfer each redemption

130a
12–01278

Zephyros
Limited

58

¶¶ 20–2130

payment to ABN/RBS at its New York bank account.
69. Similarly, with regard to the transfers sent and
received in connection with the 2007 Transactions,
ABN/RBS designated its bank account at its ABN
AMRO Bank NV New York Branch to receive both
collateral and redemption payments from the Tremont
Funds. Utilizing their bank accounts at the Bank of
New York, Rye Broad Market XL and Rye Broad
Market—the Tremont Funds involved with the 2007
Transactions—made transfers of collateral and
redemption payments to ABN/RBS’s bank account at
its New York Branch.
29

Paragraphs 18–19 state in relevant part: “New York or New
Jersey was the situs selected by Mistral for making and
receiving such transfers. Specifically, Mistral used a bank
account at the Northern Trust International Banking
Corporation in New York or New Jersey to effect such
payments (the “U.S. Account”).... With respect to Rye Portfolio
Limited, Mistral designated such use of this U.S. Account in
subscription and redemption documents....”
30

Paragraphs 20–21 state in relevant part: “The United States
was the situs selected by Zephyros for making and receiving
such transfers. Specifically, Zephyros used the bank account of
its U.S.-based administrator/custodian SEI at Wachovia
National Bank in the United States to effect such payments
(the “U.S. Account”).... Zephyros designated such use of the
U.S. Account in a Fairfield Sentry subscription agreement and
in Rye Portfolio Limited redemption documents ....”

131a
12–01698

RBC Dexia
Investor
Services
Trust

57

¶ 2831

12–01699

Guernroy
Limited32

54

¶¶ 28–2933

31

Paragraph 28 states: “Upon information and belief based on
the other RBC–Dexia entities’ designations of their own U.S.
bank account (by and large at Citibank in New York), RBC–
Dexia Trust similarly designated and received its redemptions
from Rye Portfolio Limited into a bank account in the United
States.”
32

The Chart includes the defendant Royal Bank of Canada
(Channel Islands) Limited (“RBC–CI”), and the Complaint, Ex.
N, alleges that Rye Portfolio subsequently transferred
$4,637,106 to “Guernroy or RBI–CI.” (See also Complaint,
dated June 6, 2012 at ¶ 86 (ECF Adv. P. No. 12–01699 Doc. #
1).) The Proffer alleges that the RBC–CI’s New York accounts
at Deutsche Bank and JP Morgan Chase Bank received
redemptions for other entities, ( Trustee’s Proffered Allegations

Pertaining to the Extraterritoriality Issue as to Royal Bank of
Canada, dated June 26, 2015 at ¶ 29(ECF Adv. P. No. 12–

01699 Doc. # 54)), but does not allege that RBC–CI received
any redemptions in its own name. The motion to dismiss
included claims alleging subsequent transfers from Rye
Portfolio to RBC–CI; these claims are dismissed and leave to
amend is denied.

33

Paragraphs 28–29 state in relevant part: “New York was the
situs repeatedly selected by Defendants for both receiving
redemptions and remitting subscriptions.... RBC–Guernroy
also used an account in RBC–CI’s name at JPMorgan Chase
Bank in New York to receive redemptions from ... Rye Portfolio
Limited....”

132a
Several of the Subsequent Transferees contend
that the Trustee failed to allege that the bank
accounts used to effect the subsequent transfers
were not correspondent accounts, and he therefore
failed to allege a domestic transaction.34 (See Reply

Memorandum in Further Support of the BNP
Paribas Defendants’ Motion to Dismiss Based on
Extraterritoriality, dated Sept. 30, 2015, at 2, 10, 25

34

After briefing, the Trustee apprised the Court of the decision
in Official Comm. of Unsecured Creditors of Arcapita, Bank
B.S.C. v. Bahrain Islamic Bank, 549 B.R. 56 (S.D.N.Y. 2016),
and implied that it undercut the ET Decision’s conclusion that
the use of a correspondent bank account did not support a
domestic transfer. (Letter from David J. Sheehan, Esq. to the
Court, dated Apr. 7, 2016 (ECF Doc. # 13051).) In Arcapita, the
Official Committee of Unsecured Creditors (the “Committee”)
brought a preference action, seeking to avoid and recover
preferential transfers that had been made to the defendants’
New York correspondent bank accounts. The defendants
moved to dismiss for lack of personal jurisdiction. The District
Court concluded that the use of New York correspondent
accounts supported the assertion of personal jurisdiction, id. at
68; accord Licci v. Lebanese Canadian Bank, SAL, 984 N.E.2d
893, 900 (N.Y. 2012), and added that “if preferential transfers
are found to have occurred, they occurred at the time the funds
were transferred into the New York correspondent bank
accounts.” Arcapita, 549 B.R. at 70.
As the Second Circuit indicated in Absolute, whether sufficient
contacts with the United States support the assertion of
personal jurisdiction is a different question from whether a
transaction is domestic for purposes of extraterritoriality. The
use of a U.S. correspondent bank account to process a
dollar-denominated transaction may confer personal
jurisdiction over the transferee but under the ET Decision, does
not render an otherwise foreign transfer domestic. Arcapita
does not modify the District Court’s conclusion.

133a
(ECF Adv. Pro. No. 10–04457 No. Doc. # 93).) The
ET Decision does not suggest that the Trustee must
allege the use of a non-correspondent bank account
to survive the dismissal of his subsequent transfer
claims. While the claims may not ultimately survive
for this reason, that must await future development
of the facts which go outside the record and cannot
be considered on this motion to dismiss pursuant to
Rule 12(b)(6) of the Federal Rules of Civil Procedure.
Accordingly, the motions to dismiss the claims
included in Table 6 are denied and leave to amend is
granted to the extent of these claims.
c. Fairfield Greenwich
Two of the adversary proceedings (Nos. 12–01701
and 12–01702) involve subsequent transfers by
Fairfield Greenwich (Bermuda) Ltd. (“Fairfield
Bermuda”) and Fairfield Greenwich Ltd. (Cayman
Islands) (“Fairfield Cayman”), both organized under
foreign law (Bermuda and the Cayman Islands,
respectively). They were part of FGG. They received
fees from FGG feeder funds, including Greenwich
Sentry, L.P., and Greenwich Sentry Partners, L.P.
(collectively, “Greenwich Sentry”) and Fairfield
Sentry, and distributed the fees to FGG partners.
(Trustee’s Proffered Allegations Pertaining to the

Extraterritoriality Issue as to Defendants SafeHand
Investments, Strongback Holdings Corporation, and
PF Trustees limited in its Capacity as Trustee of RD
Trust, dated June 26, 2015 (“SafeHand Proffer”), at
¶¶ 2–4 (ECF Adv. Proc. No. 12–01701 Doc. # 62); see
Proffered
Allegations
Pertaining
to
the
Extraterritoriality Issue as to Defendants Dove Hill

134a

Trust and FG Investors Ltd., dated June 26, 2015
(“Dove Hill Proffer”), at ¶¶ 3–5 (ECF Adv. Proc. No.

12–01702 Doc. # 61).) To the extent they received
fees from or originating with the Fairfield Sentry (or
Fairfield Lambda or Fairfield Sigma), the
subsequent transfer claims are barred under the
doctrine of comity. The balance of the discussion
concerns the transfers that originated with other
feeder funds, including Greenwich Sentry, that were
not the subject of foreign liquidation proceedings.35

Fairfield Cayman maintained its principal place
of business in New York, (SafeHand Proffer at ¶ 13;
Dove Hill Proffer at ¶¶ 4, 32), and “operated out of
FGG’s New York headquarters.” (SafeHand Proffer
at ¶ 3, accord id. at ¶ 6.) Although “formed under
foreign law, it reported its principal place of business
as FGG’s New York headquarters, registered to do
business in the State of New York, and listed its
principal executive office as FGG’s New York
headquarters,” (SafeHand Proffer at ¶ 40 (emphasis
added); accord (Dove Hill Proffer at ¶ 36; Fairfield
Proffered SAC ¶ 258))36, and never had employees or
an office in the Cayman Islands or in Ireland, where
35

The Greenwich Sentry entities were both Delaware limited
partnerships, and debtors in jointly administered chapter 11
proceedings in this Court. (See In re Greenwich Sentry, L.P.,
Case No. 10–16229 (SMB).)
36

Fairfield Proffered SAC refers to the Proffered Second
Amended Complaint, dated June 26, 2015 (ECF Adv. P. No.
09–1239 Doc. # 187). The allegations in the Fairfield Proffered
SAC are incorporated by reference in the SafeHand Proffer at
¶ 47 and the Dove Hill Proffer at ¶ 60.

135a
it was initially organized. (Dove Hill Proffer at 36.)
Fairfield Cayman is similar to the Rye Cayman
Funds, and accordingly, the Trustee has alleged that
Fairfield Cayman resides in New York.
On the other hand, the Trustee has failed to
allege that Fairfield Bermuda maintained its
principal operations or principal place of business in
New York or the United States. Fairfield Bermuda
provided risk management services and acted as
placement agent to a number of FGG investment
vehicles and feeder funds and also allegedly
provided investment advisory services to Fairfield
Sentry. (Fairfield Proffered SAC at ¶ 56.) Although
the Trustee avers that Fairfield Bermuda “operated
out of FGG’s New York headquarters,” (SafeHand
Proffer at ¶ 3; accord id. at ¶ 6; see id. at ¶ 42), he
also alleges that it had a small number of employees
in Bermuda and rented a small office there.
(SafeHand Proffer at ¶ 42; Dove Hill Proffer at ¶ 43;
Fairfield Proffered SAC at ¶¶ 273–74.) The
Bermuda employees performed some risk analysis
on the Fairfield Sentry assets but reported to FGG
New York personnel. (Fairfield Proffered SAC at ¶
199.) Fairfield Bermuda also maintained a bank
account in Bermuda. (Id. at ¶ 272.) Unlike Fairfield
Cayman, Fairfield Bermuda did not report its
principal place of business as New York, and in a
marketing publication entitled “The Firm and Its
Capabilities,” at 7, FGG listed Fairfield Bermuda’s
office address as Suite 606, 12 Church Street,
Hamilton Bermuda HM11.37 Finally, the Trustee
37

A copy of “The Firm and Its Capabilities” is attached to the

136a
alleged in the Amended Complaint, dated July 20,
2010, at ¶ 121 (Adv. Pro. No. 09–01239 ECF Doc.
# 23) filed in Picard v. Fairfield Sentry Limited, that
Fairfield Bermuda maintained its principal place of
business in Hamilton, Bermuda.
i. Picard v. SafeHand Inv., Adv. Pro. No.
12–01701
A. The Parties
The Chart identifies three defendant Subsequent
Transferees, SafeHand Investments (“SafeHand”),
Strongback Holdings (“Strongback”) and PF
Trustees Limited in its capacity as trustee of RD
Trust (“PF” and collectively with SafeHand and
Strongback, the “Piedrahita Entities”).
The
Piedrahita Entities were formed by Andrés
Piedrahita, a founding partner of FGG, to receive his
partnership distributions from FGG. (SafeHand
Proffer at ¶ 1.) The fees charged investors in
Fairfield Sentry and Greenwich Sentry were
funneled to Fairfield Cayman and Fairfield
Bermuda, and then distributed to Piedrahita
through SafeHand, Strongback and PF. (Id. at ¶¶
3–5, 7, 14.) To protect the hundreds of millions of
distributions he ultimately received, Piedrahita
moved his profit distributions into entities like these
three defendants created in foreign countries. (Id. at
¶ 15.) According to the Trustee, the Piedrahita
Declaration of Jeffrey E. Baldwin in Support of FG Foreign
Defendant Motion to Dismiss Based on Extraterritoriality,
dated Sept. 30, 2015, as Exhibit 3 (ECF Adv. Proc. No. 12–
01701 Doc. # 68). The Trustee quoted from it in the Fairfield
Proffered SAC at ¶¶ 426–27.

137a
Entities and Piedrahita received $219,004,944. (Id.
at ¶ 14.)
Piedrahita was a citizen of the Republic of
Colombia and the United Kingdom, but resided in
the United States for most of his adult life and
obtained permanent resident status. (SafeHand
Proffer at ¶¶ 9–10.) At all relevant times, the
Piedrahita Entities were Cayman Island entities.
(Id. at ¶¶ 16, 21, 25.)38 The SafeHand Proffer
indicates that Piedrahita controlled the Piedrahita
Entities.
It further alleges that SafeHand
maintained a P.O. Box as its registered address in
the Cayman Islands, and implies that it did not have
any employees or offices other than the post office
box. (Id. at ¶ 16.) Furthermore, as an exempt
company, it could not engage in business in the
Cayman Islands except to further its business
interests outside of the Cayman Islands, (id.), and
when Piedrahita formed SafeHand he indicated to
the U.S. Government that SafeHand was a “foreign
eligible entity with a single owner electing to be
disregarded as a separate entity.” (Id. at ¶ 17
(internal quotation marks omitted).) The Trustee
concludes form this election that SafeHand
effectively served as Piedrahita’s later ego. (Id.)
These allegations imply that SafeHand conducted no
operations in the Cayman Islands, and to the extent

38

Strongback was formed in the Cayman Islands in November
2001, but was subsequently deregistered in December 2011
and reregistered in Malta. All of the subsequent transfers at
issue occurred while it was a Cayman Islands entity.

138a
it conducted any operations, it did so through
Piedrahita in the United States.
The SafeHand Proffer did not include similar
allegations regarding Strongback and PF that would
support the conclusion that they reside in the United
States.
Although it includes the conclusory
allegation that Strongback served as Piedrahita’s
alter ego, (id. at ¶ 22), it does not allege where it
maintained an office or whether it had any
employees. PF was also a Cayman Islands entity
with a registered office at the same address as
SafeHand, (id. at ¶ 26), and is now the sole owner of
SafeHand. (Id. at ¶ 28.) The SafeHand Proffer does
not otherwise include allegations pertaining to its
operations, offices or employees, if any.
B. The Subsequent Transfers
The allegations regarding the transfers are
confusing. Initially, the SafeHand Proffer alleges
that Fairfield Cayman made the subsequent
transfers from a New York account, (id. at ¶ 13), but
does not identify the location of the account that was
the source of the Fairfield Bermuda payments. The
Trustee
alleges
that
SafeHand
received
$212,777,342 in distributions from Fairfield
Cayman and $6,227,602 in distributions from
Fairfield Bermuda, (id. at ¶ 20), and SafeHand
received those payments in a New York
correspondent account in New York. (Id. at ¶ 18.)
The amount allegedly paid to SafeHand corresponds
to the amounts allegedly received by all

139a
three Piedrahita Entities.39 (See id. at ¶ 14.) In
addition, although the SafeHand Proffer states that
subsequent transfers were deposited in Strongbacks’
New York account at Wachovia Bank in New York,
(id. at ¶ 24), the proffer does not allege the amount
of those subsequent transfers, and the schedule of
subsequent transfers made to Strongback that is
attached to the Amended Complaint is blank. (See
Amended Complaint, App’x III, Ex. B.) Accordingly,
the Trustee does not identify any subsequent
transfers made to Strongback. The Trustee’s failure
to allege any domestic subsequent transfers to
Strongback fails to rebut the presumption against
extraterritoriality, and any such claims are
dismissed.
The claims against PF seemed to be based solely
on its status as the parent of SafeHand. (See
SafeHand Proffer at ¶ 28 (“RD Trust is now the sole
owner of Safehand. Thus, PF Trustees in its
capacity as trustee of RD Trust, owns and is in
possession of all transfers that were received by
Safehand.”).) The SafeHand Proffer does not identify
any subsequent transfers to PF in its own name, and
an exhibit to the Amended Complaint indicates that
SafeHand “and/or” PF received $172,631,780 in
subsequent transfers. (Amended Complaint, App’x
III, Ex. A.) The Trustee has not alleged a domestic
subsequent transfer to PF, and has not articulated a
39

Much of this amount originated from fees paid by Fairfield
Sentry. (See Amended Complaint, dated May 31, 2013
(“Amended Complaint ”), App’x II, Ex. C; App’x II, Ex. D (ECF
Adv. P. No. 12–01701 Doc. # 13).)

140a
basis to pierce SafeHand’s corporate veil, which is
presumably governed by Cayman Islands law, and
hold PF liable for the transfers to SafeHand.
Accordingly, the Trustee has failed to rebut the
presumption against extraterritoriality, and the
subsequent transfer claims asserted against PF are
also dismissed.
This leaves SafeHand. As noted, the transfers
that originated with the Fairfield Funds are
dismissed on grounds of comity. The transfers from
Fairfield Cayman were made by a U.S. resident from
a U.S. account. Although SafeHand received the
subsequent transfers in a correspondent account,
the allegations are sufficient under the criteria
discussed above to rebut the presumption against
extraterritoriality. Hence, the motion to dismiss
these claims is denied.
The claims alleging subsequent transfers from
Fairfield Bermuda are dismissed. They were made
by a foreign entity, the Trustee does not allege that
they were made from a U.S. bank account, and they
were made to correspondent bank account.
SafeHand’s residence, the only connection to the
United States, is insufficient to rebut the
presumption of extraterritoriality.
ii. Picard v. Barreneche, Inc., Adv. Pro.
No. 12–01702
A. FG Investors
FG Investors was created by Charles Murphy, an
FGG partner, to receive distributions from FGG,
(Dove Hill Proffer at ¶ 1), and operated in the same

141a
manner and for the same purposes as the Piedrahita
Entities. (See id. at ¶¶ 4–5.) FG Investors was
formed under Cayman Islands law but controlled by
Murphy, a U.S. citizen and New York resident, from
New York. (Dove Hill Proffer at ¶¶ 9–12.) The Dove
Hill Proffer does not allege where or whether it
maintained offices or operations, or whether it
employed anyone.
According to the Dove Hill Proffer, FG Investors
received at least $5,941,335 from Fairfield Cayman
to FG Investors and at least $675,700 from FG
Bermuda. A substantial portion of the transfers
originated from Fairfield Sentry, (Complaint, dated
June 6, 2012, (“Complaint”) App’x II C (ECF Adv. P.
No. 12–01702 Doc. # 1)), and are not recoverable on
grounds of comity. As in SafeHand’s case, the
Fairfield Cayman subsequent transfers were made
from its New York account at JP Morgan Chase.
(Dove Hill Proffer at ¶ 17; see id. at ¶ 37.) The Dove
Hill Proffer does not, however, allege where FG
Investors received the subsequent transfers.
Nevertheless, the Trustee alleges that the transfers
were made by an entity registered to do business in
New York from a New York account, and as in the
case of SafeHand, the allegations are sufficient to
rebut the presumption against extraterritoriality.
Hence, the motion to dismiss these claims is denied.
The claims alleging subsequent transfers from
Fairfield Bermuda to FG Investors are dismissed for
the same reasons discussed in connection with
SafeHand. Unlike Fairfield Cayman, Dove Hill
Proffer does not allege facts showing that Fairfield

142a
Bermuda resided in the United States or made the
subsequent transfers from a U.S. account, and as
noted, does not allege where FG Investors received
the transfers.
B. Dove Hill Trust
Dove Hill Trust (“DHT”) was created by Yanko
della Schiava, a FGG sales employee, to receive
salary and bonus payments from FGG. (Dove Hill
Proffer at ¶¶ 1, 22, 27.) He was also a Fairfield
Sentry investor, and DHT received a redemption
payment. (Id. at ¶ 22.) The proffer does not allege
where DHT was formed or maintained its principal
place of business. However, the Complaint alleged
that Asiaciti Trust Singapore Pte Ltd. acted as
DHT’s trustee and maintained its location at 163
Penang Road, # 02–01 Winsland House II,
Singapore, 238463. (Complaint at ¶ 76.)
The proffer alleges that Fairfield Cayman
transferred at least $400,000 to DHT, (Dove Hill
Proffer at ¶ 7), although an exhibit annexed to the
Complaint identifies only one transfer in the amount
of $59,039. (Complaint, App’x III, Ex. B.) As noted
earlier, Fairfield Cayman was registered to do
business in New York and made its subsequent
transfers from New York-based bank accounts.
(Dove Hill Proffer at ¶ 30.) The Dove Hill Proffer
further alleges that DHT used New York bank
accounts “in connection with the transfers at issue,”
(id. at ¶ 29), but does not allege, unlike the
allegations in many other proffers, that Dove Hill
received the transfers in a U.S. Account.
Nevertheless, the transfers were made by a

143a
U.S. resident from a N.Y. account, the Trustee has
rebutted the presumption against extraterritoriality
and the motion to dismiss these claims is denied.
d. Remaining Claims
i. Picard v. Cardinal Mgmt., Inc., Adv.
Pro. No. 10–04287
The parties have stipulated that Cardinal
Management, the subsequent transferor, and
Dakota Global Investments, the Subsequent
Transferee, are foreign entities, (Scheduling Order,
Ex. A at 8), and neither the Chart nor the proffer,
(see Trustee’s Proffered Allegations Pertaining to

the Extraterritoriality Issue as to Dakota Global
Investments, Ltd., dated June 26, 2015 (ECF Adv. P.

No. 10–04287 Doc. # 69)), indicates that either
maintained offices in the United States. The only
arguably pertinent allegation in the proffer is that
“Dakota’s agents also had Cardinal on occasion
utilize a U.S. branch of Wachovia Bank to facilitate
its transfers of money from BLMIS.” (Id. at ¶ 19.)
This statement refers to the initial transfer from
BLMIS to Cardinal, not the subsequent transfers
from Cardinal to Dakota. The Trustee has failed to
rebut the presumption against extraterritoriality,
and the claim is dismissed.
ii. Picard v. Equity Trading Portfolio,
Ltd., Adv. Pro. No. 10–04457

The Trustee alleges that Equity Trading
Portfolio Ltd. (“Equity Portfolio”), a BVI entity,
(BNP Proffer at ¶ 147 (ECF Adv. P. No. 10–04457

144a
Doc. # 90)),40 and a BLMIS customer, subsequently
transferred $15 million to BNP Paribas Arbitrage
SNC (“BNP Arbitrage”). (Id. ) The Trustee does not
indicate in the Chart that Equity Portfolio
maintained its principal operations in the United
States (Factor 1), and the BNP Proffer does not
allege otherwise.
The Trustee alleges that BNP Arbitrage resides
in New York with offices located at 787 Seventh
Avenue. (Id. at ¶ 5.) However, the Trustee alleged
in the Complaint, dated Nov. 30, 2010 (ECF Adv. P.
No. 10–04457 Doc. # 2), that BNP Arbitrage was
organized under the laws of France and maintained
an office in Paris with no mention of New York.
(Complaint at ¶ 13.) Furthermore, the BNP Proffer
incorporated the Complaint by reference, (BNP
Proffer at ¶ 158), and thus, the Trustee has made
contradictory allegations on this point without any
effort to explain the contradiction.
Nevertheless, even if the transferor and
transferee did not reside in the United States, the
BNP Proffer alleges that the subsequent transfer
was wholly domestic. BLMIS wired a $15 million
redemption payment to an HSBC account in New
York “held in the name of Citco Bank Nederland
N.V., Dublin Branch for the benefit of Equity
Portfolio,” and “Equity Portfolio transferred $15
million into an account held by BNP in New York on
behalf of BNP Arbitrage.” (Id. at ¶ 162.) As noted in
40

This is the same BNP Proffer referred to earlier. The Trustee
submitted this proffer in four adversary proceedings.

145a
an earlier citation to their response, BNP
Defendants contend that the Trustee did not allege
the use of non-correspondent accounts, but I do not
read the ET Decision to impose that pleading burden
on the Trustee. Accordingly, the motion to dismiss
this subsequent transfer claim is denied, and leave
to amend is granted.
iii.Picard v. Radcliffe Inv., Ltd., Adv. Pro.
No. 10–04517
The Trustee contends that Radcliffe Investments
Limited made a subsequent transfer to Rothschild
Trust Guernsey Limited (“Rothschild Trust”). As
alleged in the Proposed First Amended Complaint,
dated June 26, 2015 (“Radcliffe Proposed
FAC”)(ECF Adv. P. No. 10–04517 Doc. # 46),
Radcliffe opened an account number 1FR–100 (the
“Account”) with BLMIS, but was a “mere passive
investment vehicle,” (id. at ¶ 44), and Rothschild
Trust managed, controlled and actually owned the
Account. (Id at ¶¶ 8–9.) Radcliffe was formed under
the laws of the Cayman Islands, and maintained its
registered office in Georgetown, Cayman Islands.
(Id. at ¶ 8.) Rothschild Trust was incorporated under
the laws of Guernsey, and maintained its principal
place of business in Guernsey. (Id. at ¶ 9.) The
defendant Robert D. Salem, a London businessman,
was the ultimate beneficiary of the transfers at
issue. (Id. at ¶ 10.) Mr. Salem is in default, (id. at ¶
10 n. 2), and will not be mentioned further. The
Radcliffe Proposed FAC further alleges, “[u]pon
information and belief, that Radcliffe was owned by
a Guernsey-based trust, and Rothschild Trust was

146a
the trustee of the Guernsey-based trust. (Id. at ¶ 8.)
The Radcliffe Proposed FAC does not allege, and the
Chart does not indicate, that either Radcliffe or
Rothschild maintained an office or conducted
business operations in the United States other than
the ownership of and the activities relating to
Radcliffe’s BLMIS account.
On or about May 31, 2007, Rothschild Trust
directed BLMIS to close the Account and transfer
the proceeds to the Rothschild Trust account at JP
Morgan Chase Bank. “Upon information and belief,
the routing number for the [Rothschild] Trust
Account is only used for accounts opened in New
York with U.S. banking institutions.” (Id. at ¶¶ 46–
47.) On June 5, 2007, BLMIS wired $7,120,054, of
which $2,120,054 represented fictitious profits. (Id.,
Ex. B, at 7.) The Trustee alleges that a similar letter
was sent to BLMIS on or about October 31, 2007, (id.
at ¶ 46), but the last transfer occurred on September
20, 2007, (id., Ex. B, at 8), and no transfer was made
in response to the October letter.
Under Bankruptcy Code § 550(a), the Trustee
can recover an avoided transfer from the initial
transferee or the entity that benefitted from the
initial transfer, id. § 550(a)(1), or from a subsequent
transferee. Id., § 550(a)(2). The Trustee asserts all
three theories against Rothschild Trust; the initial
transfer was made to the Rothschild Trust,
(Radcliffe Proposed FAC at ¶ 39), (2) the initial
transfer was made for the benefit of the Rothschild
Trust, (id. at ¶ 39), and (3) upon information and
belief, the Rothschild Trust is the subsequent

147a
transferee of Radcliffe. (Id. at ¶ 41.) The three
theories are mutually exclusive, see Bonded Fin.
Servs., Inc. v. European Am. Bank, 838 F.2d 890,
895–966 (7th Cir. 1988); SIPC v. BLMIS (In re
BLMIS ), 531 B.R. 439, 474 (Bankr. S.D.N.Y. 2015),
and Rothschild Trust’s possible status as the initial
transferee or the entity for whose benefit the initial
transfer was made is beyond the scope of the ET
Decision.
The Radcliffe Proposed FAC does not identify a
subsequent transfer because it does not identify a
transfer from Radcliffe to Rothschild Trust; BLMIS
transferred the cash directly to Rothschild Trust.
Accordingly, any subsequent transfer claim is
dismissed. Since the ET Decision did not address
the question of extraterritoriality in connection with
initial transfers or the entities for whose benefit the
initial transfers were made, this disposition does not
affect those claims.
iv. Picard v. UBS AG, Adv. Pro. 10–05311
According to the Chart, Luxembourg Investment
Fund U.S. Equity Plus (“Luxembourg Fund”) made
subsequent
transfers
to
UBS
AG,
UBS
(Luxembourg) S.A. (“UBS Lux”) and UBS Fund
Services (Luxembourg) SA (“UBS Fund Services”).41
The Luxembourg Fund is a sub-fund of Luxembourg
Investment Fund, a Luxembourg corporation, and
both are in liquidation in Luxembourg. (Amended
41

The Trustee also alleged a subsequent transfer claim against
UBS Third Party Management Company SA, but that claim
has been dismissed for the reason noted earlier.

148a

Complaint, dated June 26, 2015 (“UBS Proffered
AC”) at ¶¶ 41–42 (ECF Adv. P. No. 10–05311 Doc.
# 221).) The Chart does not indicate that the
Luxembourg Fund conducted its principal
operations in New York (Factor 1), and I infer that
it is a foreign entity that did not reside in the United
States.

As to the Subsequent Transferees, the Chart does
not indicate that either UBS Lux or UBS Fund
Services used an office in connection with the
transaction (Factor 19), and the UBS Proffered AC
alleges that both were formed under Luxembourg
law and maintained their registered offices there.
(UBS Proffered AC at ¶¶ 49–50.) The Chart
indicates that UBS AG used a U.S. office in
connection with the transaction, and the UBS
Proffered AC alleges that UBS AG is a Swiss public
company with its principal offices in Basel,
Switzerland. In addition, it also maintains offices at
299 Park Avenue, New York, NY 10171 and 101
Park Avenue, New York, NY 10178 and it conducts
daily business activities in Stamford, Connecticut
and other locations in the United States. (Id. at ¶
48.) Accordingly, UBS AG resides in the United
States, but UBS Lux and UBS Fund Services are
foreign
transferees
without
any
domestic
connection.
Although the Chart indicates that the UBS
defendants received the transfers from the
Luxembourg Fund, the UBS Proffered AC includes
slightly different allegations. It avers that UBS Lux
received approximately $5.5 million in fees from the

149a
Luxembourg Fund, (id. at ¶ 303(a)), UBS Fund
Services received at least $748,000 from the
Luxembourg Fund, (id. at ¶ 303(b)), and UBS AG
received at least $1.7 million from UBS Lux and
UBS Fund Services which was comprised, in part, of
amounts they had received from the Luxembourg
Fund. (Id. at ¶ 303(d).) In other words, UBS AG was
an immediate transferee of UBS Lux and UBS Fund
Services. It further alleges that UBS Fund Services
received the Luxembourg Fund’s redemption
payments from BLMIS at UBS Fund Services’
account at UBS AG’s Stamford, Connecticut branch
which then went to the Luxembourg Fund’s bank
account at UBS SA, (id. at ¶ 274), but these
allegations relate to the initial transfers from
BLMIS to the Luxembourg Fund, and not the
subsequent transfers.
In fact, the Court is unable to locate any
allegations within the four corners of the
ninety-seven page UBS Proffered AC that identify
the location of the subsequent transfers and the
UBS Proffered AC does not imply that they occurred
in the United States. Moreover, if the subsequent
transfers to UBS Lux and UBS Fund Services
cannot
be
recovered
on
grounds
of
extraterritoriality, the subsequent transfers from
those entities to UBS AG are also beyond the reach
of Bankruptcy Code § 550(a)(2). Accordingly, the
Trustee has failed to rebut the presumption against
extraterritoriality, and these subsequent transfer
claims are dismissed.

150a
v. Picard v. Natixis, Adv. Pro. No. 10–
05353
The Trustee alleges that Bloom Asset Holdings
Fund (“Bloom”) received subsequent transfers in the
sum of $191 million from Groupement and
$18 million from Alpha Prime Fund Limited (“Alpha
Prime”).42
(Trustee’s
Proffered
Allegations

Pertaining to the Extraterritoriality Issue as to
Natixis S.A., Bloom Asset Holdings Fund, and
Tensyr Limited, dated June 26, 2015 (“Natixis
Proffer”), at ¶ 68 (ECF Adv. P. No. 10–05353 Doc.

# 102).) As noted earlier, the Trustee did not take
the position that Groupement or Alpha Prime
maintained their principal operations in the United
States, but the Trustee now contends that they did.
In fact, Groupement, Alpha Prime and Bloom are all
foreign entities, and the Natixis Proffer does not
allege that they maintained offices or resided in the
United States.
Instead, the Trustee attempts to tie Bloom to the
United States through allegations relating to
Natixis FP, a domestic corporation. According to the
Natixis Proffer, Bloom is an indirect subsidiary of
Natixis, S.A., a corporate and investment bank
created in November 2006 under the laws of France,
(id. at ¶ 5), and Natixis is the parent of “an
international network of financial institutions,
service providers, and banks that maintained
operations and offices in the United States through
42

The Trustee also alleges claims in this adversary proceeding
relating to subsequent transfers by Fairfield Sentry and
Harley that have already been dismissed on comity grounds.

151a
numerous subsidiary entities, including Defendants
Natixis FP and Bloom. (Id. ) Bloom’s “corporate
function was to act as a non-U.S. taxpayer on behalf
of Natixis FP to invest in BLMIS Feeder Funds and
other hedge funds that did not permit direct
investments by U.S. taxpayers like Natixis FP.” (Id.
at ¶ 14; accord id at ¶ 15.) Two affiliates of Natixis,
including Natixis FP, operated from the “same
principal place of business in New York,” (id. at ¶
11), and controlled and directed the transactions on
behalf
of
Bloom
with
the
Subsequent
Transferor-feeder funds. (Id. at ¶¶ 13–24.) The
substance of these allegations is that Natixis F.P., a
New York entity, ran Bloom for its own benefit, and
utilized Bloom letterhead that listed Bloom’s
address as 9 West 57th Street in Manhattan. (Id. at
¶ 79.)
The underlying Complaint does not identify the
subsequent transfers to Bloom or any of the other
subsequent transferees. (See Picard v. Natixis,
Complaint, dated Dec. 8, 2008, at ¶¶ 223–36 (ECF
Doc. # 1).) The Natixis Proffer refers to only one
subsequent transfer to Bloom. Access International
Advisors, LLC (“Access”), Groupement’s manager,
(Natixis Proffer at ¶ 44), wired Bloom more than
$150 million in Groupement redemption proceeds
through a New York correspondent account at State
Street Bank & Trust Co., N.A. (Id. at ¶ 80.) The
proffer does not identify the location of the
transferor account, and since the transferee account
is a correspondent account, it does not allege a

152a
domestic transfer.43 Furthermore, Groupement does
not reside in the United States.
Accordingly, the Trustee has failed to rebut the
presumption against extraterritoriality, and the
subsequent transfer claims against Bloom are
dismissed.
The parties are directed to confer for the purpose
of submitting consensual orders consistent with the
dispositions of the motions in each adversary
proceeding.
If they cannot submit consensual
orders, they should settle orders on notice to the
other parties in those adversary proceedings.
Dated: New York, New York
November 21, 2016
/s/Stuart M. Bernstein
STUART M. BERNSTEIN
United States Bankruptcy
Judge
APPENDIX
ALLEN & OVERY LLP
1221 Avenue of the Americas
New York, NY 10020
Michael S. Feldberg, Esq.
Of Counsel

43

In contrast, the Natixis Proffer alleges that Natixis
requested that Fairfield Sentry send redemptions to a
Deutsche Bank account in New York, (Natixis Proffer at ¶ 114),
and Harley paid its redemptions to a New York-based
Northern Trust bank account. (Id. at ¶ 187.)

153a
ARNOLD & PORTER LLP
555 Twelfth Street, N.W.
Washington, DC 20004
Scott B. Schreiber, Esq.
Of Counsel
BAKER & MCKENZIE LLP
2300 Trammell Crow Center
2001 Ross Avenue
Dallas, Texas 75201
David W. Parham, Esq.
Of Counsel
CHALOS & CO, P.C.
55 Hamilton Avenue
Oyster Bay, New York 11771
George M. Chalos, Esq.
Of Counsel
CLEARY GOTTLIEB STEEN & HAMILTON LLP
One Liberty Plaza
New York, NY 10006
Thomas J. Moloney, Esq.
Lawrence B. Friedman, Esq.
David E. Brodsky, Esq.
Carmine D. Boccuzzi, Jr., Esq.
Breon S. Peace, Esq.
Ari D. Mackinnon, Esq.
Elizabeth E. Vicens, Esq.
Of Counsel

154a
CRAVATH, SWAINE & MOORE LLP
Worldwide Plaza
825 Eight Avenue
New York, NY 10019–7475
Richard Levin, Esq.
David Greenwald, Esq.
Of Counsel
DAVIS & GILBERT LLP
1740 Broadway
New York, NY 10019
Joseph Cioffi, Esq.
Bruce Ginsberg, Esq.
James R. Serritella, Esq.
Of Counsel
DAVIS POLK & WARDWELL LLP
450 Lexington Avenue
New York, NY 10017
Elliot Moskowitz, Esq.
Andrew Ditchfield, Esq.
Of Counsel
DECHERT LLP
1095 Avenue of the Americas
New York, NY 10036
Gary J. Mennitt, Esq.
Of Counsel

155a
FLEMMING ZULACK WILLIAMSON ZAUDERER
LLP
One Liberty Plaza
New York, NY 10006
John F. Zulack, Esq.
Elizabeth O’Connor, Esq.
Of Counsel
FRESHFIELDS BRUCKHAUS DERINGER US
LLP
601 Lexington Avenue
31st Floor
New York, NY 10022
David J. Onorato, Esq.
David Y. Livshiz, Esq.
Of Counsel
FRIEDMAN KAPLAN SEILER & ADELMAN LLP
7 Times Square
New York, NY 10036
Robert J. Lack, Esq.
Of Counsel
GIBSON, DUNN & CRUTCHER LLP
200 Park Avenue
New York,
Marshall R. King, Esq.
Gabriel Herrmann, Esq.
Of Counsel

156a
GOODWIN PROCTER LLP
620 Eighth Avenue
New York, NY 10018
Christopher Newcomb, Esq.
William P. Weintraub, Esq.
Of Counsel
HOGAN LOVELLS US LLP
875 Third Avenue
New York, NY 10022
Marc. J. Gottridge, Esq.
Benjamin J.O. Lewis, Esq.
Erin Marie Meyer, Esq.
Of Counsel
JONES DAY
222 East 41st Street
New York, NY 10017
Thomas E. Lynch, Esq.
Julie R. Gorla, Esq.
Of Counsel
KATTEN MUCHIN ROSENMAN LLP
575 Madison Avenue
New York, NY 10022–2585
Anthony Paccione, Esq.
Bruce Sabados, Esq.
Brian Muldrew, Esq.
Mark Ciani, Esq.
Allison Wuertz, Esq.
Of Counsel

157a
KELLEY DRYE & WARREN LLP
101 Park Avenue
New York, NY 10178
Daniel Schimmel, Esq.
Of Counsel
KING & SPALDING LLP
1185 Avenue of the Americas
New York, NY 10036–4003
Richard A. Cirillo, Esq.
Of Counsel
LATHAM & WATKIN LLP
885 Third Avenue
New York, NY 10022
Thomas J. Giblin, Esq.
Christopher Harris, Esq.
Of Counsel
O’MELVENY & MYERS LLP
Seven Times Square
New York, NY 10036
William J. Sushon, Esq.
Shiva Eftekhari, Esq.
Daniel S. Shamah, Esq.
Of Counsel
OTTERBOURG P.C.
230 Park Avenue
New York, NY 10169
Peter Feldman, Esq.
Andrew S. Halpren, Esq.
Of Counsel

158a
PAUL HASTINGS LLP
75 East 55th Street
New York, NY 10022
Barry Sher, Esq.
Jodi Kleinick, Esq.
Mor Wetzler, Esq.
Of Counsel
PROSKAUER ROSE LLP
Eleven Times Square
New York, NY 10036
Gregg M. Mashberg, Esq.
Richard L. Spinogatti, Esq.
Of Counsel
ROPES & GRAY LLP
1211 Avenue of the Americas
New York, NY 10036
Robert S. Fischler, Esq.
Martin J. Crisp, Esq.
Of Counsel
SHEARMAN & STERLING LLP
599 Lexington Avenue
New York, NY 10022
Brian H. Polovoy, Esq.
Of Counsel

159a
SHEPPARD MULLIN RICHTER & HAMPTON
LLP
30 Rockefeller Plaza
New York, NY 10112
Malani J. Cademartori, Esq.
Blanka K. Wolfe, Esq.
Of Counsel
STEPTOE & JOHNSON LLP
2121 Avenue of the Stars, Suite 2800
Los Angeles, CA 90067
Seong J. Kim, Esq.
Of Counsel
WILMER CUTLER PICKERING HALE AND
DORR LLP
7 World Trade Center
New York, NY 10007
Charles C. Platt, Esq.
Andrea J. Robinson, Esq.
George W. Shuster, Jr., Esq.
Of Counsel
WILMER CUTLER PICKERING HALE & DORR
LLP
60 State Street
Boston, MA 02109
Benjamin Loveland, Esq.
Of Counsel

160a
WROBEL SCHATZ & FOX
1040 Avenue of the Americas, Suite 1101
New York, NY 10018
Philip R. Schatz, Esq.
Of Counsel
WUERSCH & GERING
100 Wall Street, 10 Fl.
New York, NY 10005
Samuel D. Levy, Esq.
Of Counsel

161a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
SECURITIES INVESTOR
PROTECTION
CORPORATION,
Plaintiff,
-vBERNARD L. MADOFF
INVESTMENT
SECURITIES LLC,

12-mc-115 (JSR)
OPINION AND
ORDER

Defendant.
IN RE:
MADOFF SECURITIES
PERTAINS TO:
Consolidated proceedings on
extraterritoriality issues
JED S. RAKOFF, U.S.D.J.
The question here presented is whether section
550(a)(2) of the Bankruptcy Code applies
extraterritorially in the context of this proceeding.
Specifically, Irving H. Picard (the “Trustee”), the
trustee appointed under the Securities Investor
Protection Act (“SIPA”), 15 U.S.C. §§ 78aaa–78lll, to
administer the estate of Bernard L. Madoff
Investment Securities LLC (“Madoff Securities”),
here seeks to recover funds that, having been

162a
transferred from Madoff Securities to certain foreign
customers, were then in turn transferred to certain
foreign persons and entities that comprise the
defendants here at issue. These defendants seek to
dismiss the Trustee’s claims against them, arguing
that 11 U.S.C. § 550(a)(2), the Bankruptcy Code
provision allowing for such recovery, does not apply
extraterritorially. The Court assumes familiarity
with the underlying facts of the Madoff Securities
fraud and ensuing bankruptcy and recounts here
only those facts that are relevant to the instant
issues.
Central to the question here presented is the role
of the so-called “feeder funds,” foreign investment
funds that pooled their own customers’ assets for
investment with Madoff Securities. As customers of
Madoff Securities, the feeder funds at times
withdrew monies from Madoff Securities, which
they subsequently transferred to their customers,
managers, and the like. When Madoff Securities
collapsed in late 2008, many of these funds—which
had invested all or nearly all of their assets in
Madoff Securities—likewise entered into liquidation
in their respective home countries. The Trustee
seeks to recover not only the allegedly avoidable
transfers made to the feeder funds but also
subsequent transfers of alleged Madoff Securities
customer property made by those funds to their
immediate and mediate transferees. It is the
recovery of those subsequent transfers—transfers
made abroad between a foreign transferor and a
foreign transferee—that is the subject of the instant
consolidated proceeding.

163a
For example, in October 2011, the Trustee filed
an adversary proceeding against CACEIS Bank
Luxembourg and CACEIS Bank (together,
“CACEIS”), seeking $50 million in subsequent
transfers of alleged Madoff Securities customer
property. See Decl. of Jaclyn M. Metzinger dated
Mar. 23, 2013, Ex. A (“CACEIS Compl.”) ¶ 2, No. 12
Civ. 2434, ECF No. 2 (S.D.N.Y. filed Apr. 2, 2012).
CACEIS Bank Luxembourg is a Luxembourg société
anonyme operating there, while CACEIS Bank is a
French société anonyme operating in France. Id. ¶¶
22–23. Both entities serve as custodian banks and
engage in asset management for “corporate and
institutional clients.” Id. ¶¶ 3, 22–23.
The Trustee seeks to recover alleged Madoff
Securities customer funds received by CACEIS.
However, CACEIS did not invest directly with
Madoff Securities; instead, it invested funds with
Fairfield Sentry Limited and Harley International
(Cayman) Limited, two Madoff Securities feeder
funds that in turn invested CACEIS’s assets in
Madoff Securities. Id. ¶ 2. Fairfield Sentry is a
British Virgin Islands (“BVI”) company that had
invested more than 95% of its assets in Madoff
Securities. Id. It is currently in liquidation in the
BVI and has settled the Trustee’s avoidance and
recovery action against it for a fraction of the
Trustee’s initial claim. See id. ¶¶ 24, 43. Harley is
a Cayman Islands company that was also one of
Madoff Securities’ largest feeder funds, and it is now
in liquidation in the Cayman Islands. Id. ¶ 25. The
Trustee obtained a default judgment against Harley
for more than $1 billion in November 2010. Id. ¶ 53.

164a
The Trustee alleges that CACEIS received
$50million in recoverable subsequent transfers as a
customer of Fairfield Sentry and Harley, and he
asserts a right to reclaim those transfers under
11 U.S.C. § 550(a)(2). See id. ¶¶ 60–69.
CACEIS and the other consolidated defendants
have moved to dismiss the Trustee’s complaints in
their respective adversary proceedings, arguing that
section 550(a)(2) of the Bankruptcy Code does not
apply extraterritorially and therefore does not reach
subsequent transfers made abroad by one foreign
entity to another. These defendants previously
moved to withdraw the reference to the Bankruptcy
Court, and the Court granted that motion on a
consolidated basis with respect to the following
issue: “whether SIPA and/or the Bankruptcy Code
as incorporated by SIPA apply extraterritorially,
permitting the Trustee to avoid the initial Transfers
that were received abroad or to recover from initial,
immediate, or mediate foreign transferees.” See
Order at 3, No. 12 Misc. 115, ECF No. 167 (S.D.N.Y.
June 7, 2012). The Court received briefing on this
issue from the defendants, the Trustee, and the
Securities Investor Protection Corporation (“SIPC”)
and heard oral argument on September 21, 2012.
The Court concludes that (1) the application of
section 550(a)(2) here would constitute an
extraterritorial application of the statute, and
(2) Congress did not clearly intend such an
application.
Moreover, given the factual
circumstances at issue in these cases, even if section
550(a)(2) could be applied extraterritorially, such an
application would be precluded here by

165a
considerations of international comity. This Opinion
and Order addresses these issues in turn and directs
further proceedings upon return to the Bankruptcy
Court.
“It is a ‘longstanding principle of American law
that legislation of Congress, unless a contrary intent
appears, is meant to apply only within the territorial
jurisdiction of the United States.’ ” Morrison v. Nat’l
Australia Bank Ltd., 561 U.S. 247, 130 S.Ct. 2869,
2877, 177 L.Ed.2d 535 (2010) (quoting EEOC v.
Arabian American Oil Co. (“Aramco”), 499 U.S. 244,
248, 111 S.Ct. 1227, 113 L.Ed.2d 274 (1991)). This
presumption against extraterritorial application of
federal statutes “serves to protect against
unintended clashes between our laws and those of
other nations which could result in international
discord.” Aramco, 499 U.S. at 248, 111 S.Ct. 1227.
In determining whether the presumption against
extraterritoriality applies, the Court must
determine, first, whether the factual circumstances
at issue require an extraterritorial application of the
relevant statutory provision; and second, if so,
whether Congress intended for the statute to apply
extraterritorially. See, e.g., Morrison, 130 S.Ct. at
2877–88 (engaging in this analysis with respect to
section 10(b) of the Securities Exchange Act of 1934,
15 U.S.C. § 78j(b)); In re Maxwell Commc’n Corp.
(“Maxwell I”), 186 B.R. 807, 816 (S.D.N.Y.1995)
(setting out this two-step inquiry in analyzing
section 547 of the Bankruptcy Code).
The Court turns first to the question of whether
the Trustee’s use of section 550(a) here is in fact an

166a
extraterritorial application of the statute.
In
Morrison, when determining whether an underlying
U.S.-based deception was sufficient to make
application of section 10(b) of the Exchange Act
domestic, rather than extraterritorial, the Supreme
Court looked to “the ‘focus’ of congressional concern,”
or, in other words, the “transactions that the
statutes seeks to ‘regulate.’” 130 S.Ct. at 2884.
The Trustee and SIPC argue that the “focus” of
congressional concern in a SIPA liquidation is the
regulation of the SIPC-member U.S. broker-dealer,
so that the application of any of the incorporated
provisions of the Bankruptcy Code is inherently
domestic. But this argument proves too much. It
cannot be that any connection to a domestic debtor,
no matter how remote, automatically transforms
every use of the various provisions of the
Bankruptcy Code in a SIPA bankruptcy into purely
domestic applications of those provisions. On the
level of policy, this approach could raise serious
issues of international comity, as discussed below.
And, as a matter of precedent, Morrison suggests
that such a sweeping approach fails to engage in the
necessary analysis of the way in which the statutes
are utilized, as “it is a rare case of prohibited
extraterritorial application that lacks all contact
with the territory of the United States.” 130 S.Ct. at
2884.
Accordingly, a mere connection to a
U.S. debtor, be it tangential or remote, is insufficient
on its own to make every application of the
Bankruptcy Code domestic. Cf. Norex Petroleum
Ltd. v. Access Indus., Inc., 631 F.3d 29, 33 (2d
Cir.2010) (per curiam) (stating, in the context of a

167a
RICO claim, that “simply alleging that some
domestic conduct occurred cannot support a claim of
domestic application”).
The Court therefore looks to the regulatory focus
of the Bankruptcy Code’s avoidance and recovery
provisions specifically.
On a straightforward
reading of section 550(a), this recovery statute
focuses on “the property transferred” and the fact of
its transfer, not the debtor. See 11 U.S.C. § 550(a)
(allowing a trustee to recover “the property
transferred ... to the extent that a transfer is
avoided” under one of the Bankruptcy Code’s
avoidance provisions). Moreover, section 548, the
avoidance provision that is primarily at issue in
these proceedings, similarly focuses on the nature of
the transaction in which property is transferred, not
merely the debtor itself. See, e.g., 11 U.S.C. § 548(c)
(allowing a transferee who “takes for value and in
good faith ... [to] retain any interest transferred ...
to the extent that such transferee ... gave value to
the debtor in exchange for such transfer”); cf. In re
Maxwell Commc’n Corp. (“Maxwell II”), 93 F.3d
1036, 1051 (2d Cir.1996) (noting that “scrutiny of the
transfer is at the heart of” an avoidance action).
Accordingly, under Morrison, the transaction being
regulated by section 550(a)(2) is the transfer of
property to a subsequent transferee, not the
relationship of that property to a perhaps-distant
debtor.
To determine whether the transfers at issue in
this
consolidated
proceeding
occurred
extraterritorially, “the court considers the location of

168a
the transfers as well as the component events of
those transactions.” Maxwell I, 186 B.R. at 817.
Here, the relevant transfers and transferees are
predominantly foreign: foreign feeder funds
transferring assets abroad to their foreign
customers and other foreign transferees. See, e.g.,
CACEIS Compl. ¶ 2. This scenario is similar to
circumstances found to implicate extraterritorial
applications of the Bankruptcy Code’s avoidance
provisions in other cases. See, e.g., Maxwell I, 186
B.R. at 815 (finding application of 11 U.S.C. § 548 to
be extraterritorial where “the antecedent debts were
incurred overseas, the transfers on account of those
debts were made overseas, and the recipients ... [are]
all foreigners”); In re Midland Euro Exch. Inc., 347
B.R. 708, 717 (Bankr.C.D.Cal.2006) (noting that the
parties agreed that the trustee’s “claims would
result in extraterritorial application of [11 U.S.C.] §
548” where “[t]he transferor was a Barbados
corporation, the transferee was an English
corporation, the funds originated from a bank
account in London and, although transferred
through a bank account in New York, eventually
ended up in another bank account in England”).
Although the chain of transfers originated with
Madoff Securities in New York, that fact is
insufficient to make the recovery of these otherwise
thoroughly foreign subsequent transfers into a
domestic application of section 550(a).1 See Maxwell
1

Nor is the fact that some of the defendants here allegedly used
correspondent banks in the United States to process
dollar-denominated transfers sufficient to make these foreign
transfers domestic. See, e.g., Cedeno v. Intech Grp., Inc., 733

169a

I, 186 B.R. at 816–17 (rejecting the claim that the

alleged preferential transfers were domestic because
the funds for the transfers derived from the sale of
U.S. assets); cf. Morrison, 130 S.Ct. at 2886
(rejecting the notion that the section 10(b) claim at
issue was domestic because a significant portion of
the fraudulent conduct occurred in the United
States). Accordingly, the Court concludes that the
subsequent transfers that the Trustee seeks to
recover here are foreign transfers and thus would
require an extraterritorial application of section
550(a).
The Court therefore turns to the second prong of
the extraterritoriality inquiry: whether such an
extraterritorial application was intended by
Congress. The Supreme Court has explained that
“‘unless there is the affirmative intention of the
Congress clearly expressed’ to give a statute
extraterritorial effect, ‘we must presume it is
primarily concerned with domestic conditions.’”
Morrison, 130 S.Ct. at 2877 (quoting Aramco, 499
U.S. at 248, 111 S.Ct. 1227). “When a statute gives
no clear indication of an extraterritorial application,
it has none.” Id. In deciding whether Congress has
“clearly expressed” such an intent, the Court looks
first to the language of section 550(a), which reads:
Except as otherwise provided in this section,
to the extent that a transfer is avoided under
F.Supp.2d 471, 472 (S.D.N.Y.2010) (dismissing a RICO claim
as impermissibly extraterritorial where “[t]he scheme’s
contacts with the United States, however, were limited to the
movement of funds into and out of U.S.-based bank accounts”).

170a
section 544, 545, 547, 548, 549, 553(b), or
724(a) of this title, the trustee may recover,
for the benefit of the estate, the property
transferred, or, if the court so orders, the
value of such property, from—
(1) the initial transferee of such transfer or
the entity for whose benefit such transfer
was made; or
(2) any immediate or mediate transferee
of such initial transferee.
11 U.S.C. § 550(a).
Nothing in this language suggests that Congress
intended for this section to apply to foreign
transfers, and the Trustee does not argue otherwise.
Cf. Maxwell I, 186 B.R. at 819 (“[N]othing in the
language or legislative history of [11 U.S.C.] § 547
expresses Congress’ intent to apply the statute to
foreign transfers.”); Midland, 347 B.R. at 717
(“Nothing in the text of [11 U.S.C.] § 548 indicates
congressional intent to apply it extraterritorially.”).
The Court therefore looks to “context,” Morrison, 130
S.Ct. at 2883, including surrounding provisions of
the Bankruptcy Code, to determine whether
Congress nevertheless intended that section 550(a)
apply extraterritorially.
Attempting to rebut the presumption against
extraterritoriality, the Trustee focuses on section
541 of the Bankruptcy Code, which defines “property
of the estate” to include certain specified property
“wherever located and by whomever held.”
11 U.S.C. § 541(a). It is uncontested here that the

171a
phrase “wherever located” is intended to give the
Trustee title over all of the debtor’s property,
regardless of whether it is physically present in the
United States. See H.R.Rep. No. 82–2320, at 10,
reprinted in 1952 U.S.C.C.A.N. 1960, at 1976.
According to the Trustee, section 541 is incorporated
into the avoidance and recovery provisions of the
Bankruptcy Code, which use the phrase “an interest
of the debtor in property” to define the transfers that
may be avoided, a phrase that is repeated in section
541 in defining “property of the estate.” See, e.g.,
11 U.S.C. § 548(a) (allowing a trustee to “avoid any
transfer ... of an interest of the debtor in property”);
see also Begier v. I.R.S., 496 U.S. 53, 58–59, 110
S.Ct. 2258, 110 L.Ed.2d 46 (1990) (looking to section
541’s definition of “property of the estate” in defining
“property of the debtor” under section 547). Under
the Trustee’s theory, section 541’s reference to
“wherever located and by whomever held” is thereby
indirectly incorporated into the Bankruptcy Code’s
avoidance and recovery provisions, indicating that
Congress intended that those provisions apply
extraterritorially as well.
Though clever, the theory is neither logical nor
persuasive.
That section 541’s definition of
“property of the estate” may be relevant to
interpreting “property of the debtor” does not
necessarily imply that transferred property is to be
treated as “property of the estate” under section 541
prior to recovery by the Trustee. As the Court of
Appeals for the Second Circuit has explained:

172a
In accordance with 11 U.S.C. § 541(a)(1)
(1988), the property of a bankruptcy estate
includes (with exceptions not presently
pertinent) “all legal or equitable interests of
the debtor in property as of the
commencement of the case;” and pursuant to
11 U.S.C. § 541(a)(3) (1988), the property of
a bankruptcy estate also includes “[a]ny
interest in property that the trustee
recovers” under specified Bankruptcy Code
provisions, including 11 U.S.C. § 550
(1988).... “If property that has been
fraudulently transferred is included in the
§ 541(a)(1) definition of property of the
estate, then § 541(a)(3) is rendered
meaningless with respect to property
recovered pursuant to fraudulent transfer
actions.” Further, “the inclusion of property
recovered by the trustee pursuant to his
avoidance powers in a separate definitional
subparagraph
clearly
reflects
the
congressional intent that such property is
not to be considered property of the estate
until it is recovered.”

In re Colonial Realty Co., 980 F.2d 125, 131
(2d Cir.1992) (citation omitted) (quoting In re
Saunders, 101 B.R. 303, 305 (Bankr.N.D.Fla.1989)).
Under the logic of Colonial Realty, whether
“property of the estate” includes property “wherever
located” is irrelevant to the instant inquiry:
fraudulently transferred property becomes property
of the estate only after it has been recovered by the

173a
Trustee, so section 541 cannot supply any
extraterritorial authority that the avoidance and
recovery provisions lack on their own. See Maxwell
I, 186 B.R. at 820 (“Because preferential transfers do
not become property of the estate until recovered,
§ 541 does not indicate the Congress intended § 547
to govern extraterritorial transfers.” (citing Colonial
Realty, 980 F.2d at 131)); Midland, 347 B.R. at 718
(finding that “neither the plain language of the
statute nor its reading in conjunction with other
parts of the Code establish[es] congressional intent
to apply § 548 extraterritorially,” in part because
“allegedly fraudulent transfers do not become
property of the estate until they are avoided”).2
Indeed, the fact that section 541, by virtue of its
“wherever
located”
language,
applies
extraterritorially may cut against the Trustee’s
2

The Trustee asks the Court to adopt the Fourth Circuit’s
decision in In re French, 440 F.3d 145, 152 (4th Cir.2006),
which holds that the presumption against extraterritoriality
does not apply to avoidance and recovery actions. However, the
logic of French is inconsistent with the Second Circuit’s
decision in Colonial Realty, as French relies on a notion that
the foreign property “would have been property of the debtor’s
estate” absent a fraudulent transfer, id., whereas Colonial
Realty implies that section 541 would not apply until after
property has been recovered. In any event, French is also
factually distinguishable, as “[m]ost of the activity surrounding
[the relevant] transfer took place in the United States ... [and]
almost all of the parties with an interest in this litigation—the
debtor, the transferees, and all but one of the creditors—are
based in the United States, and have been for years.” Id. at 154.
Accordingly, the Court declines to adopt either French ‘s
reasoning or its ultimate determination.

174a
argument.
In Morrison, the Supreme Court
similarly contrasted section 10(b) with another
provision of the Exchange Act, noting that the other
section “contains what [section] 10(b) lacks: a clear
statement of extraterritorial effect.... [W]hen a
statute
provides
for
some
extraterritorial
application,
the
presumption
against
extraterritoriality operates to limit that provision to
its terms.” 130 S.Ct. at 2883; see also Norex, 631
F.3d at 33 (“Morrison ... forecloses Norex’s argument
that because a number of RICO’s predicate acts
possess an extraterritorial reach, RICO itself
possesses an extraterritorial reach.”).
Nor does section 78fff–2(c)(3) of SIPA, which
empowers a SIPA trustee to utilize the Bankruptcy
Code’s avoidance and recovery provisions to reclaim
customer property, overcome the presumption
against extraterritorial application. As with section
550(a) of the Bankruptcy Code, section 78fff–2(c)(3)
of SIPA does not expressly provide for
extraterritorial application; rather, it primarily
incorporates the avoidance and recovery provisions
of the Bankruptcy Code, suggesting that whatever
limitations apply to an ordinary bankruptcy likewise
limit a SIPA liquidation. See 15 U.S.C. § 78fff–
2(c)(3) (empowering a SIPA trustee to “recover any
property transferred by the debtor which, except for
such transfer, would have been customer property if
and to the extent that such transfer is voidable or
void under the provisions of Title 11”). As a more
general matter, SIPA’s predominantly domestic
focus suggests a lack of intent by Congress to extend
its reach extraterritorially. Cf. Morrison, 130 S.Ct.

175a
at 2878 (finding that the Exchange Act’s focus is the
purchase and sale of securities in the United States).
For example, SIPA expressly excludes from SIPC
membership brokers whose primary business is
conducted outside of the United States, see 15 U.S.C.
§ 78ccc(a)(2)(A)(i), and likewise excludes as a
“customer” any person whose claim arises out of
transactions with a foreign subsidiary of a SIPC
member, see 15 U.S.C. § 78lll (2)(C)(i).
Furthermore, although the Trustee points to SIPA
section 78eee(b)(2)(A)(i), which provides for
“exclusive jurisdiction of such debtor and its
property wherever located (including property
located outside the territorial limits of such court
...),” the effect of this provision is no different from
that of section 841 of the Bankruptcy Code. See
15 U.S.C. § 78eee(b)(2)(A)(iii) (providing a SIPA
trustee with “the jurisdiction, powers, and duties
conferred upon a court of the United States having
jurisdiction over cases under Title 11”). That is,
although section 78eee(b)(2)(A)(i) uses the phrase
“wherever located,” this phrase relates only to
property of the debtor, which, as discussed above,
includes transferred property only after it has been
recovered by the Trustee.3
3

To the extent that the district court in In re Bevill, Bresler &
Schulman, Inc., 83 B.R. 880 (D.N.J.1988), found that SIPA

applies extraterritorially, that case relied on an analysis that
is outdated in light of the Supreme Court’s decision in
Morrison. See, e.g., id. at 896 (stating that “[e]xtraterritorial
application of SIPA is also consistent with the extraterritorial
application of other federal securities laws,” including section
10(b)).

176a
Finally, the Trustee contends that policy
concerns require that section 550(a) of the
Bankruptcy Code apply extraterritorially; that is,
the Trustee argues that a contrary result would
allow a U.S. debtor to fraudulently transfer all of his
assets offshore and then retransfer those assets to
avoid the reach of U.S. bankruptcy law. However,
as other courts have found, the desire to avoid such
loopholes in the law “must be balanced against the
presumption against extraterritoriality, which
serves to protect against unintended clashes
between our laws and those of other nations which
could result in international discord.” Midland, 347
B.R. at 718. Assuming that any such intentional
fraud occurred, the Trustee here may be able to
utilize the laws of the countries where such transfers
occurred to avoid such an evasion while at the same
time avoiding international discord. Furthermore,
although the Trustee argues that finding no
extraterritorial application would undermine the
primary policy objective of SIPA—the equitable
distribution of customer funds to customers of the
debtor—the Trustee has long insisted that indirect
customers of Madoff Securities, like many of the
defendants here, are not themselves creditors of the
customer-property estate. See In re Bernard L.
Madoff Inv. Sec. LLC, 708 F.3d 422, 427
(2d Cir.2013) (adopting this position). Therefore,
the Trustee’s claim that the defendants here are
being treated somehow more favorably than
customer-beneficiaries of the SIPA estate—who are
not similarly situated to these non-beneficiaries—is
disingenuous, especially since the defendants here

177a
stand to benefit little, if at all, from the
customer-property estate through their now-defunct
feeder funds. In sum, the Court concludes that the
presumption against extraterritorial application of
federal statutes has not been rebutted here; the
Trustee therefore may not use section 550(a) to
pursue recovery of purely foreign subsequent
transfers.
While the foregoing is dispositive, the Court
further concludes, in the alternative, that even if the
presumption against extraterritoriality were
rebutted, the Trustee’s use of section 550(a) to reach
these foreign transfers would be precluded by
concerns of international comity. Comity “is the
recognition which one nation allows within its
territory to the legislative, executive or judicial acts
of another nation, having due regard both to
international duty and convenience, and to the
rights of its own citizens or of other persons who are
under the protection of its laws.” Maxwell II, 93 F.3d
at 1046 (quoting Hilton v. Guyot, 159 U.S. 113, 163–
64, 16 S.Ct. 139, 40 L.Ed. 95 (1895)); see also id. at
1047 (noting that “international comity is a separate
notion
from
the
‘presumption
against
extraterritoriality,’ and may “preclude the
application” of an otherwise extraterritorial
statute”). Courts conducting a comity analysis must
engage in a choice-of-law analysis to determine
whether the application of U.S. law would be
reasonable under the circumstances, comparing the
interests of the United States and the relevant
foreign state. See id. at 1047–48.

178a
The Second Circuit has previously stated that
“[c]omity is especially important in the context of the
Bankruptcy Code.”
Id. at 1048.
The facts
underlying the instant proceeding illustrate why
this is so. As is the case with Fairfield Sentry and
Harley, many of the feeder funds are currently
involved in their own liquidation proceedings in
their home countries. These foreign jurisdictions
have their own rules concerning on what bases the
recipient of a transfer from a debtor should be
required to disgorge it. See, e.g., In re Fairfield
Sentry Ltd. Litig., 458 B.R. 665, 672 (S.D.N.Y.2011)
(noting that the foreign representative of Fairfield
Sentry’s estate had filed against its investors
“statutory claims under BVI law for ‘unfair
preferences’ and ‘undervalue transactions’ ”).
Indeed, the BVI courts have already determined
that Fairfield Sentry could not reclaim transfers
made to its customers under certain common-law
theories—a determination in conflict with what the
Trustee seeks to accomplish here. See Decl. of Marco
E. Schnabl dated July 13, 2012, Ex. C., No. 12 Misc.
115, ECF No. 236 (S.D.N.Y. filed July 13, 2012).
The Trustee is seeking to use SIPA to reach
around such foreign liquidations in order to make
claims to assets on behalf of the SIPA
customer-property estate—a specialized estate
created solely by a U.S. statute, with which the
defendants here have no direct relationship.
Without any agreement to the contrary (which the
Trustee does not suggest exists), investors in these
foreign funds had no reason to expect that U.S. law
would apply to their relationships with the feeder

179a
funds. Cf. Maxwell II, 93 F.3d at 1051 (finding that,
for purposes of the comity analysis, “England has a
much closer connection to these disputes than does
the United States” where the transfer occurred in
England and “English law applied to the resolution
of disputes arising under” the credit agreements
under which the relevant transfers were made).
Given the indirect relationship between Madoff
Securities and the transfers at issue here, these
foreign jurisdictions have a greater interest in
applying their own laws than does the United
States. Accordingly, as the Second Circuit found in
Maxwell II, “the interests of the affected forums and
the mutual interest of all nations in smoothly
functioning international law counsel against the
application of United States law in the present case.”
Id. at 1053.
In sum, the Court finds that section 550(a) does
not apply extraterritorially to allow for the recovery
of subsequent transfers received abroad by a foreign
transferee from a foreign transferor. Therefore, the
Trustee’s recovery claims are dismissed to the extent
that they seek to recover purely foreign transfers.4
4

The Trustee argues that dismissal at this stage is
inappropriate because additional fact-gathering is necessary to
determine where the transfers took place. However, it is the
Trustee’s obligation to allege “facts giving rise to the plausible
inference that” the transfer occurred “within the United
States.” Absolute Activist Value Master Fund Ltd. v. Ficeto,
677 F.3d 60, 69 (2d Cir.2012). Here, to the extent that the
Trustee’s complaints allege that both the transferor and the
transferee reside outside of the United States, there is no
plausible inference that the transfer occurred domestically.

180a
Except to the extent provided in other orders, the
Court directs that the following adversary
proceedings be returned to the Bankruptcy Court for
further proceedings consistent with this Opinion
and Order: (1) those cases listed in Exhibit A of item
number 167 on the docket of 12–mc–115; and
(2) those cases listed in the schedule attached to
item number 468 on the docket of 12–mc–115 that
were designated as having been added to the
“extraterritoriality” consolidated briefing.
SO ORDERED
Dated: New York, NY
July 6, 2014
s/ Jed S. Rakoff
JED S. RAKOFF, U.S.D.J.

Therefore, unless the Trustee can put forth specific facts
suggesting a domestic transfer, his recovery actions seeking
foreign transfers should be dismissed.

181a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
_______________
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 3rd day of
April, two thousand nineteen.
ORDER
Docket Nos. 172992(L),
172995, 172996,
173005, 173006,
173010, 173011,
173016, 173018,
173023, 173024,
173032, 173033,
173039, 173040,
173044, 173047,
173058, 173059,
173065, 173066,
173070, 173071,
173075, 173076,
173083, 173084,
173091, 173100,
173109, 173112,
173122, 173126,
173136, 173139,
173144, 173862.

172999,
173007,
173012,
173019,
173025,
173034,
173041,
173050,
173060,
173067,
173072,
173077,
173086,
173101,
173113,
173129,
173140,

173003,
173008,
173013,
173020,
173026,
173035,
173042,
173054,
173062,
173068,
173073,
173078,
173087,
173102,
173115,
173132,
173141,

173004,
173009,
173014,
173021,
173029,
173038,
173043,
173057,
173064,
173069,
173074,
173080,
173088,
173106,
173117,
173134,
173143,

182a
IN RE: IRVING H. PICARD, TRUSTEE FOR THE
LIQUIDATION OF BERNARD L. MADOFF
INVESTMENT SECURITIES LLC
Appellees filed a petition for panel rehearing, or,
in the alternative, for rehearing en banc. The panel
that determined the appeal has considered the
request for panel rehearing, and the active members
of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O'Hagan Wolfe,
Clerk

183a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 23rd day of
April, two thousand and nineteen.
Before:

Dennis Jacobs,
Rosemary S. Pooler,
Richard C. Wesley,

Circuit Judges.
In Re: Irving H. Picard, Trustee for the
Liquidation of Bernard L. Madoff Investment
Securities LLC.
ORDER
Docket Nos. 17-2992 (L),
172995,
173005,
173010,
173016,
173023,
173032,
173039,
173044,
173058,
173065,

172996,
173006,
173011,
173018,
173024,
173033,
173040,
173047,
173059,
173066,

172999,
173007,
173012,
173019,
173025,
173034,
173041,
173050,
173060,
173067,

173003,
173008,
173013,
173020,
173026,
173035,
173042,
173054,
173062,
173068,

173004,
173009,
173014,
173021,
173029,
173038,
173043,
173057,
173064,
173069,

184a
173070, 173071,
173075, 173076,
173083, 173084,
173091, 173100,
173109, 173112,
173122, 173126,
173136, 173139,
173144, 173862

173072,
173077,
173086,
173101,
173113,
173129,
173140,

173073,
173078,
173087,
173102,
173115,
173132,
173141,

173074,
173080,
173088,
173106,
173117,
173134,
173143,

Defendants-Appellees move for a stay of the
mandate pending the disposition of their impending
petition for writ of certiorari.
IT IS HEREBY ORDERED that the motion to
stay the mandate is GRANTED.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

185a
APPENDIX F
APPENDIX OF PETITIONERS
Case Noo.

Moving Parties

Moving
Attorneys

1.17-2992

Banque
Lombard Odier
& Cie SA, FKA
Lombard Odier
Darier Hentsch
& Cie

John F. Zulack,
Esq.,
Allegaert
Berger & Vogel
LLP
111 Broadway,
20th Floor
New York, New
York 10006

2.17-2995

Union
Securities
Investment
Trust Co., Ltd.

Malani J.
Cademartori,
Esq.,
Direct:
212-653-8700
Sheppard,
Mullin, Richter
& Hampton
LLP
30 Rockefeller
Plaza
New York, NY
10112

3.17-2995

Union USD
Global
Arbitrage Fund

Malani J.
Cademartori,
Esq.

186a
4.17-2995

Union USD
Global
Arbitrage A
Fund

Malani J.
Cademartori,
Esq.

5.17-2995

Union Arbitrage
Strategy Fund

Malani J.
Cademartori,
Esq.

6.17-2996

Banque
Cantonale
Vaudoise

John F. Zulack,
Esq.,
Allegaert
Berger & Vogel
LLP
111 Broadway,
20th Floor
New York, New
York 10006

7.17-2999

Grosvenor
Investment
Management
Ltd.

Russell T.
Gorkin, Esq.,
Proskauer Rose
LLP
11 Times
Square
New York, NY
10036
Gregg M.
Mashberg,
Esq., Partner
Proskauer Rose
LLP

187a
11 Times
Square
New York, NY
10036
8.17-2999

9.17-2999

10.17-2999

11.17-3003

Grosvenor
Aggressive
Growth Fund
Limited

Russell T.
Gorkin, Esq.

Grosvenor
Balanced
Growth Fund
Limited

Russell T.
Gorkin, Esq.

Grosvenor
Private Reserve
Fund Limited

Russell T.
Gorkin, Esq.

BSI AG,
individually and
as successor in
interest to
Banco Del
Gottardo

David
Farrington
Yates, Esq.,
Direct:
212-488-1211
Kobre & Kim
LLP
6th Floor

Gregg M.
Mashberg,
Esq., Partner

Gregg M.
Mashberg,
Esq., Partner

Gregg M.
Mashberg,
Esq., Partner

188a
800 3rd Avenue
New York, NY
10022
Adam Lavine,
Esq.,
Direct:
212-488-1279
Kobre & Kim
LLP
6th Floor
800 3rd Avenue
New York, NY
10022
12.17-3004

First Gulf Bank

George M.
Chalos,
Direct:
516-721-4076
Chalos & Co.,
P.C.
55 Hamilton
Avenue
Oyster Bay, NY
11771
Briton Paul
Sparkman,
Attorney
Direct:
713-574-9454
Chalos & Co.,
P.C.

189a
7210 Tickner
Street
Houston, TX
77055
13.17-3005

Parson Finance
Panama S.A.

Eugene F.
Getty, Esq.,
Direct:
212-889-2821
Kellner Herlihy
Getty &
Friedman LLP
470 Park
Avenue South,
7N
New York, NY
10016

14.17-3006

Delta National
Bank and Trust
Company

Lawrence Joel
Kotler, Esq.,
Direct:
215-979-1514
Duane Morris
LLP
1540 Broadway
New York, NY
10036

15.17-3007

Unifortune
Asset
Management
SGR SPA

Richard B.
Levin, Esq.,
Jenner & Block
LLP
919 3rd Avenue

190a
New York, NY
10022
Carl Nicholas
Wedoff, Esq.,
Direct:
212-891-1653
Jenner & Block
LLP
919 3rd Avenue
New York, NY
10022
16.17-3007

Unifortune
Conservative
Fund

Richard B.
Levin, Esq.

17.17-3008

National Bank
of Kuwait SAK

Richard A.
Cirillo, Esq.,
King &
Spalding LLP
1185 Avenue of
the Americas
New York, NY
10036

18.17-3009

Natixis S.A. (in
its own capacity
and as
successor-in-int
erest to IXIS
Corporate &

Bruce M.
Ginsberg, Esq.,
Direct:
212-468-4820
Davis & Gilbert
LLP

Carl Nicholas
Wedoff, Esq.

191a
Investment
Bank)

1740 Broadway
New York, NY
10019
H. Seiji
Newman, Esq.,
Direct:
212-468-4904
Davis & Gilbert
LLP
1740 Broadway
New York, NY
10019

19.17-3009

20.17-3009

Natixis
Financial
Products LLC
(as
successor-in-int
erest to Natixis
Financial
Products Inc.)

Bruce M.
Ginsberg, Esq.

Bloom Asset
Holdings Fund

Bruce M.
Ginsberg, Esq.

H. Seiji
Newman, Esq.

H. Seiji
Newman, Esq.
21.17-3009

Tensyr Limited

Timothy P.
Harkness, Esq.,
Direct:
212-277-4000

192a
Freshfields
Bruckhaus
Deringer US
LLP
31st Floor
601 Lexington
Avenue
New York, NY
10022
David Y.
Livshiz, Esq.,
Direct:
212-277-4000
Freshfields
Bruckhaus
Deringer US
LLP
31st Floor
601 Lexington
Avenue
New York, NY
10022
22.17-3010

Cathay Life
Insurance Co.
Ltd.

Scott D.
Lawrence,
Esq.,
Direct:
214-720-4300
Akerman LLP
Suite 3600
2001 Ross
Avenue

193a
Dallas, TX
75201
David W.
Parham, Esq.,
Direct:
214-720-4345
Akerman LLP
Suite 3600
2001 Ross
Avenue
Dallas, TX
75201
23.17-3011

Barclays Bank
(Suisse) S.A.

Marc J.
Gottridge,
Esq., Direct:
212-909-0643
[COR NTC
Retained]
Hogan Lovells
US LLP
875 3rd Avenue
New York, NY
10022
Andrew M.
Harris, Esq.
Direct:
212-918-5712
Hogan Lovells
US LLP

194a
875 Third
Avenue
New York, NY
10022
24.17-3011

Barclays Bank
S.A.

Marc J.
Gottridge, Esq.
Andrew M.
Harris, Esq.

25.17-3011

26.17-3012

Barclays
Private Bank &
Trust Limited

Marc J.
Gottridge, Esq.

Arden Asset
Management
LLC

M. William
Munno, Esq.,
Attorney
Direct:
212-574-1200
Seward &
Kissel LLP
1 Battery Park
Plaza
New York, NY
10004

Andrew M.
Harris, Esq.

Michael
Benjamin
Weitman, Esq.,
Direct:
516-414-8015

195a
Westerman
Ball Ederer
Mill Zucker &
Sharfstein
1201 RXR
Plaza
Uniondale, NY
11556
27.17-3012

28.17-3012

29.17-3013

Arden Asset
Management
Inc.

M. William
Munno, Esq.

Arden
Endowment
Advisers, Ltd.

M. William
Munno, Esq.

Royal Bank of
Canada

Mark Thomas
Ciani, Esq.,
Direct:
212-940-8800
Katten Muchin
Rosenman LLP
575 Madison
Avenue
New York, NY
10022

Michael
Benjamin
Weitman, Esq.

Michael
Benjamin
Weitman, Esq.

196a
Anthony L.
Paccione, Esq.,
Katten Muchin
Rosenman LLP
575 Madison
Avenue
New York, NY
10022
30.17-3013

Guernroy
Limited

Mark Thomas
Ciani, Esq.
Anthony L.
Paccione, Esq.
Mark Thomas
Ciani, Esq.

31.17-3013

Royal Bank of
Canada
(Channel
Islands) Limited Anthony L.
Paccione, Esq.

32.17-3013

Royal Bank of
Canada
Singapore
Branch

Mark Thomas
Ciani, Esq.

Royal Bank of
Canada (Suisse)
S.A.

Mark Thomas
Ciani, Esq.

RBC Dominion
Securities Inc.

Mark Thomas
Ciani, Esq.

33.17-3013

34.17-3013

Anthony L.
Paccione, Esq.

Anthony L.
Paccione, Esq.

197a
Anthony L.
Paccione, Esq.
35.17-3013

36.17-3014

Royal Bank of
Canada Trust
Company
(Jersey) Limited

Mark Thomas
Ciani, Esq.

SNS Bank N.V.

Charles C.
Platt,
Direct:
212-230-8860
Wilmer Cutler
Pickering Hale
and Dorr LLP
7 World Trade
Center
250 Greenwich
Street
New York, NY
10007

Anthony L.
Paccione, Esq.

Andrea J.
Robinson, Esq.,
Direct:
617-526-6360
Wilmer Cutler
Pickering Hale
and Dorr LLP
60 State Street
Boston, MA
02109

198a
George W.
Shuster, Jr.,
Esq.,
Direct:
212-937-7232
Wilmer Cutler
Pickering Hale
and Dorr LLP
7 World Trade
Center
250 Greenwich
Street
New York, NY
10007
37.17-3014

SNS Global
Custody B.V.

Charles C.
Platt
Andrea J.
Robinson, Esq.
George W.
Shuster, Jr.,
Esq.

38.17-3016

Koch Industries,
Inc., as
successor in
interest to Koch
Investment
(UK) Company

Jonathan P.
Guy, Esq.,
Direct:
202-339-8516
Orrick,
Herrington &
Sutcliffe LLP

199a
1152 15th
Street, NW
Washington,
DC 20005
39.17-3018

Kookmin Bank

Richard A.
Cirillo, Esq.,
King &
Spalding LLP
1185 Avenue of
the Americas
New York, NY
10036

40.17-3019

Bank Julius
Baer & Co., Ltd.

Eric Brian
Halper, Esq.,
Direct:
212-402-9413
McKool Smith,
PC
47th Floor
1 Bryant Park
New York, NY
10036
Virginia
Weber, Esq.,
Direct:
212-402-9417
McKool Smith,
PC
47th Floor
1 Bryant Park

200a
New York, NY
10036
41.17-3020

Six Sis AG

Andreas A.
Frischknecht,
Esq.
Direct:
212-257-6960
Chaffetz
Lindsey LLP
33rd Floor
1700 Broadway
New York, NY
10019
Erin Valentine,
Esq.,
Direct:
212-257-6960
Chaffetz
Lindsey LLP
33rd Floor 1700
Broadway
New York, NY
10019

42.17-3021

Trincastar
Corporation

Richard B.
Levin, Esq.,
Jenner & Block
LLP
919 3rd Avenue
New York, NY
10022

201a
Carl Nicholas
Wedoff, Esq.,
Direct:
212-891-1653
Jenner & Block
LLP
919 3rd Avenue
New York, NY
10022
43.17-3023

Schroder & Co.
Bank AG

Martin. J Crisp
Direct:
212-596-9000
Ropes & Gray
LLP
1211 Avenue of
the Americas
New York, NY
10036

44.17-3024

Bureau of Labor
Insurance

Jennifer
Fiorica Delgado
Direct:
646-414-6962
Lowenstein
Sandler LLP
18th Floor
1251 Avenue of
the Americas
New York, NY
10020
Zachary
Rosenbaum,

202a
Direct:
212-204-8690
Lowenstein
Sandler LLP
1251 Avenue of
the Americas
New York, NY
10020
45.17-3025

Caceis Bank,
Luxembourg
Branch

Daniel
Schimmel,
Esq.,
Direct:
646-927-5500
Foley Hoag
LLP
1301 Avenue of
the Americas,
25th Floor
New York, NY
10019

46.17-3025

Caceis Bank

Daniel
Schimmel, Esq.

47.17-3026

CA Indosuez
(Switzerland)
S.A., f/k/a
Crédit Agricole
(Suisse) S.A.

Elizabeth
Vicens,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

203a
48.17-3026

Crédit Agricole
S.A.

Elizabeth
Vicens
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

49.17-3029

Solon Capital,
Ltd., c/o
Appleby
Corporate
Services
(Bermuda)
Canons Court
22 Victoria
Street Hamilton
HM 12
Bermuda

William J.
Sushon, Esq.,
O'Melveny &
Myers LLP
Times Square
Tower
7 Times Square
New York, NY
10036

50.17-3032

Quilvest
Finance Ltd.

Thomas E.
Lynch, Esq.
Direct:
212-326-3939
Jones Day
250 Vesey
Street
New York, NY
10281

51.17-3033

Lloyds TSB
Bank PLC

Mark Thomas
Ciani, Esq.,

204a
Direct:
212-940-8800
Katten Muchin
Rosenman LLP
575 Madison
Avenue
New York, NY
10022
Anthony L.
Paccione, Esq.,
Katten Muchin
Rosenman LLP
575 Madison
Avenue
New York, NY
10022
52.17-3034

Atlantic
Security Bank

Scott
Schreiber, Esq.,
Rosa J.
Evergreen,
Esq.
Direct:
202-942-5000
Arnold &
Porter Kaye
Scholer LLP
601
Massachusetts
Avenue, NW
Washington,
DC 20001

205a
53.17-3035

Orbita Capital
Return Strategy
Limited

Gary J.
Mennitt, Esq.,
Direct:
212-698-3831
Dechert LLP
27th Floor
Mailroom
1095 Avenue of
the Americas
New York, NY
10036

54.17-3038

The Sumitomo
Trust &
Banking Co.,
Ltd.

Michael Zeb
Landsman,
Esq.,
Direct:
212-888-3033
Becker, Glynn,
Muffly,
Chassin &
Hosinski LLP
16th Floor
299 Park
Avenue
New York, NY
10171
Jordan E.
Stern, Esq.,
Direct:
212-888-3033
Becker, Glynn,
Muffly,

206a
Chassin &
Hosinski LLP
16th Floor
299 Park
Avenue
New York, NY
10171
55.17-3039

Zephyros
Limited

William J.
Sushon, Esq.,
O'Melveny &
Myers LLP
Times Square
Tower
7 Times Square
New York, NY
10036

56.17-3040

Merrill Lynch
Bank (Suisse)
S.A.

Pamela A.
Miller, Esq.,
Direct:
212-326-2088
O'Melveny &
Myers LLP
Times Square
Tower
7 Times Square
New York, NY
10036

57.17-3041

Northern Trust
Corporation, 50
LaSalle Street

Mark Thomas
Ciani, Esq.,
Direct:
212-940-8800

207a
Chicago, IL
60603

Katten Muchin
Rosenman LLP
575 Madison
Avenue
New York, NY
10022
Anthony L.
Paccione, Esq.,
Katten Muchin
Rosenman LLP
575 Madison
Avenue
New York, NY
10022

58.17-3041

59.17-3042

Barfield
Nominees
Limited,
Trafalgar Court
Les Baques St.
Peters Port
Guernsey
United Kingdom

Mark Thomas
Ciani, Esq.

Crédit Agricole
Corporate and
Investment
Bank, 1301
Avenue of the
Americas New
York, NY 10019,
d/b/a Crédit
Agricole Private

Elizabeth
Vicens,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

Anthony L.
Paccione, Esq.

208a
Banking Miami,
f/k/a Calyon
S.A., d/b/a
Crédit Agricole
Miami Private
Bank, Successor
in Interest to
Crédit Lyonnais
S.A.
60.17-3043

Korea Exchange
Bank,
Individually
And As Trustee
For Korea
Global All Asset
Trust I-1, And
For Tams
Rainbow Trust
III

Richard A.
Cirillo, Esq.,
King &
Spalding LLP
1185 Avenue of
the Americas
New York, NY
10036

61.17-3043

Korea
Investment
Trust
Management
Company

John D.
Giampolo, Esq.,
Direct:
212-382-3300
Wollmuth
Maher &
Deutsch LLP
500 5th Avenue
New York, NY
10110

209a
62.17-3044

Nomura
International
plc

Brian H.
Polovoy, Esq.,
Shearman &
Sterling LLP
599 Lexington
Avenue
New York, NY
10022
Randall L.
Martin, Esq.,
Shearman &
Sterling LLP
599 Lexington
Avenue
New York, NY
10022

63.17-3047

Societe
Generale
Private Banking
(Suisse) S.A.,
FKA SG Private
Banking Suisse
S.A.

64.17-3047

Societe
Generale
Private Banking
(Lugano-Svizzer
a) S.A., FKA SG
Private Banking

John F. Zulack,
Esq.,
Allegaert
Berger & Vogel
LLP
111 Broadway,
20th Floor
New York, New
York 10006
John F. Zulack,
Esq.

210a
(Lugano-Svizzer
a) S.A.
65.17-3047

Socgen
Nominees (UK)
Limited

John F. Zulack,
Esq.

66.17-3047

Lyxor Asset
Management
S.A., as
Successor in
Interest to
Barep Asset
Management
S.A.

John F. Zulack,
Esq.

67.17-3047

Societe
Generale
Holding De
Participations
S.A., as
Successor in
Interest to
Barep Asset
Management
S.A

John F. Zulack,
Esq.

68.17-3047

SG AM AI
Premium Fund
L.P., FKA SG
AM Alternative
Diversified U.S.
L.P.

John F. Zulack,
Esq.

211a
69.17-3047

Lyxor Asset
John F. Zulack,
Management
Esq.
Inc., as General
Partner of SG
AM AI Premium
Fund L.P., FKA
SGAM Asset
Management,
Inc.

70.17-3047

SG Audace
Alternatif, FKA
SGAM AI
Audace
Alternatif

John F. Zulack,
Esq.

71.17-3047

SGAM AI
Equilibrium
Fund, FKA
SGAM
Alternative
Multi Manager
Diversified
Fund

John F. Zulack,
Esq.

72.17-3047

Lyxor Premium
Fund, FKA
SGAM
Alternative
Diversified
Premium Fund

John F. Zulack,
Esq.

73.17-3047

Societe
Generale, S.A.,

John F. Zulack,
Esq.

212a
as Trustee for
Lyxor Premium
Fund
74.17-3047

Societe
Generale Bank
& Trust S.A.

John F. Zulack,
Esq.

75.17-3047

OFI MGA Alpha
Palmares, FKA
Oval Alpha
Palmares

Brian J. Butler,
Esq.,
Direct:
315-218-8000
Bond,
Schoeneck &
King, PLLC
1 Lincoln
Center
110 West
Fayette Street
Syracuse, NY
13202

76.17-3047

Oval Palmares
Europlus

Brian J. Butler,
Esq.

77.17-3047

UMR Select
Alternatif

Brian J. Butler,
Esq.

78.17-3047

Bank Audi
S.A.M.-Audi
Saradar Group,
FKA Dresdner
Bank Monaco
S.A.M.

Gary J.
Mennitt, Esq.,
Direct:
212-698-3831
Dechert LLP

213a
27th Floor
Mailroom
1095 Avenue of
the Americas
New York, NY
10036
79.17-3050

Intesa Sanpaolo
S.p.A., as
Successor in
Interest to
Banca Intesa
SpA 1 William
Street New
York, NY 10004

Andrew
Ditchfield,
Direct:
212-450-3009
Davis Polk &
Wardwell LLP
450 Lexington
Avenue
New York, NY
10017
Elliot
Moskowitz,
Esq.,
Direct:
212-450-4241
Davis Polk &
Wardwell LLP
450 Lexington
Avenue
New York, NY
10017

80.17-3050

Eurizon Capital
SGR S.p.A.,
Eurizon Capital
SGR SpA (as

Andrew
Ditchfield

214a

81.17-3050

82.17-3050

Successor in
Interest to
Eurizon
Investimenti
SGR SpA, f/k/a
Nextra
Investment
Management
SGR SpA, and
Eurizon
Alternative
Investments
SGR Spa, f/k/a
Nextra
Alternative Inv
Piazzatte
Giordano
Dell'Amore 3
20121 Milan
Italy

Elliot
Moskowitz,
Esq.

Eurizon Low
Volatility,
Piazzetta
Giordano
Dell'Amore 3 c/o
Eurizon Capital
SGR SpA 20121
Milan Italy,
FKA Nextra
Low Volatility

Andrew
Ditchfield

Eurizon Low
Volatility II,

Andrew
Ditchfield

Elliot
Moskowitz,
Esq.

215a
Piazzetta
Giordano
Elliot
Dell'Amore 3 c/o Moskowitz,
Eurizon Capital Esq.
SGR SpA 20121
Milan Italy,
FKA Nextra
Low Volatility II
83.17-3050

84.17-3050

Eurizon Low
Volatility PB,
Piazzetta
Giordano
Dell'Amore 3 c/o
Eurizon Capital
SGR SpA 20121
Milan Italy,
FKA Nextra
Low Volatility
PB

Andrew
Ditchfield

Eurizon
Medium
Volatility,
Piazzetta
Giordano
Dell'Amore 3 c/o
Eurizon Capital
SGR SpA 20121
Milan Italy,
FKA Nextra
Medium
Volatility

Andrew
Ditchfield

Elliot
Moskowitz,
Esq.

Elliot
Moskowitz,
Esq.

216a
85.17-3050

86.17-3050

87.17-3054

Eurizon
Medium
Volatility II,
Piazzetta
Giordano
Dell'Amore 3 c/o
Eurizon Capital
SGR SpA 20121
Milan Italy,
FKA Nextra
Medium
Volatility II

Andrew
Ditchfield

Eurizon Total
Return,
Piazzetta
Giordano
Dell'Amore 3 c/o
Eurizon Capital
SGR SpA 20121
Milan Italy,
FKA Nextra
Total Return

Andrew
Ditchfield

Itau Europa
Luxembourg,
S.A., f/k/a Banco
Itau Europa
Luxembourg,
S.A.

Brian H.
Polovoy, Esq.,
Shearman &
Sterling LLP
599 Lexington
Avenue
New York, NY
10022

Elliot
Moskowitz,
Esq.

Elliot
Moskowitz,
Esq.

217a
Randall L.
Martin, Esq.,
Shearman &
Sterling LLP
599 Lexington
Avenue
New York, NY
10022
88.17-3054

Banco Itaú
International,
f/k/a Banco Itaú
Europa
International

Brian H.
Polovoy, Esq.
Randall L.
Martin, Esq.

89.17-3057

UBS AG

Gabriel
Herrmann,
Esq.,
Gibson, Dunn
& Crutcher
LLP
200 Park
Avenue
New York, NY
10166
Marshall R.
King, Esq.,
Attorney
Gibson, Dunn
& Crutcher
LLP

218a
200 Park
Avenue
New York, NY
10166
90.17-3057

UBS
(Luxembourg)
SA

Gabriel
Herrmann,
Esq.,
Gibson, Dunn
& Crutcher
LLP
200 Park
Avenue
New York, NY
10166
Marshall R.
King, Esq.,
Attorney
Gibson, Dunn
& Crutcher
LLP
200 Park
Avenue
New York, NY
10166

91.17-3057

UBS Fund
Services
(Luxembourg)
S.A.

Gabriel
Herrmann,
Esq.

219a
Marshall R.
King, Esq.,
Attorney
92.17-3057

UBS Third
Party
Management
Company S.A.

Gabriel
Herrmann,
Esq.
Marshall R.
King, Esq.,
Attorney

93.17-3057

Access
International
Advisors Ltd.

Brian Lee
Muldrew, Esq.,
Direct:
212-940-6581
Katten Muchin
Rosenman LLP
Suite 1422
575 Madison
Avenue
New York, NY
10022
Anthony L.
Paccione, Esq.,
Katten Muchin
Rosenman LLP
575 Madison
Avenue
New York, NY
10022

220a
94.17-3057

95.17-3057

96.17-3057

Access
Management
Luxembourg
SA, FKA Access
International
Advisors
Luxembourg
SA, as
represented by
its Liquidator
Maitre
Ferdinand
Entringer

Brian Lee
Muldrew, Esq.

Access Partners
SA, as
represented by
its Liqudator
Maitre
Ferdinand
Entringer

Brian Lee
Muldrew, Esq.

Patrick Littaye

Anthony L.
Paccione, Esq.

Anthony L.
Paccione, Esq.

Anthony L.
Paccione, Esq.

Brian Lee
Muldrew, Esq.
97.17-3057

Pierre
Delandmeter

Scott Berman,
Direct:
212-833-1100
Friedman
Kaplan Seiler

221a
& Adelman
LLP
7 Times Square
New York, NY
10036
98.17-3058

Banque
Internationale à
Luxembourg
S.A.,
individually and
as successor in
interest to
Dexia Nordic
Private Bank
S.A., FKA Dexia
Banque
Internationale a
Luxembourg
S.A.

Jeff Edward
Butler, Esq.,
Clifford Chance
US LLP
31 West 52nd
Street
New York, NY
10019

99.17-3058

RBC Dexia
Investor
Services Bank
S.A.

Mark Thomas
Ciani, Esq.,
Direct:
212-940-8800
Katten Muchin
Rosenman LLP
575 Madison
Avenue
New York, NY
10022
Anthony L.
Paccione, Esq.,

222a
Katten Muchin
Rosenman LLP
575 Madison
Avenue
New York, NY
10022
100.17-3058

RBC Dexia
Investor
Services Espana
S.A.

Mark Thomas
Ciani, Esq.

101.17-3058

Banque
Internationale a
Luxembourg
(Suisse) S.A.,
FKA Dexia
Private Bank
(Switzerland)
Ltd.

Jeff Edward
Butler, Esq.

102.17-3059

Abu Dhabi
Investment
Authority

Marc
Greenwald,
Direct:
212-849-7140
Quinn
Emanuel
Urquhart &
Sullivan, LLP
22nd Floor
51 Madison
Avenue

Anthony L.
Paccione, Esq.

223a
New York, NY
10010
Eric Mark Kay,
Esq.,
Direct:
212-849-7273
Quinn
Emanuel
Urquhart &
Sullivan, LLP
22nd Floor
51 Madison
Avenue
New York, NY
10010
103.17-3060

Dakota Global
Investments,
Ltd.

Jeff Edward
Butler, Esq.,
Clifford Chance
US LLP
31 West 52nd
Street
New York, NY
10019

104.17-3062

HSBC Bank plc

Thomas J.
Moloney,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza

224a
New York, NY
10006
105.17-3062

HSBC
Securities
Services
(Luxembourg)
SA (also sued as
HSBC Fund
Services
(Luxembourg)
S.A.)

Thomas J.
Moloney

106.17-3062

HSBC Bank
Bermuda
Limited

Thomas J.
Moloney

107.17-3062

HSBC Private
Bank (Suisse)
S.A.

Thomas J.
Moloney

108.17-3062

HSBC Private
Banking
Holdings
(Suisse) S.A.

Thomas J.
Moloney

109.17-3062

HSBC Cayman
Thomas J.
Services
Moloney
Limited (sued as
HSBC Bank
(Cayman)
Limited)

225a
110.17-3062

HSBC
Securities
Services
(Bermuda)
Limited

Thomas J.
Moloney

111.17-3062

HSBC Bank
USA, N.A.

Thomas J.
Moloney

112.17-3062

HSBC
Institutional
Trust Services
(Bermuda)
Limited

Thomas J.
Moloney

113.17-3062

HSBC
Securities
Services
(Ireland)
Designated
Activity
Company (sued
as HSBC
Security
Services
(Ireland)
Limited)

Thomas J.
Moloney

114.17-3062

HSBC France,
Dublin Branch
(sued as HSBC
Institutional
Trust Services

Thomas J.
Moloney

226a
(Ireland)
Limited)
115.17-3062

HSBC Holdings
plc

Thomas J.
Moloney

116.17-3062

BA Worldwide
Fund
Management
Limited

Franklin B.
Velie, Esq.,
Direct:
212-484-9866
Pierce
Bainbridge
Beck Price &
Hecht LLP
277 Park Ave,
45th Floor
New York, NY
10172
Jonathan G.
Kortmansky,
Esq.,
Direct:
212-484-9866
Pierce
Bainbridge
Beck Price &
Hecht LLP
277 Park Ave,
45th Floor
New York, NY
10172

227a
117.17-3064

SICO Limited

Thomas J.
Moloney,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

118.17-3065

ABN AMRO
Retained
Nominees (IOM)
Limited

Christopher R.
Harris, Esq.
Latham &
Watkins LLP
Direct:
212-906-1200
885 3rd Avenue
New York, NY
10022
Thomas Giblin,
Esq.,
Latham &
Watkins LLP
Direct:
212-906-1200
885 3rd Avenue
New York, NY
10022

119.17-3065

Platinum All
Weather Fund
Limited

Scott
Schreiber, Esq.,
Rosa J.
Evergreen,
Esq.

228a
Direct:
202-942-5000
Arnold &
Porter Kaye
Scholer LLP
601
Massachusetts
Avenue, NW
Washington,
DC 20001
120.17-3065

Odyssey

Ralph A.
Siciliano, Esq.,
Direct:
212-508-6718
Tannenbaum
Helpern
Syracuse &
Hirschtritt LLP
900 3rd Avenue
New York, NY
10022

121.17-3066

Fairfield
Investment
Fund Limited

William A.
Maher, Esq.
Wollmuth
Maher &
Deutsch LLP
500 5th Avenue
New York, NY
10110
Fletcher W.
Strong, Esq.

229a
Wollmuth
Maher &
Deutsch LLP
500 5th Avenue
New York, NY
10110
122.17-3066

Fairfield
Greenwich
Limited

Peter E.
Kazanoff, Esq.,
Direct:
212-455-3525
Simpson
Thacher &
Bartlett LLP
425 Lexington
Avenue
New York, NY
10017

123.17-3066

Fairfield
Greenwich
(Bermuda)
Limited

Peter E.
Kazanoff, Esq.

124.17-3066

Fairfield
Greenwich
Advisors LLC

Peter E.
Kazanoff, Esq.

125.17-3066

Fairfield
International
Managers, Inc.

Peter E.
Kazanoff, Esq.

126.17-3066

Walter Noel

Andrew
Hammond,

230a
Direct:
212-819-8297
White & Case
LLP
1221 Avenue of
the Americas
New York, NY
10020
127.17-3066

Jeffrey Tucker

Daniel Jeffrey
Fetterman,
Esq.,
Direct:
212-506-1700
Kasowitz
Benson Torres
LLP
1633 Broadway
New York, NY
10019
David Mark,
Attorney
Direct:
212-506-1700
Kasowitz
Benson Torres
LLP
1633 Broadway
New York, NY
10019

128.17-3066

Andres
Piedrahita

Andrew Joshua
Levander, Esq.,

231a
Direct:
212-698-3683
Dechert LLP
1095 Avenue of
the Americas
New York, NY
10036
Neil A. Steiner,
Esq.,
Direct:
212-698-3671
Dechert LLP
27th Floor
Mailroom
1095 Avenue of
the Americas
New York, NY
10036
129.17-3066

Amit
Vijayvergiya

Peter E.
Kazanoff, Esq.

130.17-3066

Philip Toub

Peter E.
Kazanoff, Esq.

131.17-3066

Corina Noel
Piedrahita

Peter E.
Kazanoff, Esq.

132.17-3067

Falcon Private
Bank Ltd., FKA
AIG Privat
Bank AG

Eric Xinis
Fishman, Esq.,
Direct:
212-858-1745

232a
Pillsbury
Winthrop Shaw
Pittman LLP
31 West 52nd
Street
New York, NY
10019-6131
133.17-3068

Bank Vontobel
AG, FKA Bank
J. Vontobel &
Co. AG

Gregory F.
Hauser, Esq.,
Direct:
212-509-4717
Wuersch &
Gering LLP
10th Floor
100 Wall Street
New York, NY
10005

134.17-3068

Vontobel Asset
Management
Inc.

Gregory F.
Hauser, Esq.

135.17-3069

BNP Paribas
Arbitrage SNC

Breon S. Peace,
Esq.,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

233a
Ari D.
MacKinnon,
Esq.,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
Thomas S.
Kessler, Esq.
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
136.17-3070

SafeHand
Investments

Carl H.
Loewenson, Jr.,
Esq.,
Direct:
212-468-8128
Morrison &
Foerster LLP
250 West 55th
Street
New York, NY
10019
Gerardo Gomez
Galvis, Esq.,

234a
Direct:
212-336-4051
Morrison &
Foerster LLP
250 West 55th
Street
New York, NY
10019
137.17-3070

Strongback
Holdings
Corporation

Carl H.
Loewenson, Jr.,
Esq.
Gerardo Gomez
Galvis, Esq.

138.17-3070

139.17-3071

PF Trustees
Limited, in its
capacity as
trustee of RD
Trust

Carl H.
Loewenson, Jr.,
Esq.

Meritz Fire &
Marine
Insurance Co.,
Ltd.

Michael T.
Driscoll, Esq.,
Direct:
212-653-8700
Sheppard,
Mullin, Richter
& Hampton
LLP
30 Rockefeller
Plaza

Gerardo Gomez
Galvis, Esq.

235a
New York, NY
10112
Seong Hwan
Kim, Esq.,
Direct:
310-228-3700
Sheppard,
Mullin, Richter
& Hampton
LLP
16th Floor
1901 Avenue of
the Stars
Los Angeles,
CA 90067
140.17-3072

Bank Hapoalim
B.M.

Scott Balber,
Esq.,
Direct:
917-542-7810
Herbert Smith
Freehills New
York, LLP
14th Floor
450 Lexington
Avenue
New York, NY
10017
Jonathan C.
Cross, Esq.,

236a
Direct:
917-542-7600
Herbert Smith
Freehills New
York, LLP
14th Floor
450 Lexington
Avenue
New York, NY
10017
141.17-3072

142.17-3073

Hapoalim
(Switzerland)
Ltd.

Scott Balber,
Esq.

UKFP (Asia)
Nominees
Limited

Michael Evan
Rayfield, Esq.,
Direct:
212-506-2560
Mayer Brown
LLP
1221 Avenue of
the Americas
New York, NY
10020

Jonathan C.
Cross, Esq.

Brian Trust,
Esq.,
Direct:
212-506-2500
Mayer Brown
LLP

237a
1221 Avenue of
the Americas
New York, NY
10020
143.17-3074

Multi-Strategy
Fund Limited

Robert Joel
Lack,
Direct:
212-833-1108
Friedman
Kaplan Seiler
& Adelman
LLP
7 Times Square
New York, NY
10036

144.17-3074

CDP Capital
Tactical
Alternative
Investments

Robert Joel
Lack

145.17-3075

ZCM Asset
Holding
Company
(Bermuda) LLC

Jack G. Stern,
Esq.,
Direct:
212-446-2340
Boies Schiller
Flexner LLP
575 Lexington
Avenue
New York, NY
10022

238a
Alan B.
Vickery, Esq.,
Partner
Direct:
212-446-2300
Boies Schiller
Flexner LLP
7th Floor
575 Lexington
Avenue
New York, NY
10022
146.17-3076

Citibank
(Switzerland)
AG

E. Pascale Bibi,
Esq.,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
Carmine D.
Boccuzzi, Jr.,
Esq.,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

239a
Lauren M.
Irwin, Esq.
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
147.17-3077

Federico M.
Ceretti

Anthony
Antonelli, Esq.,
Direct:
212-318-6730
Paul Hastings
LLP
200 Park
Avenue
New York, NY
10166
Jodi Aileen
Kleinick, Esq.,
Direct:
212-318-6751
Paul Hastings
LLP
200 Park
Avenue
New York, NY
10166
Barry Gordon
Sher, Esq.

240a
Direct:
212-318-6085
Paul Hastings
LLP
200 Park
Avenue
New York, NY
10166
148.17-3077

Carlo Grosso

Anthony
Antonelli, Esq.
Jodi Aileen
Kleinick, Esq.

149.17-3077

FIM Advisers
LLP

Barry Gordon
Sher, Esq.
Anthony
Antonelli, Esq.
Jodi Aileen
Kleinick, Esq.
Barry Gordon
Sher, Esq.

150.17-3077

FIM Limited

Anthony
Antonelli, Esq.
Jodi Aileen
Kleinick, Esq.

241a
Barry Gordon
Sher, Esq.
151.17-3077

Citi Hedge Fund E. Pascale Bibi,
Services
Esq.,
Cleary Gottlieb
Limited
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
Carmine D.
Boccuzzi, Jr.,
Esq.,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
Lauren M.
Irwin, Esq.
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

152.17-3077

First Peninsula
Trustees
Limited,

Timothy P.
Harkness, Esq.,

242a
Individually and Direct:
as Trustee of
212-277-4000
the Ashby Trust Freshfields
Bruckhaus
Deringer US
LLP
31st Floor
601 Lexington
Avenue
New York, NY
10022
153.17-3077

The Ashby
Trust

Timothy P.
Harkness, Esq.

154.17-3077

Ashby
Investment
Services
Limited

Timothy P.
Harkness, Esq.

155.17-3077

Alpine Trustees Timothy P.
Harkness, Esq.
Limited,
Individually and
as Trustees of
the El Prela
Trust

156.17-3077

Port of Hercules Timothy P.
Harkness, Esq.
Trustees
Limited,
Individually and
as Trustee of

243a
the El Prela
Trust
157.17-3077

El Prela Trust

158.17-3077

El Prela Group
Holding
Services
Limited

159.17-3077

Ashby Holding
Services
Limited

Timothy P.
Harkness, Esq.

160.17-3077

El Prela
Trading
Investments
Limited

Timothy P.
Harkness, Esq.

161.17-3077

HSBC Bank
Bermuda
Limited

Thomas J.
Moloney,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

162.17-3077

Kingate
Management
Limited

Peter R.
Chaffetz, Esq.
Direct:
212-257-6960
Chaffetz
Lindsey LLP

Timothy P.
Harkness, Esq.
Timothy P.
Harkness, Esq.

244a
33rd Floor
1700 Broadway
New York, NY
10019
Erin Valentine,
Esq.,
Direct:
212-257-6960
Chaffetz
Lindsey LLP
33rd Floor
1700 Broadway
New York, NY
10019
163.17-3078

Banque SYZ SA

Richard B.
Levin, Esq.,
Jenner & Block
LLP
919 3rd Avenue
New York, NY
10022
Carl Nicholas
Wedoff, Esq.,
Direct:
212-891-1653
Jenner & Block
LLP
919 3rd Avenue
New York, NY
10022

245a
164.17-3080

Credit Suisse
AG

William J.
Sushon, Esq.,
O'Melveny &
Myers LLP
Times Square
Tower
7 Times Square
New York, NY
10036

165.17-3080

Credit Suisse
AG, Nassau
Branch

William J.
Sushon, Esq.

166.17-3080

Credit Suisse
AG, Nassau
Branch Wealth
Management

William J.
Sushon, Esq.

167.17-3080

Credit Suisse
AG, Nassau
Branch LATAM
Investment
Banking

William J.
Sushon, Esq.

168.17-3080

Credit Suisse
Wealth
Management
Limited

William J.
Sushon, Esq.

169.17-3080

Credit Suisse
(Luxembourg)
SA

William J.
Sushon, Esq.

246a
170.17-3080

Credit Suisse
International
Limited
Credit Suisse
Nominees
(Guernsey)
Limited

William J.
Sushon, Esq.

172.17-3080

Credit Suisse
London
Nominees
Limited

William J.
Sushon, Esq.

173.17-3080

Credit Suisse
(UK) Limited

William J.
Sushon, Esq.

174.17-3080

Credit Suisse
Securities
(USA) LLC

William J.
Sushon, Esq.

175.17-3083

Standard
Chartered
Financial
Services
(Luxembourg)
S.A., FKA
American
Express
Financial
Services
(Luxembourg)
S.A., FKA
American
Express Bank

Diane Lee
McGimsey,
Esq.,
Direct:
310-712-6644
Sullivan &
Cromwell LLP
Suite 2100
1888 Century
Park East
Los Angeles,
CA 90067

171.17-3080

William J.
Sushon, Esq.

247a

176.17-3083

177.17-3083

(Luxembourg)
S.A., as
represented by
its Liquidator
Hanspeter
Kramer,
Hanspeter
Kramer, in his
capacities as
liquidator and
representative
of Standard
Chartered
Financial
Services
(Luxembourg)
S.A

Sharon Nelles,
Esq.,
Direct:
212-558-4976
Sullivan &
Cromwell LLP
125 Broad
Street
New York, NY
10004

Standard
Chartered Bank
International
(Americas)
Limited, FKA
American
Express Bank
International

Diane Lee
McGimsey,
Esq.

Standard
Chartered
International
(USA) Ltd.,
FKA American

Diane Lee
McGimsey,
Esq.

Sharon Nelles,
Esq.

Sharon Nelles,
Esq.

248a
Express Bank,
Ltd.
178.17-3084

Fullerton
Capital PTE
Ltd.

Daniel R.
Bernstein,
Esq.,
Direct:
212-836-7120
Arnold &
Porter Kaye
Scholer LLP
250 West 55th
Street
New York, NY
10019
Kent A.
Yalowitz,
Direct:
212-836-8344
Arnold &
Porter Kaye
Scholer LLP
250 West 55th
Street
New York, NY
10019

179.17-3086

Banque Privee
Espirito Santo
S.A., FKA
Compagnie
Bancaire

John F. Zulack,
Esq.,
Allegaert
Berger & Vogel
LLP

249a
Espirito Santo
S.A.
180.17-3087

Naidot & Co.

111 Broadway,
20th Floor
New York, New
York 10006
Heather
Kafele, Esq.,
Winston &
Strawn LLP
1700 K Street,
NW
Washington,
DC 20006
Keith Palfin,
Esq.,
Winston &
Strawn LLP
1700 K Street,
NW
Washington,
DC 20006

181.17-3088

BNP Paribas
S.A.

Breon S. Peace,
Esq.,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

250a
Ari D.
MacKinnon,
Esq.,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
Thomas S.
Kessler, Esq.
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
182.17-3088

183.17-3088

BNP Paribas
(Suisse) SA,
Individually and
as Successor in
Interest to
United
European Bank
BNP Paribas
Arbitrage SNC

Breon S. Peace,
Esq.,
Ari D.
MacKinnon,
Esq.,
Thomas S.
Kessler, Esq.
Breon S. Peace,
Esq.,

251a
Ari D.
MacKinnon,
Esq.,
Thomas S.
Kessler, Esq.
184.17-3088

BNP Paribas
Bank & Trust
Cayman
Limited

Breon S. Peace,
Esq.,
Ari D.
MacKinnon,
Esq.,
Thomas S.
Kessler, Esq.

185.17-3088

BNP Paribas
Securities
Services - Succu
sale De
Luxembourg

Breon S. Peace,
Esq.,
Ari D.
MacKinnon,
Esq.,
Thomas S.
Kessler, Esq.

186.17-3088

BNP Paribas
Securities
Services S.A.

Breon S. Peace,
Esq.,
Ari D.
MacKinnon,
Esq.,

252a
Thomas S.
Kessler, Esq.
187.17-3088

BGL BNP
Paribas
Luxembourg
S.A., as
Successor in
Interest to BNP
Paribas
Luxembourg
S.A.

Breon S. Peace,
Esq.,

188.17-3091

Credit Suisse
AG, as successor
in interest to
Clariden Leu
AG and Bank
Leu AG

William J.
Sushon, Esq.,
O'Melveny &
Myers LLP
Times Square
Tower
7 Times Square
New York, NY
10036

189.17-3100

UBS
Deutschland
AG, as successor
in interest to
Dresdner Bank
LateinAmerika
AG

Gabriel
Herrmann,
Esq.,
Gibson, Dunn
& Crutcher
LLP
200 Park
Avenue
New York, NY
10166

Ari D.
MacKinnon,
Esq.,
Thomas S.
Kessler, Esq.

253a
Marshall R.
King, Esq.,
Attorney
Gibson, Dunn
& Crutcher
LLP
200 Park
Avenue
New York, NY
10166
190.17-3100

LGT Bank
(Switzerland)
LTD., as
successor in
interest to
Dresdner Bank
(Schweiz) AG

Alexander B.
Lees, Esq.,
Milbank LLP
55 Hudson
Yards
New York, NY
10001

191.17-3101

Banca Carige
S.P.A.

David Mark,
Attorney
Direct:
212-506-1700
Kasowitz
Benson Torres
LLP
1633 Broadway
New York, NY
10019

192.17-3102

Somers Dublin
Designated
Activity
Company

Thomas J.
Moloney,

254a
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
193.17-3102

Somers
Nominees (Far
East) Limited

Thomas J.
Moloney

194.17-3106

Lion Global
Investors
Limited

Russell T.
Gorkin, Esq.,
Proskauer Rose
LLP
11 Times
Square
New York, NY
10036
Gregg M.
Mashberg,
Esq., Partner
Proskauer Rose
LLP
11 Times
Square
New York, NY
10036

195.17-3109

Public
Institution for
Social Security

Joseph P.
Davis III
Direct:
617-370-6204

255a
Greenberg
Traurig, LLP
One
International
Place
Suite 2000
Boston,
Massachusetts
02110
196.17-3112

Bordier & Cie

John F. Zulack,
Esq.,
Allegaert
Berger & Vogel
LLP
111 Broadway,
20th Floor
New York, New
York 10006

197.17-3113

Fairfield
Greenwich
Capital
Partners

Peter E.
Kazanoff, Esq.,
Direct:
212-455-3525
Simpson
Thacher &
Bartlett LLP
425 Lexington
Avenue
New York, NY
10017

256a
198.17-3113

Share
Management
LLC

Peter E.
Kazanoff, Esq.

199.17-3115

EFG Bank S.A.,
FKA EFG
Private Bank
S.A.

Adam Lavine,
Esq.,
Direct:
212-488-1279
Kobre & Kim
LLP
6th Floor
800 3rd Avenue
New York, NY
10022
David
Farrington
Yates, Esq.,
Direct:
212-488-1211
Kobre & Kim
LLP
6th Floor
800 3rd Avenue
New York, NY
10022

200.17-3115

EFG BANK
(MONACO)
S.A.M., FKA
EFG
Eurofinancire

Adam Lavine,
Esq.
David
Farrington
Yates, Esq.

257a
dInvestissement
s S.A.M.
201.17-3115

202.17-3117

EFG BANK &
TRUST
(BAHAMAS)
LIMITED, as
successor-in-int
erest to Banco
Atlantico
(Bahamas)
Bank & Trust
Limited

Adam Lavine,
Esq.

ABN AMRO
Retained
Custodial
Services
(Ireland)
Limited

Christopher R.
Harris, Esq.
Latham &
Watkins LLP
Direct:
212-906-1200
885 3rd Avenue
New York, NY
10022

David
Farrington
Yates, Esq.

Thomas Giblin,
Esq.,
Latham &
Watkins LLP
Direct:
212-906-1200
885 3rd Avenue
New York, NY
10022

258a
203.17-3117

204.17-3122

ABN AMRO
Custodial
Services
(Ireland) Ltd.,
FKA Fortis
Prime Fund
Solutions
Custodial
Services
(Ireland) Ltd.

Christopher R.
Harris, Esq.

Banco Bilbao
Vizcaya
Argentaria, S.A.

Heather
Kafele, Esq.,
Winston &
Strawn LLP
1700 K Street,
NW
Washington,
DC 20006

Thomas Giblin,
Esq.

Keith Palfin,
Esq.,
Winston &
Strawn LLP
1700 K Street,
NW
Washington,
DC 20006
205.17-3126

LGT Bank in
Liechtenstein
Ltd.

Alexander B.
Lees, Esq.,
Milbank LLP
55 Hudson
Yards

259a
New York, NY
10001
206.17-3129

Nomura
International
plc

Brian H.
Polovoy, Esq.,
Shearman &
Sterling LLP
599 Lexington
Avenue
New York, NY
10022
Randall L.
Martin, Esq.,
Shearman &
Sterling LLP
599 Lexington
Avenue
New York, NY
10022

207.17-3132

Lighthouse
Investment
Partners, LLC,
DBA Lighthouse
Partners, LLC

Eugene R.
Licker,
Direct:
646-346-8074
Ballard Spahr
LLP
19th Floor
1675 Broadway
New York, NY
10019-5820

260a
208.17-3132

Lighthouse
Supercash Fund
Limited

Eugene R.
Licker

209.17-3132

Lighthouse
Diversified
Fund Limited

Eugene R.
Licker

210.17-3134

Merrill Lynch
International

Pamela A.
Miller, Esq.,
Direct:
212-326-2088
O'Melveny &
Myers LLP
Times Square
Tower
7 Times Square
New York, NY
10036

211.17-3136

Inteligo Bank
Ltd. Panama
Branch, FKA
Blubank Ltd
Panama Branch

Heather
Kafele, Esq.
Winston &
Strawn LLP
1700 K Street,
NW
Washington,
DC 20006
Keith Palfin,
Esq.,
Winston &
Strawn LLP

261a
1700 K Street,
NW
Washington,
DC 20006
212.17-3139

Citigroup Global E. Pascale Bibi,
Markets
Esq.,
Limited
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
Carmine D.
Boccuzzi, Jr.,
Esq.,
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006
Lauren M.
Irwin, Esq.
Cleary Gottlieb
Steen &
Hamilton LLP
1 Liberty Plaza
New York, NY
10006

262a
213.17-3140

KBC
Investments
Limited

Andrew P.
Propps, Esq.,
Direct:
212-839-5300
Sidley Austin
LLP
787 7th Avenue
New York, NY
10019
Alan M. Unger,
Esq.,
Direct:
212-839-5300
Sidley Austin
LLP
787 7th Avenue
New York, NY
10019

214.17-3141

UBS AG

Gabriel
Herrmann,
Esq.,
Gibson, Dunn
& Crutcher
LLP
200 Park
Avenue
New York, NY
10166

263a
Marshall R.
King, Esq.,
Attorney
Gibson, Dunn
& Crutcher
LLP
200 Park
Avenue
New York, NY
10166
215.17-3141

UBS
(Luxembourg)
SA

Gabriel
Herrmann,
Esq.
Marshall R.
King, Esq.,
Attorney

216.17-3141

UBS Fund
Services
(Luxembourg)
S.A.

Gabriel
Herrmann,
Esq.
Marshall R.
King, Esq.,
Attorney

217.17-3141

UBS Third
Party
Management
Company S.A.

Gabriel
Herrmann,
Esq.

264a
Marshall R.
King, Esq.,
Attorney
218.17-3141

M&B Capital
Advisers, S.A.
f/k/a M&B
Capital
Advisers
Sociedad De
Valores, S.A.

Richard B.
Levin, Esq.,
Jenner & Block
LLP
919 3rd Avenue
New York, NY
10022
Carl Nicholas
Wedoff, Esq.,
Direct:
212-891-1653
Jenner & Block
LLP
919 3rd Avenue
New York, NY
10022

219.17-3143

Inter
Investissements
S.A., FKA Inter
Conseil S.A.

Andrew
Ehrlich,
Direct:
212-373-3166
Paul, Weiss,
Rifkind,
Wharton &
Garrison LLP
1285 Avenue of
the Americas
New York, NY
10019

265a
Martin
Flumenbaum,
Direct:
212-373-3000
Paul, Weiss,
Rifkind,
Wharton &
Garrison LLP
1285 Avenue of
the Americas
New York, NY
10019
220.17-3144

Banco General,
S.A.

Joshua E.
Abraham,
Counsel
BUTZEL
LONG a
professional
corporation
477 Madison
Avenue, Suite
1230
New York, NY
10022

221.17-3144

BG Valores,
S.A., FKA Wall
Street
Securities, S.A.

Joshua E.
Abraham

266a
222.17-3862

ABN AMRO
N.V. (known as
The Royal Bank
of Scotland N.V.
and presently
known as
NatWest
Markets N.V.)

Rachel
Nechama
Agress, Esq.,
Direct:
212-756-1122
Allen & Overy
LLP
1221 Avenue of
the Americas
New York, NY
10020
Michael
Feldberg, Esq.,
Direct:
212-610-6360
Allen & Overy
LLP
1221 Avenue of
the Americas
New York, NY
10020
Derek Jackson,
Esq.,
Direct:
212-610-6300
Allen & Overy
LLP
1221 Avenue of
the Americas

267a
New York, NY
10020

268a
APPENDIX G
CORPORATE DISCLOSURE STATEMENT
1.

HSBC Private Banking Holdings (Suisse)
S.A. identifies HSBC Holdings plc and HSBC
Finance (Netherlands) as corporations that
directly or indirectly own 10% or more of any
class of HSBC Private Banking Holdings
(Suisse) S.A.’s equity interests.

2.

HSBC Private Bank (Suisse) S.A. identifies
HSBC Holdings plc, HSBC Finance
(Netherlands), and HSBC Private Banking
Holdings (Suisse) S.A. as corporations that
directly or indirectly own 10% or more of any
class of HSBC Private Bank (Suisse) S.A.’s
equity interests.

3.

SICO Limited identifies HSBC Holdings plc,
HSBC Finance (Netherlands), HSBC Private
Banking Holdings (Suisse) S.A. and HSBC
Private Bank (Suisse) S.A. as corporations
that directly or indirectly own 10% or more of
any class of SICO Limited’s equity interests.

4.

HSBC
Securities
Services
(Ireland)
Designated Activity Company (sued as HSBC
Securities Services (Ireland) Limited)
identifies HSBC Holdings plc, HSBC UK
Holdings Ltd, HSBC Bank plc, Midcorp
Limited, Griffin International Limited, HSBC
Europe B.V., and HSBC Securities Services
Holdings (Ireland) Designated Activity
Company as corporations that directly or
indirectly own 10% or more of any class of

269a
HSBC
Securities
Services
(Ireland)
Designated Activity Company’s equity
interests.
5.

HSBC France, Dublin Branch (sued as HSBC
Institutional
Trust
Services
(Ireland)
Limited, which changed its name to HSBC
Institutional
Trust
Services
(Ireland)
Designated
Activity
Company
and
subsequently merged with HSBC France)
identifies HSBC Holdings plc, HSBC UK
Holdings Ltd, HSBC Bank plc, HSBC Bank
plc (Paris Branch) and HSBC France as
corporations that directly or indirectly own
10% or more of any class of HSBC France,
Dublin Branch’s equity interests.

6.

HSBC Bank USA, N.A. identifies HSBC
Holdings plc, HSBC Overseas Holdings (UK)
Limited, HSBC North America Holdings Inc.,
and HSBC USA Inc. as corporations that
directly or indirectly own 10% or more of any
class of HSBC Bank USA, N.A.’s equity
interests.

7.

Somers Dublin Designated Activity Company
identifies HSBC Holdings plc, HSBC UK
Holdings Ltd, HSBC Bank plc, HSBC Bank
plc (Paris Branch), HSBC France and HSBC
France (Dublin Branch) as corporations that
directly or indirectly owns 10% or more of any
class of Somers Dublin Designated Activity
Company’s equity interests.

8.

Somers Nominees (Far East) Limited
identifies HSBC Holdings plc, HSBC

270a
Overseas Holdings (UK) Limited, and HSBC
Bank Bermuda Limited as corporations that
directly or indirectly own 10% or more of any
class of Somers Nominees (Far East)
Limited’s equity interests.
9.

HSBC Institutional Trust Services (Bermuda)
Limited identifies HSBC Holdings plc, HSBC
Overseas Holdings (UK) Limited and HSBC
Bank Bermuda Limited as corporations that
directly or indirectly own 10% or more of any
class of HSBC Institutional Trust Services
(Bermuda) Limited’s equity interests.

10.

HSBC Securities Services (Bermuda) Limited
identifies HSBC Holdings plc, HSBC
Overseas Holdings (UK) Limited and HSBC
Bank Bermuda Limited as corporations that
directly or indirectly own 10% or more of any
class of HSBC Securities Services (Bermuda)
Limited’s equity interests.

11.

HSBC Bank Bermuda Limited identifies
HSBC Holdings plc and HSBC Overseas
Holdings (UK) Limited as corporations that
directly or indirectly own 10% or more of any
class of HSBC Bank Bermuda Limited’s
equity interests.

12.

HSBC Securities Services (Luxembourg) S.A.
(also sued as HSBC Fund Services
(Luxembourg) S.A.) identifies HSBC Holdings
plc and HSBC Bank plc as corporations that
directly or indirectly own 10% or more of any
class
of
HSBC
Securities
Services
(Luxembourg) S.A.’s equity interests.

271a
13.

HSBC Cayman Services Limited (sued as
HSBC Bank (Cayman) Limited) identifies
HSBC Holdings plc, HSBC Overseas
Holdings (UK) Limited, and HSBC Bank
Bermuda Limited as corporations that
directly or indirectly own 10% or more of any
class of HSBC Cayman Services Limited’s
equity interests.

14.

HSBC Bank plc identifies HSBC Holdings plc
as a corporation that directly or indirectly
owns 10% or more of any class of HSBC Bank
plc’s equity interests.

15.

HSBC Holdings plc, which directly or
indirectly owns 10% or more of any class of all
other HSBC Defendants’ equity interests,
identifies HKSCC Nominees Limited as
directly or indirectly owning 10% or more of
any class of HSBC Holdings plc’s equity
interests. HKSCC Nominees Limited is the
legal owner of securities that are deposited
into the Hong Kong Exchanges and Clearing
Limited Central Clearing and Settlement
System by those securities’ beneficial holders.

16.

BG Financial Group directly or indirectly
owns 10% or more of the equity interests of
Defendant Banco General SA Banca Privada;
and Banco General and BG Financial Group
directly or indirectly own 10% or more of the
equity interests of BG Valores, SA, F/K/A,
Wall Street Securities, SA.

17.

Zurich Finance Company
Insurance Company Ltd,

AG,
and

Zurich
Zurich

272a
Insurance Group Ltd as corporations that
directly or indirectly own 10% or more of any
class of ZCM Asset Holding Company
(Bermuda) Limited’s equity interests.
18.

FIM Limited has no corporate parent and no
publicly held corporation owns 10% or more of
its stock.

19.

FIM Limited owns 98% of FIM Advisers LLP.

20.

LGT Bank in Liechtenstein Ltd. states that it
is indirectly owned by LGT Group
Foundation, which is not a publicly held
corporation.

21.

LGT Bank (Switzerland) Ltd. states that it is
indirectly owned by LGT Group Foundation,
which is not a publicly held corporation.

22.

OFI MGA Alpha Palmares, FKA Oval Alpha
Palmares states that it has no parent
company and no publicly-held corporation
owns ten percent or more of its stock.

23.

Oval Palmares Europlus states that it has no
parent company and no publicly-held
corporation owns ten percent or more of its
stock.

24.

UMR Select Alternatif states that it has no
parent company and no publicly-held
corporation owns ten percent or more of its
stock

25.

Koch Industries, Inc., as successor in interest
to Koch Investment (UK) Company, by and
through its undersigned counsel, makes the

273a
following disclosures:
Koch Industries, Inc. is a privately owned company.
No public corporation owns ten percent (10%)
or more of its stock.
26.

Schroder AG is a wholly owned subsidiary of
Schroders plc, which is a publicly held
corporation.
No other publicly held
corporation owns ten percent (10%) or more of
the stock of Schroder AG.

27.

The following entities own (either directly or
indirectly) 10% or more of any class of equity
interests in Falcon Private Bank Ltd.: Aabar
Trading S.a.r.l.; Aabar Holdings S.a.r.l.;
Aabar Investments PJS; International
Petroleum Investment Company (IPIC); and
Mubadala Investment Company PJSC.

28.

UBS AG; UBS (Luxembourg) S.A. (“UBSL”);
UBS Fund Services (Luxembourg) S.A.
(“UBSFSL”); UBS Deutschland AG (“UBSD”),
as successor in interest to Dresdner Bank
LateinAmerika AG; and UBS Third Party
Management Company S.A. (“UBSTPM”),
certify that:
a. Defendant-Appellee UBS AG is wholly
owned by UBS Group AG, a publicly
traded corporation. Chase Nominees Ltd.,
London, a nominee company, holds more
than 10% of the share capital of UBS
Group AG. UBS AG lacks information
about whether Chase Nominees Ltd. is a
publicly held corporation.

274a
b. Defendant-Appellee UBSD changed its
name and legal form, and is now known as
UBS Europe SE.
c. Defendant-Appellee UBSL was merged
into UBS Europe SE.
d. UBS
Europe
SE
is
a
private
non-governmental party, and UBS Group
AG owns, directly or indirectly, 10 percent
or more of the stock of UBS Europe SE. No
publicly held corporation other than UBS
Group AG owns 10 percent or more of UBS
Europe SE’s stock.
e. Defendant-Appellee UBSFSL is a private
non-governmental party, and UBS Group
AG owns, directly or indirectly, 10 percent
or more of the stock of UBSFSL. No
publicly held corporation other than UBS
Group AG owns 10 percent or more of
UBSFSL’s stock.
f. Defendant-Appellee UBSTPM is a private
non-governmental party, and UBS Group
AG owns, directly or indirectly, 10 percent
or more of the stock of UBSTPM. No
publicly held corporation other than UBS
Group AG owns 10 percent or more of
UBSTPM’s stock.
29.

Bank Julius Baer & Co. Ltd. (“BJB”)
identifies Julius Baer Group Ltd. as directly
or indirectly owning 10% or more of any class
of
BJB’s
equity
interests.

275a
30.

Atlantic
Security
Bank
(a
private
non-governmental party) is a subsidiary of
Atlantic Security Holding Corporation.
Atlantic Security Holding Corporation, an
entity incorporated in the Cayman Islands, is
the owner of 100% of the shares of Atlantic
Security Bank.

31.

Platinum All Weather Fund Limited
(“Platinum”) is a limited liability exempted
company incorporated in the Cayman Islands.
Nomura International Plc and LGT Bank
(Switzerland) Ltd directly or indirectly own
10% or more of a class of the company’s equity
interests.

32.

Parson Finance Panama S.A. identifies
Bamont Trust Company Ltd. as its parent
corporation.

33.

Banque SYZ SA, formerly known as Banque
Syz & Co. SA, by and through its undersigned
attorneys, makes the following disclosure:
Financière SYZ SA owns more than 10% of
the equity interests of Banque SYZ SA. No
other corporation owns 10% or more of the
equity interests of Banque SYZ SA. No
corporation owns 10% or more of the equity
interests of Financière SYZ SA.

34.

M&B Capital Advisers, S.A., formerly known
as M&B Capital Advisers Sociedad de
Valores, S.A., by and through its undersigned
counsel, makes the following disclosure:
Alakin Inversiones, S.L.U. owns more than
10% of the equity interests of M&B Capital

276a
Advisers S.A. No other corporation owns 10%
or more of any class of the equity interests of
M&B Capital Advisers, S.A. No corporation
owns 10% or more of any class of the equity
interests of Alakin Inversiones, S.L.U.
35.

Trincastar Corporation, by and through its
undersigned counsel, makes the following
disclosure: Wuhu Ltd., Bahamas, a company
incorporated under the laws of The Bahamas,
owns more than 10% of the equity interests of
Trincastar Corporation. No other corporation
owns 10% or more of any class of the equity
interests of Trincastar Corporation.

36.

Unifortune Asset Management SGR SPA, by
and through its undersigned counsel, makes
the following disclosure: Unifortune SA owns
more than 10% of the equity interests of
Unifortune Asset Management SGR SPA. No
other corporation owns 10% or more of any
class of the equity interests of Unifortune
Asset Management SGR SPA. No corporation
owns 10% or more of any class of the equity
interests of Unifortune SA.

37.

Unifortune Conservative Fund, by and
through its undersigned counsel, makes the
following disclosure: Unifortune Conservative
Fund is not a corporate entity having capacity
to be sued.

38.

ABN AMRO Retained Custodial Services
(Ireland) Limited (“AA Retained”) and ABN
AMRO Custodial Services (Ireland) Limited
(“AA Custodial,” and together with AA

277a
Retained, the “AA Respondents”), by and
through their undersigned counsel, hereby
disclose that ABN AMRO Support Services
(Ireland) Limited (“AA Support Services”)
owns 10% or more of the equity of AA
Retained. AA Support Services owns 10% or
more of the equity of AA Custodial. AA
Support Services is wholly owned by ABN
AMRO Bank N.V. ABN AMRO Bank N.V. is
owned by Stichting Administratiekantoor
Beheer Financiële Instellingen, a foundation
held by the Dutch State, and Stichting
Administratiekantoor Continuïteit ABN
AMRO Bank, a publicly held foundation.
Except as described above, no entity directly
or indirectly owns more than 10% of the
equity interests of AA Retained or AA
Custodial.
39.

ABN AMRO Retained Nominees (IOM)
Limited (“AA Nominees”), by and through its
undersigned counsel, hereby discloses that
ABN AMRO Retained FS (IOM) Limited (“AA
Fund Services”) owns 10% or more of the
equity of AA Nominees. AA Fund Services is
wholly owned by ABN AMRO Support
Services (Ireland) Limited (“AA Support
Services”). AA Support Services is wholly
owned by ABN AMRO Bank N.V. ABN
AMRO Bank N.V. is owned by Stichting
Administratiekantoor Beheer Financiële
Instellingen, a foundation held by the Dutch
State, and Stichting Administratiekantoor
Continuïteit ABN AMRO Bank, a publicly

278a
held foundation. Except as described above,
no entity directly or indirectly owns more
than 10% of the equity interests of AA
Nominees.
40.

Royal Bank of Canada represents that it is a
publicly traded corporation listed on the New
York and Toronto Stock Exchanges. No
publicly held corporations owns 10% or more
of Royal Bank of Canada’s common stock.
Royal Bank of Canada Singapore Branch is an
overseas bank branch of Royal Bank of
Canada.

41.

Guernroy Limited, Royal Bank of Canada
(Channel Islands), Limited, Royal Bank of
Canada Trust Company (Jersey) Limited, and
Royal Bank of Canada Dominion Securities
Inc. represent that they are all indirect,
wholly owned subsidiaries of Royal Bank of
Canada.

42.

Royal Bank of Canada (Suisse) S.A.
represents that it has been acquired by and
merged into Banque SYZ S.A. Financière SYZ
S.A. owns 100% of the equity interests of
Banque SYZ S.A. No corporation owns 10%
or more of the equity interests of Financière
SYZ S.A.

43.

Lloyds TSB Bank PLC represents that it is
now known as Lloyds Bank PLC. Lloyds
Banking Group PLC owns 100% of the shares
of Lloyds Bank PLC.

44.

Barfield Nominees Limited represents that

279a
Northern Trust Corporation, The Northern
Trust Company, The Northern Trust
International Banking Corporation, The
Northern Trust Scottish Limited Partnership,
Northern Trust GFS Holdings Limited,
Northern
Trust
Fiduciary
Services
(Guernsey)
Limited,
and
Doyle
Administration Limited directly or indirectly
own 10% or more of any class of its shares.
45.

Northern Trust Corporation represents that
it is not owned by any entity that requires
reporting.

46.

Access International Advisors Limited
represents
that
it
is
a
private
non-governmental party, and has two
corporate parents, Dalestrong Ltd. and Access
International Advisors, Inc. No publicly held
corporation owns 10% or more of the stock of
Access International Advisors Ltd.

47.

Access Management Luxembourg S.A.
represents
that
it
is
a
private
non-governmental party, and has one
corporate parent, Access Partners S.A. No
publicly held corporation owns 10% or more of
its stock.

48.

Access
Partners
S.A.
(Luxembourg)
represents
that
it
is
a
private
non-governmental party, and has no
corporate parent.
No publicly held
corporation owns 10% or more of its stock.

49.

RBC Dexia Investor Services Bank S.A.

280a
represents that it is now known as RBC
Investor Services Bank S.A. RBC Investor
Services Bank S.A. is an indirect
wholly-owned subsidiary of Royal Bank of
Canada. Royal Bank of Canada is a publicly
traded corporation listed on the New York
and Toronto Stock Exchanges. No publicly
held corporations own 10% or more of Royal
Bank of Canada’s common stock.
50.

RBC Dexia Investor Services Espana S.A.
represents that it is now known as Bancoval
S.A.
Bancoval S.A. is a wholly owned
subsidiary of Banco Inversis Net S.A., and its
ultimate corporate parent is Banca March
S.A. No corporation owns 10% or more of the
equity interests of Banca March S.A.

51.

Banque Lombard Odier & Cie SA identifies
LO Holding SA as its parent corporation and
states that no publicly held corporation
directly or indirectly owns 10% or more of its
equity interests.

52.

Banque Cantonale Vaudoise states that it has
no parent corporation and identifies the
Canton de Vaud as a corporate entity that
owns 10% or more of its equity interests.

53.

Société Générale Private Banking (Suisse)
S.A. identifies Société Générale S.A. as its
ultimate parent corporation and states that
no other publicly held corporation directly or
indirectly owns 10% or more of its equity
interests.

281a
54.

Société
Générale
Private
Banking
(Lugano-Svizzera) S.A., acting by and
through its successor, Société Générale
Private Banking (Suisse) S.A., identifies
Société Générale S.A. as its ultimate parent
corporation and states that no other publicly
held corporation directly or indirectly owns
10% or more of its equity interests.

55.

Socgen Nominees (UK) Limited identifies
Société Générale S.A. as its ultimate parent
corporation and states that no other publicly
held corporation directly or indirectly owns
10% or more of its equity interests.

56.

Lyxor Asset Management S.A. identifies
Société Générale S.A. as its ultimate parent
corporation and states that no other publicly
held corporation directly or indirectly owns
10% or more of its equity interests.

57.

Société Générale Holding de Participations
S.A. identifies Société Générale S.A. as its
ultimate parent corporation and states that
no other publicly held corporation directly or
indirectly owns 10% or more of its equity
interests.

58.

SG AM AI Premium Fund L.P. identifies
Lyxor Asset Management Inc. as its general
partner and states that it has no parent
corporation and no publicly held corporation
owns 10% or more of its equity interests.

59.

Lyxor Asset Management Inc. identifies
Société Générale S.A. as its ultimate parent

282a
corporation and states that no other publicly
held corporation directly or indirectly owns
10% or more of its equity interests.
60.

SG Audace Alternatif states that it has no
parent corporation and no publicly held
corporation owns 10% or more of its equity
interests.

61.

SGAM AI Equilibrium Fund states that it has
no parent corporation and no publicly held
corporation owns 10% or more of its equity
interests.

62.

Lyxor Premium Fund states that it has no
parent corporation and no publicly held
corporation owns 10% or more of its equity
interests.

63.

Société Générale S.A. states that it has no
parent corporation and no publicly held
corporation owns 10% or more of its equity
interests.

64.

Société Générale Bank & Trust S.A. identifies
Société Générale S.A. as its ultimate parent
corporation and states that no other publicly
held corporation directly or indirectly owns
10% or more of its equity interests.

65.

Banque Privée Espírito Santo S.A., in
liquidation,
identifies
Espírito
Santo
Financière S.A., a wholly-owned subsidiary of
Espírito Santo Financial Group S.A., as its
100% shareholder and states that Banque
Privée Espírito Santo S.A. was declared
bankrupt on September 19, 2014 by decision

283a
of the Swiss Financial Market Supervisory
Authority (FINMA), which appointed Carrard
Consulting SA as Liquidator to conduct the
liquidation.
66.

Bordier & Cie states that it has no parent
corporation and no publicly held corporation
directly or indirectly owns 10% or more of its
equity interests.

67.

Fairfield International Managers, Inc. and
Safehand Investments each owns more than
10% of Fairfield Greenwich Limited’s equity
interests.

68.

Fairfield International Managers, Inc. and
Safehand Investments each owns more than
10% of Fairfield Greenwich (Bermuda), Ltd.’s
equity interests.

69.

Fairfield Greenwich Limited owns more than
10% of Fairfield Greenwich Advisors LLC’s
equity interests.

70.

There are no entities to report that directly or
indirectly own 10% or more of any class of
Fairfield International Managers, Inc.’s
equity interests.

71.

There are no entities to report that directly or
indirectly own 10% or more of any class of
Fairfield Greenwich Capital Partners’ equity
interests.

72.

There are no entities to report that directly or
indirectly own 10% or more of any class of
Share Management LLC’s equity interests.

284a
73.

Inteligo Bank Ltd. Panama Branch
(“Inteligo”), formerly known as Blubank Ltd.,
is a corporation organized and incorporated
under the laws of the Commonwealth of the
Bahamas and a wholly-owned subsidiary of
Inteligo Group, Corp. (formerly IFH
International Corp.), an entity incorporated
under the laws of the Republic of Panama.
Inteligo Group, Corp.’s sole shareholder is
Intercorp Financial Services Inc., a company
organized and incorporated under the laws of
Panama. Intercorp Financial Services Inc. is
majority-owned by Intercorp Perú Ltd., a
company organized and incorporated under
the laws of the Commonwealth of the
Bahamas. No other publicly-held company
directly or indirectly has an ownership
interest of 10% or more in Inteligo.

74.

Banco Bilbao Vizcaya Argentaria S.A.
(“BBVA”) has no parent corporation nor is
there any publicly held corporation owning
10% or more of its stock.

75.

Naidot & Co. (“Naidot”) has no parent
corporation nor is there any publicly held
corporation owning 10% or more of its stock.

76.

Bank Vontobel AG (f/k/a Bank J. Vontobel &
Co. AG) and Vontobel Asset Management Inc.
are wholly-owned subsidiaries of Vontobel
Holding AG, a publicly held corporation.

77.

Abu Dhabi Investment Authority (“ADIA”)
states that ADIA receives funds from the
Government of Abu Dhabi for investment and

285a
makes available to the Government of Abu
Dhabi, as needed, the financial resources to
secure and maintain the future welfare of the
Emirate of Abu Dhabi. ADIA does not issue
shares.
78.

Quilvest Finance Ltd. (n/k/a QS Finance Ltd.)
states that Quilvest Europe S.A. is its
corporate parent and there is no publicly held
corporation owning 10% or more of its stock.

79.

KBC Investments Ltd. (“KBC Investments”)
states that its parent is KBC Bank N.V., and
KBC Bank N.V.’s parent is KBC Group N.V.,
which is the ultimate parent of KBC
Investments. KBC Group N.V. is publicly
held and indirectly owns all of the stock of
KBC Investments.

80.

EFG Bank S.A. is a branch of EFG Bank AG.
EFG Bank AG is a wholly-owned subsidiary
of EFG International AG, a holding company
headquartered in Zurich, Switzerland. EFG
International AG’s registered shares are
listed on the SIX Swiss Exchange.

81.

EFG Bank (Monaco) S.A.M. is a wholly-owned
subsidiary of EFG International AG, a
holding company headquartered in Zurich,
Switzerland.
EFG International AG’s
registered shares are listed on the SIX Swiss
Exchange.

82.

EFG Bank & Trust (Bahamas) Limited is a
wholly-owned
subsidiary
of
EFG
International AG, a holding company

286a
headquartered in Zurich, Switzerland. EFG
International AG’s registered shares are
listed on the SIX Swiss Exchange.
83.

Certain assets and liabilities of BSI AG were
acquired and assumed by EFG Bank AG.
EFG Bank AG is a wholly-owned subsidiary
of EFG International AG, a holding company
headquartered in Zurich, Switzerland. EFG
International AG’s registered shares are
listed on the SIX Swiss Exchange.

84.

Orbita Capital Return Strategy has no
corporate
parents,
affiliates,
and/or
subsidiaries.

85.

Arden Asset Management, Inc. certifies that
it has no parent corporation and that no
publicly-traded corporate entity directly or
indirectly owns 10% or more of any class of
the stock of Arden Asset Management, Inc.

86.

Arden Endowment Advisers Limited certifies
that it has no parent corporation and that no
publicly-traded corporate entity directly or
indirectly owns 10% or more of any class of
the stock of Arden Endowment Advisers
Limited.

87.

Arden Asset Management LLC certifies that
it has no parent corporation and that no
publicly-traded corporate entity directly or
indirectly owns 10% or more of any class of
the stock of Arden Asset Management LLC.

88.

Cathay Life Insurance Co. Ltd. is wholly
owned by Cathay Financial Holdings Co. Ltd.,

287a
a publicly held corporation.
89.

CACEIS Bank is wholly owned by CACEIS
S.A.
CACEIS S.A. is owned by Credit
Agricole, which is a publicly held corporation.

90.

CACEIS Bank, Luxembourg Branch, is a
branch of CACEIS Bank. CACEIS Bank is
wholly owned by CACEIS S.A. CACEIS S.A.
is owned by Credit Agricole, which is a
publicly held corporation.

91.

The Sumitomo Trust & Banking Co., Ltd.
(now known as Sumitomo Mitsui Trust Bank,
Limited), by and through its attorneys,
Becker, Glynn, Muffly, Chassin & Hosinski
LLP, hereby discloses that is a wholly-owned
subsidiary of Sumitomo Mitsui Trust
Holdings, Inc.

92.

Public Institution for Social Security
(“PIFSS”) hereby states that it has no parent
corporation and there is no publicly held
corporation owning 10% or more of stock in
PIFSS.

93.

The immediate shareholders in Tensyr
Limited are Intertrust Nominees (Jersey)
Limited and Intertrust Nominees 2 (Jersey)
Limited (the “Nominees”).
a. The Nominees hold the shares pursuant to
declarations of trust in favor of Intertrust
Corporate Trustee (Jersey) Limited (the
“Trustee”) in its capacity as trustee of the
Tensyr Charitable Trust.

288a
b. The Trustee is 100% owned by Intertrust
Fiduciary Services (Jersey) Limited
(“Intertrust Fiduciary”), and both the
Trustee and Intertrust Fiduciary are
regulated by the Jersey Financial Services
Commission as regulated trust company
businesses.
c. Intertrust Fiduciary is 100% indirectly
owned by Intertrust N.V. which is a
publicly traded company.
94.

Fullerton Capital PTE, Ltd. is wholly owned
by Fullerton (Private) Limited.
Fullerton Capital PTE, Ltd. submits this
disclosure statement without prejudice to or
waiver of any rights or defenses it may have,
including without limitation, defenses based
upon lack of personal jurisdiction or improper
service of process.

95.

First Peninsula Trustees Limited has no
parent corporation, and no publicly held
corporation owns ten percent or more of its
stock.

96.

Port of Hercules Trustees Limited has no
parent corporation, and no publicly held
corporation owns ten percent or more of its
stock.

97.

Ashby Holding Services Limited is 100%
owned by Port of Hercules Trustees Limited,
a privately held entity (as nominee for First
Peninsula Trustees Limited).

289a
98.

Ashby Investment Services Limited is 100%
owned by Port of Hercules Trustees Limited,
a privately held entity (as nominee for First
Peninsula Trustees Limited).

99.

El Prela Trading Investments Limited is
100% owned by Port of Hercules Trustees
Limited, a privately held entity.

100. Alpine Trustees Limited has no parent
corporation, and no publicly held corporation
owns ten percent or more of its stock.
101. El Prela Group Holding Services Limited is
100% owned by Port of Hercules Trustees
Limited, a privately held entity.
102. The Ashby Trust is a trust that has no parent
corporation or stock.
103. The El Prela Trust is a trust that has no
parent corporation or stock.
104. Multi-Strategy Fund Limited is a mandatary
of the Province of Québec and is a
wholly-owned subsidiary of Caisse de dépôt et
placement du Québec (the “Caisse”). No
corporation directly or indirectly owns 10% or
more of the equity interests of the Caisse,
which is also a mandatary of the Province of
Québec.
105. CDP
Capital
Tactical
Alternative
Investments was merged into CDP Capital
inc. on September 1, 2005, prior to the
commencement of the action that is the
subject of this appeal. CDP Capital inc. was

290a
then a mandatary of the Province of Québec
and a wholly-owned subsidiary of the Caisse.
CDP Capital inc. was dissolved on December
31, 2015.
106. Inter Investissements S.A., f/k/a Inter Conseil
S.A., is a société anonyme (a public company
limited by shares) incorporated and organized
under the laws of Luxembourg. Téthys SAS
holds 100 percent of the shares of Inter
Investissements S.A. Téthys SAS is not a
publicly traded corporation and has no parent
company, and no publicly held corporation
owns more than ten percent of its shares.
107. PF Trustees Limited1 hereby states that it
has no parent corporation and that no
publicly-held company owns 10% or more of
its stock.
108. SafeHand Investments hereby states that it is
wholly owned by RD Trust and that no
publicly-held company owns 10% or more of
its stock.
109. Strongback Holdings Corporation hereby
states that it is wholly owned by RD Trust and
that no publicly-held company owns 10% or
more of its stock.
110. SIX SIS AG, formerly known as SIS
SegaInterSettle AG, is a wholly owned
subsidiary of SIX Securities Services AG, and
1

PF Trustees is listed as a petitioner in its capacity as trustee
of RD Trust.

291a
UBS AG and Credit Suisse AG each indirectly
owns 10% or more of SIX SIS AG’s stock.
111. Kingate Management Limited has no
corporate parent and no publicly-held
company owns 10% or more of its stock.
112. Stichting
administratiekantoor
beheer
financiële instellingen owns more than 10% of
the equity interests in SNS Bank N.V. (now
known as de Volksbank N.V.).
113. Stichting
Administratiekantoor
Bewaarbedrijven SNS owns more than 10% of
the equity interests in SNS Global Custody
B.V.
114. Banca Carige SPA is a wholly-owned
subsidiary of Gruppo Banca Carige which is a
publicly owned company.
The only
shareholder of Gruppo Banca Carige with
shares exceeding
10% is Malacalza
Investimenti.
115. National Bank of Kuwait S.A.K., now known
as National Bank of Kuwait S.A.K.P., is a
publicly traded company with no parent
corporation or holder of more than 10% of its
stock.
116. Kookmin Bank is wholly owned by KB
Financial Group Inc., which is a publicly
traded company with no parent corporation or
holder of more than 10% of its stock.
117. Korea Exchange Bank, which has become
KEB Hana Bank, has become Hana Financial

292a
Group as its parent, which is believed not to
have any holder of more than 10% of its stock.
118. Meritz Fire & Marine Insurance Co., Ltd.
(“Meritz”), a private, non-government party,
files its corporate ownership statement and
certifies as follows:
Meritz Financial Group, Inc. owns 10% or more of
Meritz’s stock. No other corporation directly
or indirectly owns 10% or more of any class of
the equity interests of Meritz.
119. Nomura International plc states that Nomura
International plc is a wholly-owned
subsidiary of Nomura Europe Holdings plc,
which, in turn, is a wholly-owned subsidiary
of Nomura Holdings, Inc., a publicly traded
company.
120. Banco Itaú International, f/k/a Banco Itaú
Europa International, states that Banco Itaú
International’s direct corporate parent is Itau
BBA International, plc and its corporate
grandparents are Itau International Holding
Limited., ITB Holding Brasil Participações
Ltda., Itaú Unibanco S.A. and Itaú Unibanco
Holding S.A.
121. Itaú Europa Luxembourg, S.A., f/k/a Banco
Itaú Europa Luxembourg, S.A., states that
Itaú Europa Luxembourg, S.A.’s direct
corporate parent is Itau BBA International
plc and its corporate grandparents are Itau
International Holding Limited., ITB Holding
Brasil Participações Ltda., Itaú Unibanco

293a
S.A. and Itaú Unibanco Holding S.A.
122. Delta National Bank and Trust Company is a
nongovernmental corporate party for which
the Delta North Bankcorp Inc. owns 10% or
more of its stock.
123. Banque Internationale à Luxembourg S.A.
hereby states that Legend Holdings
Corporation owns 10% or more of its stock.
124. Banque Internationale à Luxembourg
(Suisse) S.A. hereby states that Banque
Internationale à Luxembourg SA owns 10% or
more of its stock.
125. Dakota Global Investments, Ltd. hereby
states that Rafale Partners, Inc. owns 10% or
more of its stock.
126. Credit Suisse AG has listed debt securities
and warrants in the United States and
elsewhere. Credit Suisse AG is a wholly
owned subsidiary of Credit Suisse Group AG,
a corporation organized under the laws of
Switzerland.
Credit Suisse Group AG’s
shares are listed on the SIX Swiss Exchange
and are also listed on the New York Stock
Exchange in the form of American Depositary
Shares.
127. Credit Suisse AG, Nassau Branch is a branch
of Credit Suisse AG.
128. Credit Suisse AG, Nassau Branch Wealth
Management is a department of Credit Suisse
AG, Nassau Branch.

294a
129. Credit Suisse AG, Nassau Branch LATAM
Investment Banking is a department of
Credit Suisse AG, Nassau Branch.
130. Credit Suisse Wealth Management Limited
(CSWML) was a subsidiary of Credit Suisse
(Bahamas) Limited. On January 1, 2008,
CSWML assigned its business, rights, and
obligations to Credit Suisse AG, Nassau
Branch (Wealth Management Department).
CSWML was removed from the Registrar of
Companies on December 29, 2008.
131. Credit Suisse (Luxembourg) SA is wholly
owned by Credit Suisse AG.
132. Credit Suisse International (named herein as
“Credit Suisse International Limited”) is
indirectly wholly owned by Credit Suisse
Group AG.
133. Credit Suisse Nominees (Guernsey) Limited
is wholly owned by Credit Suisse AG.
134. Credit Suisse (UK) Limited is indirectly
wholly owned by Credit Suisse AG. Credit
Suisse PSL GmbH also owns voting interests
in Credit Suisse (UK) Limited, and Credit
Suisse PSL GmbH is wholly owned by Credit
Suisse AG.
135. Credit Suisse London Nominees Limited is
wholly owned by Credit Suisse (UK) Limited.
136. Credit Suisse Securities (USA) LLC is wholly
owned by Credit Suisse (USA), Inc. Credit
Suisse (USA), Inc. is wholly owned by Credit

295a
Suisse Holdings (USA), Inc. Credit Suisse
Holdings (USA), Inc. is wholly owned by
Credit Suisse AG.
137. No corporate entity directly or indirectly owns
10% or more of any class of Solon Capital’s
equity interests.
138. Credit Suisse International owns 100% of
Zephyros Limited’s equity interests.
139. Lighthouse Investment Partners, LLC, d/b/a
Lighthouse Partners ("Partners"); Lighthouse
Supercash Fund Limited, n/k/a Lighthouse
Low Volatility Fund Limited (“Supercash”);
and Lighthouse Diversified Fund Limited
("Diversified") make the following disclosures:
a. Partners is a wholly-owned subsidiary of
Navigator Global Investments Limited, an
Australian Securities Exchange-listed
company;
b. Supercash is not a publicly traded
corporation, has no parent corporation,
and no publicly held corporation owns 10%
or more of its stock; and
c. Diversified is not a publicly traded
corporation, has no parent corporation,
and no publicly held corporation owns 10%
or more of its stock.
140. ABN AMRO N.V. (known as The Royal Bank
of Scotland N.V. and presently known as
NatWest Markets N.V.) states that it is a
wholly owned subsidiary of RBS Holdings

296a
N.V., which is a wholly owned subsidiary of
RFS Holdings B.V., of which 97.7% is owned
by The Royal Bank of Scotland Group plc. No
publicly held corporation owns 10% or more of
the stock of The Royal Bank of Scotland
Group plc.
141. BA Worldwide Fund Management Ltd.
(“BAWFM”) states that it is a closely-held BVI
company, more than 10% of which is
indirectly owned by UniCredit Bank Austria
AG, which itself is a subsidiary of UniCredit
S.p.A., a publicly-held corporation whose
shares trade on the Borsa Italiana, Italy’s
main stock exchange.
142. Odyssey Alternative Strategies Fund Limited
(“Odyssey”) by and through its counsel, states
that it has no parent corporation nor is there
any publicly held corporation owning 10% or
more of its stock.
143. Fairfield Investment Fund Limited (a private
non-governmental
party),
through
its
attorneys, states that the following corporate
entities own, directly or indirectly, 10% or
more of any class of its equity interest: Banco
Bilbao Vizcaya Argentaria and Lion Global
Investors Ltd.
144. Grosvenor Investment Management Ltd.,
Grosvenor Private Reserve Fund Limited,
Grosvenor Balanced Growth Fund Limited,
and Grosvenor Aggressive Growth Fund
Limited
(collectively,
the
“Grosvenor
Defendants-Appellees”), by and through

297a
undersigned counsel, makes the following
disclosure:
No corporation directly or indirectly owns
10% or more of any class of equity interests in
any of the Grosvenor Defendants-Appellees.
145. Lion Global Investors Limited (“LGI”) (a
corporate non-governmental party) states
that LGI is 70%-owned by Great Eastern
Holdings Limited (“Great Eastern”) and
30%-owned by Orient Holdings Private
Limited (“Orient Holdings”). Great Eastern is
majority-owned and Orient Holdings is
wholly-owned by Oversea-Chinese Banking
Corporation Limited (“OCBC”). LGI, Great
Eastern, Orient Holdings and OCBC are
corporations formed under the laws of
Singapore.
146. Bureau of Labor Insurance (“BLI”) certifies
that BLI is a governmental entity organized
under the laws of the Republic of China, and
is exempt from this requirement pursuant to
U.S. Supreme Court Rules 14(1)(b) and 29(6);
without limitation to the foregoing, BLI
certifies that it has no corporate parent and
no publicly held corporation owns 10% of
BLI’s stock.
147. Barclays Bank (Suisse) S.A. is an indirect
subsidiary of Barclays Bank PLC. Barclays
Bank PLC is in turn a direct subsidiary of
Barclays PLC, a publicly held company whose
shares are listed on the London Stock
Exchange. No other corporation owns 10% or

298a
more of the stock of Barclays Bank (Suisse)
S.A.
148. CaixaBank, S.A. is the successor by merger by
absorption to the bank formerly known (and
named herein) as Barclays Bank S.A.
CriteriaCaixa owns 40% interest in
CaixaBank, S.A., whose shares are listed in
Spain. CriteriaCaixa is solely owned by “la
Caixa” Banking Foundation.
149. The only holder of more than 10% of the
ownership interest in Appellee Bank Audi
S.A.M.-Audi Saradar Group, FKA Dresdner
Bank Monaco S.A.M. is Banaudi Holding
Cyprus. The only holder of more than 10% of
the ownership interest in Banaudi Holding
Cyprus is Bank Audi sal. The only holder of
more than 10% of the ownership interest in
Bank Audi sal is Deutsche Bank Trust
Company Americas, which holds common
shares in its capacity as a depositary.
150. UKFP
(Asia)
Nominees
Limited
(a
non-operational entity) is wholly owned by
Henderson
Global
Investors
Asset
Management Limited, which in turn is wholly
owned by Henderson Global Investors
(Holdings) Limited, which in turn is wholly
owned by HGI Group Limited, which in turn
is wholly owned by Henderson Holdings
Group Limited, which in turn is wholly owned
by Henderson Global Group Limited, which in
turn is wholly owned by HGI Asset
Management Group Limited, which in turn is

299a
wholly owned by Henderson Group Holdings
Asset Management Limited, which in turn is
wholly owned by Janus Henderson Group plc.
(formerly known as Henderson Group plc.).
151. Intesa Sanpaolo S.p.A. is a publicly held
corporation that has no parent corporation.
No publicly held corporation owns 10% or
more of Intesa Sanpaolo S.p.A.’s stock.
152. Eurizon Capital SGR S.p.A.2 is wholly owned
2

The Complaint in Case No. 17-1352 names as defendants
Eurizon Capital SGR S.p.A., f/k/a Nextra Alternative
Investments SGR S.p.A. (“Eurizon Capital”), Eurizon Low
Volatility, f/k/a Nextra Low Volatility (“Eurizon Low
Volatility”), Eurizon Low Volatility II, f/k/a Nextra Low
Volatility II (“Eurizon Low Volatility II”), Eurizon Low
Volatility PB, f/k/a Nextra Low Volatility PB (“Eurizon Low
Volatility PB”), Eurizon Medium Volatility, f/k/a Nextra
Medium Volatility (“Eurizon Medium Volatility”), Eurizon
Medium Volatility II, f/k/a Nextra Medium Volatility II
(“Eurizon Medium Volatility II”), and Eurizon Total Return,
f/k/a Nextra Total Return (“Eurizon Total Return”). The
Complaint characterizes Eurizon Low Volatility, Eurizon Low
Volatility II, Eurizon Low Volatility PB, Eurizon Medium
Volatility, Eurizon Medium Volatility II, and Eurizon Total
Return each as an Italian “fondo comune di investimento,”
which is not a legal entity under Italian law. The assets of
these funds were managed and promoted by the asset
manager, Eurizon Capital. Moreover, prior to the filing of the
Complaint, the assets of Eurizon Low Volatility II and Eurizon
Low Volatility PB were merged into Eurizon Low Volatility,
and the assets of Eurizon Medium Volatility II were merged
into Eurizon Medium Volatility. On August 1, 2013, the assets
of Eurizon Medium Volatility and Eurizon Total Return were
merged into Eurizon Low Volatility. Accordingly, the only fund
that exists today, and which is currently managed by Eurizon
Capital, is Eurizon Low Volatility.

300a
by Intesa Sanpaolo S.p.A., a publicly held
company.
153. Eurizon Capital SGR S.p.A. is the only
corporation that directly or indirectly owns
10% or more of any class of units in Eurizon
Low Volatility.
154. First Abu Dhabi Bank PJSC (“FAB”)
(formerly known as First Gulf Bank PJSC),
discloses that it is a publicly held corporation
whose shares are admitted to trading on the
Abu Dhabi Securities Exchange (ADX).
155. Merrill Lynch Bank (Suisse) S.A. was merged
into Bank Julius Baer & Co. Ltd. (“BJB”) on
May 31, 2013. Merrill Lynch Bank (Suisse)
S.A., through its undersigned attorneys,
identifies Julius Baer Group Ltd. as directly
or indirectly owning 10% or more of any class
of BJB’s equity interests.
156. Merrill Lynch International is an indirect
wholly-owned subsidiary of Bank of America
Corporation. Bank of America Corporation is
a publicly held company whose shares are
traded on the New York Stock Exchange and
has no parent corporation. Based on the U.S.
Securities and Exchange Commission Rules
regarding beneficial ownership, Berkshire
Hathaway Inc., 3555 Farnam Street, Omaha,
Nebraska 68131, beneficially owns greater
than 10% of Bank of America Corporation’s
outstanding common stock.
157. Zedra Trust Company (Jersey) Limited,

301a
formerly known (and named herein) as
Barclays Private Bank & Trust Limited, is an
indirect wholly owned subsidiary of Zedra
Holdings S.A. Each of Barclays PLC and
Zedra S.A. owns 10% or more of the stock of
Zedra Holdings S.A. Barclays PLC is a
publicly held company whose shares are listed
on the London Stock Exchange and which also
has American Depositary Receipts listed on
the New York Stock Exchange. Zedra S.A. is
privately held, and no other corporation owns
10% or more of its stock. Except as stated
above, no corporation directly or indirectly
owns 10% or more of the stock of Zedra Trust
Company (Jersey) Limited.
158. Standard Chartered Financial Services
(Luxembourg) S.A. states that it is a company
in official liquidation under the laws of the
Grand Duchy of Luxembourg; that it is an
indirect wholly-owned subsidiary of Standard
Chartered PLC; and that Temasek Holdings
(Private) Limited is the only corporation of
which Defendant-Appellee is aware that
directly or indirectly owns 10 percent or more
of any of Standard Chartered PLC’s equity
interests.
159. Standard Chartered Bank International
(Americas) Ltd. states that it is a
wholly-owned
subsidiary
of
Standard
Chartered Bank, which in turn is a
wholly-owned
subsidiary
of
Standard
Chartered Holdings Ltd., which in turn is a
wholly-owned
subsidiary
of
Standard

302a
Chartered PLC. Temasek Holdings (Private)
Limited is the only corporation of which
Defendant-Appellee is aware that directly or
indirectly owns 10 percent or more of any of
Standard Chartered PLC’s equity interests.
160. Standard Chartered International (USA)
Ltd., which has been converted into a limited
liability company and renamed Standard
Chartered International (USA) LLC, states
that it is a wholly-owned subsidiary of
Standard Chartered Holdings Inc., which in
turn is an indirect wholly-owned subsidiary of
Standard Chartered PLC. Temasek Holdings
(Private) Limited is the only corporation of
which Defendant-Appellee is aware that
directly or indirectly owns 10 percent or more
of any of Standard Chartered PLC’s equity
interests.
161. Equity interests in Korea Investment Trust
Management Company are wholly owned by
its parent Korea Investment & Securities,
which is in turn wholly owned by Korea
Investment Holdings Co. Ltd., a Korean
publicly traded company.
162. Natixis
Financial
Products
LLC
(successor-in-interest to Natixis Financial
Products Inc.) is a wholly-owned subsidiary of
Natixis North America LLC, which is an
indirect wholly-owned subsidiary of Natixis
S.A.
163. Natixis S.A. (in its own capacity and as
successor-in-interest to IXIS Corporate &

303a
Investment Bank [incorrectly also named in
the complaint as Natixis Corporate and
Investment Bank]) is owned in part by Group
BPCE, a French banking group that is not
publicly traded. Natixis S.A. is in part
publicly held and traded on the Euronext
Paris Exchange.
164. Ten percent or more of the equity interest in
Bloom Asset Holdings Fund is indirectly held
by Natixis S.A.
165. Union Securities Investment Trust Co., Ltd.
(“USITC”) discloses that the following
corporations directly or indirectly own 10% or
more of USITC’s equity interests: Union Bank
of Taiwan, Pai-Ying Investment Co., Ltd.,
Quen-Jzo
Investment
Co,
Ltd.
and
Tien-Sheng Investment Co., Ltd.
166. BNP Paribas S.A., a publicly traded company,
states that no publicly held corporation owns
more than 10% of its shares.
167. BNP Paribas (Suisse) SA identifies BNP
Paribas S.A. as a corporation that directly or
indirectly owns 10% or more of any class of
BNP Paribas (Suisse) SA’s equity interests.
168. BNP Paribas Arbitrage SNC identifies BNP
Paribas S.A. as a corporation that directly or
indirectly owns 10% or more of any class of
BNP Paribas Arbitrage SNC’s equity
interests.
169. BNP Paribas Bank & Trust Cayman Limited
identifies BNP Paribas Securities Services

304a
S.C.A. as a corporation that directly or
indirectly owns 10% or more of any class of
BNP Paribas Bank & Trust Cayman
Limited’s equity interests.
170. BGL BNP Paribas S.A. (sued as BGL BNP
Paribas Luxembourg S.A.) identifies BNP
Paribas S.A. and BNP Paribas Fortis Bank
SA/NV (formerly Fortis Bank SA/NV) as
corporations that directly or indirectly own
10% or more of any class of BGL BNP Paribas
S.A.’s equity interests.
171. BNP Paribas Securities Services S.C.A.,
Luxembourg Branch (sued as BNP Paribas
Securities Services – Succursale de
Luxembourg) is a branch of BNP Paribas
Securities Services S.C.A., which identifies
BNP Paribas S.A. as a corporation that
directly or indirectly owns 10% or more of any
class of its equity interests.
172. BNP Paribas Securities Services S.C.A. (sued
as BNP Paribas Securities Services S.A.)
identifies BNP Paribas S.A. as a corporation
that directly or indirectly owns 10% or more
of any class of BNP Paribas Securities
Services S.C.A.’s equity interests. On June
30, 2011, BNP Paribas Securities Services
S.A. converted into an S.C.A. (a société en
commandite par actions).
173. Crédit Agricole S.A., a publicly traded French
corporate entity, identifies SAS Rue La
Boétie, a corporation wholly-owned by the
Regional Banks of Crédit Agricole, as the

305a
majority owner of Crédit Agricole S.A. No
publicly held corporation owns 10% or more of
the stock of Crédit Agricole S.A.
174. CA Indosuez (Switzerland) S.A., f/k/a Crédit
Agricole (Suisse) S.A., states that it is wholly
owned by CA Indosuez Wealth (Group) S.A.
CA Indosuez Wealth (Group) S.A. is wholly
owned by Crédit Agricole Corporate and
Investment Bank. Crédit Agricole Corporate
and Investment Bank is 97.33% owned by
Crédit Agricole S.A., which is a publicly
traded French corporate entity, the majority
owner of which is SAS Rue La Boétie, a
corporation wholly-owned by the Regional
Banks of Crédit Agricole.
175. Crédit Agricole Corporate and Investment
Bank, 1301 Avenue of the Americas New
York, NY 10019, d/b/a Crédit Agricole Private
Banking Miami, f/k/a Calyon S.A., d/b/a
Crédit Agricole Miami Private Bank,
Successor in Interest to Credit Lyonnais n/k/a
LCL-LE Credit Lyonnais SA., is 97.33%
owned by Crédit Agricole S.A., which is a
publicly traded French corporate entity, the
majority owner of which is SAS Rue La
Boétie, a corporation wholly-owned by the
Regional Banks of Crédit Agricole.
176. Bank Hapoalim B.M., states that it is a
publicly held corporation and that no other
publicly held corporation owns 10% or more of
Bank Hapoalim B.M. stock.
177. Hapoalim (Switzerland) Ltd., formerly known

306a
as Bank Hapoalim (Switzerland) Ltd., states
that it is wholly owned by Bank Hapoalim
B.M. and that no other publicly held
corporation owns 10% or more of Hapoalim
(Switzerland) Ltd.’s stock.
178. Citibank (Switzerland) AG is wholly owned by
Citicorp Banking Corporation, Delaware
(USA), which is in turn owned by Citigroup
Inc. Citigroup Inc. is a publicly held
corporation that has no parent corporation.
No publicly held corporation owns 10% or
more of Citigroup Inc.
179. Citigroup Global Markets Limited is a wholly
owned subsidiary of Citigroup Global Markets
Holdings Bahamas Limited. Citigroup Global
Markets Holdings Bahamas Limited is
partially owned by Citigroup Global Markets
(International) Finance GmbH, Citigroup
Global Markets Switzerland Holding GmbH,
and Citigroup Financial Products Inc.
Citigroup Global Markets (International)
Finance GmbH and Citigroup Global Markets
Switzerland Holding GmbH are wholly owned
subsidiaries of Citigroup Financial Products
Inc. Citigroup Financial Products Inc. is a
wholly owned subsidiary of Citigroup Global
Markets Holdings Inc.
Citigroup Global
Markets Holdings Inc. is a wholly owned
subsidiary of Citigroup Inc. Citigroup Inc. is
a publicly held corporation that has no parent
corporation. No publicly held corporation
owns 10% or more of Citigroup Inc.

307a
180. Citi Hedge Fund Services Limited changed its
name to Citi Fund Services (Bermuda), Ltd.
in January 2013. In March 2016, Citi Fund
Services (Bermuda), Ltd. was acquired by
SS&C
Technologies
Holdings,
Inc.,
subsequently changing its name to SS&C
Fund Services (Bermuda) Ltd. SS&C Fund
Services (Bermuda) Ltd. is ultimately wholly
owned by SS&C Technologies Holdings, Inc.,
a publicly held corporation that has no parent
corporation. No publicly held corporation
owns 10% or more of SS&C Technologies
Holdings, Inc.

308a
APPENDIX H
APPENDIX OF RELATED CASES
United States Court of Appeals
for the Second Circuit
Case Name:

Case
No.:

Date of
Entry of
Judgment:

Dkt.
No.:

1. In re Picard

17-2992

Feb. 25,
2019

1311

2. In re Picard

17-2995

Feb. 25,
2019

316

3. In re Picard

17-2996

Feb. 25,
2019

315

4. In re Picard

17-2999

Feb. 25,
2019

319

5. In re Picard

17-3003

Feb. 25,
2019

326

6. In re Picard

17-3004

Feb. 25,
2019

318

7. In re Picard

17-3005

Feb. 25,
2019

314

8. In re Picard

17-3006

Feb. 25,
2019

311

309a
9. In re Picard

17-3007

Feb. 25,
2019

317

10.In re Picard

17-3008

Feb. 25,
2019

314

11.In re Picard

17-3009

Feb. 25,
2019

325

12.In re Picard

17-3010

Feb. 25,
2019

325

13.In re Picard

17-3011

Feb. 25,
2019

315

14.In re Picard

17-3012

Feb. 25,
2019

315

15.In re Picard

17-3013

Feb. 25,
2019

325

16.In re Picard

17-3014

Feb. 25,
2019

317

17.In re Picard

17-3016

Feb. 25,
2019

314

18.In re Picard

17-3018

Feb. 25,
2019

313

19.In re Picard

17-3019

Feb. 25,
2019

318

20.In re Picard

17-3020

Feb. 25,
2019

319

310a
21.In re Picard

17-3021

Feb. 25,
2019

313

22.In re Picard

17-3023

Feb. 25,
2019

314

23.In re Picard

17-3024

Feb. 25,
2019

317

24.In re Picard

17-3025

Feb. 25,
2019

313

25.In re Picard

17-3026

Feb. 25,
2019

317

26.In re Picard

17-3029

Feb. 25,
2019

310

27.In re Picard

17-3032

Feb. 25,
2019

316

28.In re Picard

17-3033

Feb. 25,
2019

319

29.In re Picard

17-3034

Feb. 25,
2019

314

30.In re Picard

17-3035

Feb. 25,
2019

314

31.In re Picard

17-3038

Feb. 25,
2019

327

32.In re Picard

17-3039

Feb. 25,
2019

310

311a
33.In re Picard

17-3040

Feb. 25,
2019

315

34.In re Picard

17-3041

Feb. 25,
2019

314

35.In re Picard

17-3042

Feb. 25,
2019

317

36.In re Picard

17-3043

Feb. 25,
2019

323

37.In re Picard

17-3044

Feb. 25,
2019

315

38.In re Picard

17-3047

Feb. 25,
2019

319

39.In re Picard

17-3050

Feb. 25,
2019

310

40.In re Picard

17-3054

Feb. 25,
2019

317

41.In re Picard

17-3057

Feb. 25,
2019

302

42.In re Picard

17-3058

Feb. 25,
2019

319

43.In re Picard

17-3059

Feb. 25,
2019

315

44.In re Picard

17-3060

Feb. 25,
2019

312

312a
45.In re Picard

17-3062

Feb. 25,
2019

334

46.In re Picard

17-3064

Feb. 25,
2019

312

47.In re Picard

17-3065

Feb. 25,
2019

323

48.In re Picard

17-3066

Feb. 25,
2019

357

49.In re Picard

17-3067

Feb. 25,
2019

314

50.In re Picard

17-3068

Feb. 25,
2019

313

51.In re Picard

17-3069

Feb. 25,
2019

315

52.In re Picard

17-3070

Feb. 25,
2019

313

53.In re Picard

17-3071

Feb. 25,
2019

315

54.In re Picard

17-3072

Feb. 25,
2019

317

55.In re Picard

17-3073

Feb. 25,
2019

314

56.In re Picard

17-3074

Feb. 25,
2019

313

313a
57.In re Picard

17-3075

Feb. 25,
2019

316

58.In re Picard

17-3076

Feb. 25,
2019

321

59.In re Picard

17-3077

Feb. 25,
2019

339

60.In re Picard

17-3078

Feb. 25,
2019

317

61.In re Picard

17-3080

Feb. 25,
2019

311

62.In re Picard

17-3083

Feb. 25,
2019

320

63.In re Picard

17-3084

Feb. 25,
2019

314

64.In re Picard

17-3086

Feb. 25,
2019

316

65.In re Picard

17-3087

Feb. 25,
2019

314

66.In re Picard

17-3088

Feb. 25,
2019

315

67.In re Picard

17-3091

Feb. 25,
2019

311

68.In re Picard

17-3100

Feb. 25,
2019

320

314a
69.In re Picard

17-3101

Feb. 25,
2019

315

70.In re Picard

17-3102

Feb. 25,
2019

312

71.In re Picard

17-3106

Feb. 25,
2019

322

72.In re Picard

17-3109

Feb. 25,
2019

316

73.In re Picard

17-3112

Feb. 25,
2019

316

74.In re Picard

17-3113

Feb. 25,
2019

320

75.In re Picard

17-3115

Feb. 25,
2019

323

76.In re Picard

17-3117

Feb. 25,
2019

320

77.In re Picard

17-3122

Feb. 25,
2019

316

78.In re Picard

17-3126

Feb. 25,
2019

311

79.In re Picard

17-3129

Feb. 25,
2019

315

80.In re Picard

17-3132

Feb. 25,
2019

317

315a
81.In re Picard

17-3134

Feb. 25,
2019

316

82.In re Picard

17-3136

Feb. 25,
2019

316

83.In re Picard

17-3139

Feb. 25,
2019

320

84.In re Picard

17-3140

Feb. 25,
2019

315

85.In re Picard

17-3141

Feb. 25,
2019

323

86.In re Picard

17-3143

Feb. 25,
2019

318

87.In re Picard

17-3144

Feb. 25,
2019

311

88.In re Picard

17-3862

Feb. 25,
2019

283

316a
United States District Court
for the Southern District of New York
Case Name:

Case
No.:

Date of
Dkt.
Entry of
No.:
Judgment:

1. Securities
Investor
Protection
Corporation v.
Bernard L.
Madoff
Investment
Securities
L.L.C.

12-mc0115JSR

July 7,
2014

551

2. Picard v. Alpha
Prime Fund
Limited et al

11-cv6524JSR

July 7,
2014

40

3. Bernard L.
Madoff
Investment
Securities LLC
et al v. ABN
AMRO Bank
N.A. et al

11-cv6848JSR

July 7,
2014

36

4. Picard v. ABN
AMRO Bank
N.A. et al

11-cv6878JSR

July 7,
2014

45

317a
5. Bernard L.
Madoff
Investment
Securities LLC
et al v. ABN
AMRO Bank
(Ireland) Ltd.
et al

11-cv6849JSR

July 7,
2014

36

6. Picard v. ABN
AMRO Bank
(Ireland) Ltd.
et al

11-cv6877JSR

July 7,
2014

45

7. Picard v. Banco
Bilbao Vizcaya
Argentaria,
S.A.

11-cv7100JSR

July 7,
2014

28

8. Picard v.
Kingate Global
Fund, Ltd. et al

11-cv7134JSR

July 7,
2014

44

9. Picard v. BNP
Paribas
Investment
Partners
Luxembourg
S.A. et al

11-cv7763JSR

July 7,
2014

26

10.Picard v. BNP
Paribas
Arbitrage, SNC
et al

11-cv7810JSR

July 7,
2014

19

318a
11.Picard v. BNP
Paribas
Arbitrage SNC

12-cv0641JSR

July 7,
2014

15

12.Picard v.
Barclays Bank
(Suisse) S.A. et
al

12-cv1882JSR

July 7,
2014

19

13.Picard v. ABN
AMRO Bank
N.V. et al

12-cv1939JSR

July 7,
2014

22

14.Picard v.
Bernard L.
Madoff
Investment
Securities LLC
et al

12-cv2161JSR

July 7,
2014

19

15.Picard v. HSBC
Bank PLC et al

12-cv2162JSR

July 7,
2014

19

16.Irving H.
Picard v. HSBC
Bank PLC et al

12-cv2239JSR

July 7,
2014

19

17.Picard v. Sonja
Kohn et al

12-cv2240JSR

July 7,
2014

15

18.Picard v. Bank
Julius Baer &
Co. Ltd.

12-cv2311JSR

July 7,
2014

17

319a
19.Picard v. Lion
Global
Investors
Limited

12-cv2349JSR

July 7,
2014

15

20.Picard v.
Grosvenor
Investment
Management
Ltd. et al

12-cv2351JSR

July 7,
2014

15

21.Picard v.
Inteligo Bank
LTD. Panama
Branch

12-cv2364JSR

July 7,
2014

19

22.Picard v. Banca
Carige S.P.A.

12-cv2408JSR

July 7,
2014

18

23.Picard v.
Somers Dublin
Limited et al

12-cv2430JSR

July 7,
2014

15

24.Picard v. HSBC
Bank USA,
N.A. et al

12-cv2431JSR

July 7,
2014

18

25.Picard v. Banco
Itau Europa
Luxembourg
S.A. et al

1:12-cv2432JSR

July 7,
2014

22

320a
26.Picard v. Caceis 12-cvBank
2434Luxembourg et JSR
al

July 7,
2014

22

27.Picard v.
Banque Privee
Espirito Santo
S.A.

12-cv2442JSR

July 7,
2014

20

28.Picard v.
Nomura
International
plc

12-cv2443JSR

July 7,
2014

15

29.Picard v.
Nomura Bank
International
PLC

12-cv2446JSR

July 7,
2014

15

30.Picard v. The
Sumitomo
Trust and
Banking Co.,
Ltd.

12-cv2481JSR

July 7,
2014

19

31.Picard v. M&B
Capital
Advisers
Sociedad De
Valores, S.A. et
al

12-cv2483JSR

July 7,
2014

16

321a
32.Picard v.
Unifortune
Asset
Management
SGR SPA et al

12-cv2485JSR

July 7,
2014

15

33.Picard v.
Trincaster
Corporation

12-cv2486JSR

July 7,
2014

17

34.Picard v.
Banque SYZ &
Co., SA

12-cv2489JSR

July 7,
2014

15

35.Picard v.
Square One
Fund Ltd. et al

12-cv2490JSR

July 7,
2014

20

36.Picard v. Credit 12-cvAgricole
2494(Suisse) S.A. et JSR
al

July 7,
2014

13

37.Picard v. SNS
Bank N.V. et al

12-cv2509JSR

July 7,
2014

17

38.Picard v.
Quilvest
Finance Ltd.

12-cv2580JSR

July 7,
2014

16

39.Picard v. Arden
Asset
Management
Inc. et al

12-cv2581JSR

July 7,
2014

20

322a
40.Picard v.
Banque J.
Safra (Suisse)
SA f/k/a
Banque Jacob
Safra (Suisse)
SA

12-cv2587JSR

July 7,
2014

14

41.Picard v.
Banque Jacob
Safra
(Gibraltar) Ltd.
a/k/a Bank J
Safra Limited

12-cv2588JSR

July 7,
2014

14

42.Picard v. Abu
Dhabi
Investment
Authority

12-cv2616JSR

July 7,
2014

15

43.Picard v.
Chester Global
Strategy Fund
Limited et al

12-cv2619JSR

July 7,
2014

19

44.Picard v.
12-cvFairfield Sentry 2638Limited (In
JSR
Liquidation) et
al

July 7,
2014

16

323a
45.Picard v. Plaza
Investments
International
Limited et al

12-cv2646JSR

July 7,
2014

21

46.Picard v.
Defender
Limited et al

12-cv2800JSR

July 7,
2014

14

47.Picard v.
Reliance
Management
(BVI) Limited
et al

12-cv2802JSR

July 7,
2014

17

48.Picard v. The
Estate
(Succession) of
Doris Igoin et
al

12-cv2872JSR

July 7,
2014

17

49.Picard v. KBC
Investments
Limited

12-cv2877JSR

July 7,
2014

18

50.Picard v.
Meritz Fire &
Marine
Insurance Co.
Ltd

12-cv2878JSR

July 7,
2014

22

51.Picard v. Flax

12-cv2928JSR

July 7,
2014

17

324a
52.Picard v. Orbita 12-cvCapital Return 2934Strategy
JSR
Limited

July 7,
2014

16

53.Picard v.
Atlantic
Security Bank

12-cv2980JSR

July 7,
2014

18

54.Picard v.
Cardinal
Management,
Inc. et al

12-cv2981JSR

July 7,
2014

21

55.Picard v.
Radcliff
Investments
Limited et al

l2-cv2982JSR

July 7,
2014

21

56.Picard v.
PICTET ET
CIE

l2-cv3402JSR

July 7,
2014

16

57.Picard v.
Merrill Lynch
International

l2-cv3486JSR

July 7,
2014

14

58.Picard v.
Merrill Lynch
Bank (Suisse)
SA

l2-cv3487JSR

July 7,
2014

14

325a
59.Picard v.
Fullerton
Capital PTE
Ltd.

l2-cv3488JSR

July 7,
2014

14

60.Picard v.
Cathay Life
Insurance Co.
LTD. et al

l2-cv3489JSR

July 7,
2014

27

61.Picard v.
Standard
Chartered
Financial
Services
(Luxembourg)
S.A. et al

12-cv4328JSR

July 7,
2014

14

62.Picard v.
Barfield
Nominees
Limited et al

12-cv5278JSR

July 7,
2014

17

63.Picard v. BNP
Paribas S.A. et
al

12-cv5796JSR

July 7,
2014

19

64.Picard v. Six
Sis AG

12-cv5906JSR

July 7,
2014

18

65.Picard v. Bank
Hapoalim B.M.
et al

12-cv6187JSR

July 7,
2014

17

326a
66.Picard v. Intesa
Sanpaolo SpA
et al

12-cv6291JSR

7/7/2019

19

67.Picard v.
Odyssey et al

12-cv6290JSR

July 7,
2014

15

68.Picard v.
Standard
Chartered
Financial
Services
(Luxembourg)
S.A. et al

12-cv06292JSR

July 7,
2014

17

69.Picard v. Intesa
Sanpaolo SpA
et al

12-cv7157JSR

July 7,
2014

20

70.Picard v. Citivic 12-cvNominees Ltd
7228JSR

July 7,
2014

17

71.Picard v.
Caprice
International
Group Inc. et al

12-cv7230JSR

July 7,
2014

17

72.Picard v.
Banque
Degroof SA/NV
et al

12-cv8709JSR

July 7,
2014

25

327a
73.Picard v.
Banque
Cantonale
Vaudoise

12-cv8816JSR

July 7,
2014

19

74.Picard v.
Societe
Generale
Private
Banking
(Suisse) S.A. et
al

12-cv8860JSR

July 7,
2014

29

75.Picard v.
Lombard Odier
Darier Hentsch
& Cie

12-cv8858JSR

July 7,
2014

19

76.Picard v.
Bordier & Cie

12-cv8861JSR

July 7,
2014

19

77.Bernard L.
Madoff
Investment
Securities LLC
et al v. ABN
AMRO Fund
Services (Isle of
Man) Nominees
Limited et al

12-cv9115JSR

July 7,
2014

21

328a
78.Picard v. UBS
Deutschland
AG et al

12-cv9380JSR

July 7,
2014

25

79.Picard v. LGT
Bank in
Liechtenstein
Ltd.

13-cv1394JSR

July 7,
2014

18

329a
United States Bankruptcy Court
for the Southern District of New York
Case Name:

Case
No.:

Date of
Dkt.
Entry of
No.:
Judgment:

1. Securities
Investor
Protection
Corporation v.
Bernard L.
Madoff
Investment
Securities,
LLC. et al

081789SMB

Nov. 22,
2016

14495

2. Picard v.
Kingate Global
Fund, Ltd. et al

091161SMB

March 9,
2017

281

3. Picard v.
Fairfield
Investment
Fund Limited

091239SMB

March 10, 228
2017

4. Picard v. Alpha
Prime Fund
Limited

091364SMB

March 9,
2017

447

5. Picard v. UBS
AG, UBS
(Luxembourg)
SA

104285SMB

March 9,
2017

232

330a
6. Picard v.
Cardinal
Management,
Inc. et al

104287SMB

March 9,
2017

85

7. Picard v.
Radcliff
Investments
Limited et al

104517SMB

March 3,
2017

52

8. Picard v.
Oreades SICAV
represented by
its Liquidator

105120SMB

March 9.
2017

103

9. Picard v. UBS
AG et al

105311SMB

March 9,
2017

245

10.Picard v.
Merrill Lynch
International

105346SMB

March 3,
2017

107

11.Picard v.
Nomura Bank
International
PLC et al

105348SMB

March 3,
2017

108

12.Picard v. Banco
Bilbao Vizcaya
Argentaria,
S.A.

105351SMB

March 3,
2017

128

331a
13.Picard v.
Natixis et al

105353SMB

March 9,
2017

129

14.Picard v. ABN
AMRO
Retained
Custodial
Services
(Ireland) Lim

105355SMB

March 9,
2017

119

15.Picard v.
Banque SYZ &
Co., SA

112149SMB

March 9,
2017

109

16.Picard v. Abu
Dhabi
Investment
Authority

112493SMB

March 3,
2017

94

17.Picard v. Orbita 11Capital Return 2537Strategy
SMB
Limited

March 3,
2017

88

18.Picard v.
Quilvest
Finance LTD.

112538SMB

March 3,
2017

91

19.Picard v. Meritz 11Fire & Marine
2539Insurance Co.
SMB
LTD

March 3,
2017

103

332a
20.Picard v. Lion
Global
Investors
Limited

112540SMB

March 3,
2017

94

21.Picard v. First
Gulf Bank

112541SMB

March 3,
2017

71

22.Picard v.
Parson Finance
Panama S.A.

112542SMB

March 3,
2017

75

23.Picard v.
Unifortune
Asset
Management
SGR SPA et al

112553SMB

March 3,
2017

98

24.Picard v.
National Bank
of Kuwait
S.A.K.

112554SMB

March 3,
2017

92

25.Picard v.
Cathay Life
Insurance Co.
LTD. et al

112568SMB

March 3,
2017

99

26.Picard v.
Barclays Bank
(Suisse) S.A. et
al

112569SMB

March 3,
2017

104

333a
27.Picard v. Banca
Carige S.P.A.

112570SMB

March 3,
2017

93

28.Picard v.
Banque Privee
Espirito Santo
S.A.,

112571SMB

March 3,
2017

95

29.Picard v. Korea
Exchange
Bank,
Individually
And As Trustee

112572SMB

March 3,
2017

116

30.Picard v. The
Sumitomo
Trust and
Banking Co.,
Ltd.

112573SMB

March 3,
2017

97

31.Picard v.
Atlantic
Security Bank

112730SMB

March 3,
2017

85

32.Picard v.
Trincaster
Corporation

112731SMB

March 3,
2017

90

33.Picard v. Caceis 11Bank
2758Luxembourg et SMB
al

March 3,
2017

111

334a
34.Picard v.
Nomura
International
PLC

112759SMB

March 3,
2017

76

35.Picard v. ABN
AMRO BANK
N.V.

112760SMB

March 3,
2017

74

36.Picard v. KBC
Investments
Limited

112761SMB

Mar. 3,
2017

80

37.Picard v.
Lighthouse
Investment
Partners LLC

112762SMB

Mar. 3,
2017

84

38.Picard v.
Inteligo Bank
LTD. Panama
Branch

112763SMB

Mar. 6,
2017

94

39.Picard v.
Somers Dublin
Limited et al

112784SMB

Mar. 6,
2017

104

40.Picard v. BNP
Paribas
Arbitrage SNC

112796SMB

Mar. 6,
2017

80

41.Picard v.
Merrill Lynch
Bank (Suisse)
SA

112910SMB

Mar. 6,
2017

93

335a
42.Picard v. Bank
Julius Baer &
Co. Ltd.

112922SMB

Mar. 6,
2017

92

43.Picard v.
Falcon Private
Bank Ltd.

112923SMB

Mar. 6,
2017

102

44.Picard v. Credit 11Suisse AG et al 2925SMB

Mar. 6,
2017

87

45.Picard v. LGT
Bank in
Liechtenstein
Ltd.

112929SMB

Mar. 6,
2017

77

46.Picard v. The
Public
Institution For
Social Security

121002SMB

Mar. 6,
2017

97

47.Picard v.
Fullerton
Capital PTE
Ltd.

121004SMB

Mar. 6,
2017

90

48.Picard v. SICO
Limited

121005SMB

Mar. 6,
2017

79

49.Picard v. Banco
Itau Europa
Luxembourg
S.A. et al

121019SMB

Mar. 6,
2017

101

336a
50.Picard v.
Grosvenor
Investment
Management
Ltd. et al

121021SMB

Mar. 6,
2017

89

51.Picard v. Credit 12Agricole
1022(Suisse) S.A. et SMB
al

Mar. 6,
2017

94

52.Picard v. Arden
Asset
Management
Inc. et al

121023SMB

Mar. 6,
2017

100

53.Picard v. Solon
Capital, Ltd.

121025SMB

Mar. 6,
2017

69

54.Picard v. SNS
Bank N.V. et
al

121046SMB

Mar. 6,
2017

96

55.Picard v. Koch 12Industries, Inc., 1047SMB

Mar. 6,
2017

89

56.Picard v.
Kookmin Bank

121194SMB

Mar. 6,
2017

64

57.Picard v. Six
Sis AG

121195SMB

Mar. 6,
2017

100

337a
58.Picard v. Bank
Vontobel AG

121202SMB

Mar. 6,
2017

96

59.Picard v. MultiStrategy Fund
Limited et al

121205SMB

Mar. 6,
2017

75

60.Picard v.
Lloyds TSB
Bank PLC

121207SMB

Mar. 6,
2017

72

61.Picard v. BSI
AG,
individually
and as
successor in
interest

121209SMB

Mar. 6,
2017

96

62.Picard v.
Schroder & Co.
Bank AG

121210SMB

Mar. 6,
2017

76

63.Picard v. Union
Securities
Investment
Trust Co., Ltd.
et al

121211SMB

Mar. 6,
2017

83

64.Picard v. Bank
Hapoalim B.M.
et al

121216SMB

Mar. 6,
2017

101

338a
65.Picard v.
Mistral (SPC)

121273SMB

Mar. 6,
2017

70

66.Picard v.
Zephyros
Limited

121278SMB

Mar. 9,
2017

73

67.Picard v. ZCM
Asset Holding
Company
(Bermuda) LLC

121512SMB

Mar. 6,
2019

83

68.Picard v.
Standard
Chartered
Financial
Services
(Luxembourg)

121565SMB

Mar. 6,
2017

111

69.Picard v. UKFP
(Asia)
Nominees
Limited

121566SMB

Mar. 6,
2017

65

70.Picard v. BNP
Paribas S.A.

121576SMB

Mar. 9,
2017

88

71.Picard v. UBS
Deutschland
AG

121577SMB

Mar. 6,
2017

81

339a
72.Picard v.
Barfield
Nominees
Limited et al

121669SMB

Mar. 6,
2017

72

73.Picard v. Credit 12Suisse AG
1676SMB

Mar. 6,
2017

71

74.Picard v.
Societe
Generale
Private
Banking S.A.

121677SMB

Mar. 6,
2017

117

75.Picard v. Intesa
Sanpaolo SpA

121680SMB

Mar. 6,
2017

79

76.Picard v. EFG
Bank S.A

121690SMB

Mar. 6,
2017

71

77.Picard v.
Lombard Odier
Darier Hentsch
& Cie

121693SMB

Mar. 6,
2017

68

78.Picard v.
Banque
Cantonale
Vaudoise

121694SMB

Mar. 6,
2017

71

340a
79.Picard v.
Bordier & Cie

121695SMB

Mar. 6,
2017

68

80.Picard v. ABN
AMRO Fund
Servs.
Nominees Ltd

121697SMB

Mar. 6,
2017

120

81.Picard v.
Banque
Internationale
A Luxembourg
S.A.

121698SMB

Mar. 9,
2017

75

82.Picard v. Royal
Bank of
Canada

121699SMB

Mar. 9,
2017

70

83.Picard v.
Citibank Ltd.

121700SMB

Mar. 6,
2017

89

84.Picard v.
SafeHand Invs.

121701SMB

Mar. 10,
2017

92

85.Picard v.
Fairfield
Greenwich
Capital
Partners

121702SMB

Mar. 10,
2017

96

341a
86.Picard v.
Citibank

105345SMB

Mar. 9,
2017

107

87.Picard v. Delta
Nat’l Bank &
Tr. Co.

112551SMB

Mar. 3,
2017

76

88.Picard v.
Bureau of
Labor Ins.

112732SMB

Mar. 3,
2017

117

89.Picard v. Credit 12Agricole
1670Corporate and
SMB
Investment
Bank

Mar. 6,
2017

41

